<html>
<title> - THE AUTHORIZATIONS FOR THE USE OF MILITARY FORCE: ADMINISTRATION PERSPECTIVE</title>
<body><pre>[Senate Hearing 115-639]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-639

                        THE AUTHORIZATIONS FOR
                       THE USE OF MILITARY FORCE:
                       ADMINISTRATION PERSPECTIVE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           OCTOBER 30, 2017

                               __________
                               
       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-142 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="285847684b5d5b5c404d4458064b474506">[email&#160;protected]</a>                                 


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman
                
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     3


Tillerson, Hon. Rex, Secretary of State, U.S. Department of 
  State, Washington DC...........................................     6

    Prepared statement...........................................     8


Mattis, Hon. James, Secretary of Defense, U.S. Department of 
  Defense, Washington, DC........................................     9

              Additional Material Submitted for the Record

Statement for the Record Submitted by Human Rights First.........    55


Responses to Questions for Secretary Tillerson

    Questions from Senator Corker................................    58

    Questions from Senator Cardin................................    60

    Questions from Senator Young.................................    61

    Questions from Senator Menendez..............................    61

    Questions from Senator Portman...............................    66

    Questions from Senator Shaheen...............................    67

    Questions from Senator Kaine.................................    68


Responses to Questions for Secretary Mattis

    Questions from Senator Corker................................    69

    Questions from Senator Cardin................................    71

    Questions from Senator Flake.................................    71

    Questions from Senator Menendez..............................    72

    Questions from Senator Young.................................    75

    Questions from Senator Shaheen...............................    76

    Questions from Senator Isakson...............................    76

    Questions from Senator Kaine.................................    77

    Questions from Senator Portman...............................    78


CIA Memorandum for the Director: Use of Nuclear Weapons in the 
  Vietnam War--18 March 1966.....................................    81

Letter Expressing the Trump Administration's Opposition to S.J. 
  Res. 41 and S.J. Res. 43.......................................    93

Navy Contract Solicitation for Personnel Support, Part 1.........    95

Navy Contract Solicitation for Personnel Support, Part 2.........    97



                             (iii)        

 
                         THE AUTHORIZATIONS FOR
                       THE USE OF MILITARY FORCE:
                       ADMINISTRATION PERSPECTIVE

                              ----------                              


                        MONDAY, OCTOBER 30, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 5:00 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Portman, 
Paul, Cardin, Shaheen, Coons, Udall, Murphy, Kaine, Markey, 
Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations committee will come to 
order, and I want to deal with two housekeeping issues, if I 
could. I know we have a number of people here in the audience, 
some of whom sometimes like to express themselves. We thank you 
for being here.
    In the past when there have been interruptions, on occasion 
I have been able to have people un-arrested, but we have 
stopped that. So, please, do not do anything that causes you to 
have to be escorted out of the room because then the process 
continues with--being arrested is fairly unpleasant, and I 
would hate to see you go through that process.
    Secondly, we have a vote. We actually have two votes today, 
and so, which is unfortunate. What we have talked before about 
doing is adjourning the hearing at about seven minutes to six, 
everybody rushing down and actually voting on the tail end of 
the first vote, the beginning of the second vote. There will be 
no speaking before the second vote, and then if we could hustle 
back and keep going. I know General Mattis--Secretary--excuse 
me--Mattis has a meeting he would like to attend. I know others 
want to complete our work in an appropriate way.
    So, with that, I would like to thank Secretary Tillerson 
and Secretary Mattis for being with us today to share the 
administration's perspective on the Authorizations for the Use 
of Military Force. We are grateful to both of you for your 
service to our country and your willingness to come here again 
as we continue this critical discussion on behalf of the 
American people.
    Oversight and debate of the 2001 AUMF is something in which 
this committee has been engaged for as long as I have helped 
lead it, beginning as ranking member in 2013. At that time, 
many of us from both parties sought to craft a revised 
authority to enable the President to address the threats we 
face from terrorism while ensuring an appropriate role for 
Congress.
    When President Obama submitted an ISIS AUMF to Congress in 
February of 2015, our committee again held a hearing and 
debated the issue, but there was really no effort on the part 
of the White House to actually enact a new authorization. This 
year, we have already held two full committee hearings on this 
important topic, a public hearing in June with private 
witnesses and a classified briefing with Secretaries Tillerson 
and Mattis in August, and we thank you for that. We have been 
working to schedule this public hearing since that time.
    Numbers of members both on and off this committee have 
raised questions about the executive's authorities with respect 
to war making, the use of nuclear weapons--the use of nuclear 
weapons, and, from a diplomatic perspective, entering into and 
terminating agreements with other countries. As I have 
mentioned publicly, this is the beginning of a series of 
hearings where our committee will also examine those issues. 
But today it is my hope we will remain focused on the topic at 
hand, the 2001 AUMF and the 2002 AUMF for Iraq.
    The President's de facto ability to initiate conflict has 
grown in an age of advanced technology, including the use of 
unmanned drones and war from a distance where large numbers of 
boots on the ground are not necessary to conduct a very 
significant military engagement. Examples of significant 
military actions by recent presidents relying solely on Article 
II of the Constitution include air strikes in Kosovo, regime 
change in Libya, and the April missile strike against the Assad 
regime in Syria.
    In his last War Powers Resolution letter to Congress, the 
President identified the following 19 countries where U.S. 
military personnel were deployed and equipped for combat: 
Afghanistan, Iraq, Syria, Yemen, Somalia, Libya, Kenya, Niger, 
Cameroon, Uganda, South Sudan, Democratic Republic of Congo, 
Central Africa--African Republic, Djibouti, Jordan, Turkey, 
Egypt, Cuba, and Kosovo. As this month's deadly attack in Niger 
proved, those forces can find themselves in combat at any 
moment.
    As our men and women in uniform continue to meet threats 
around the world, I hope that our witnesses can help us examine 
what the appropriate oversight role for Congress is, and how we 
can work together to ensure that our Nation's political 
leadership is meeting the responsibility to decide when and 
where our country uses military force.
    As I stated previously, in this hearing we will focus 
primarily on the two current Authorizations for the Use of 
Military Force. Unfortunately, the use of lethal force against 
ISIS, al-Qaeda, and other terrorist groups will remain 
necessary for the foreseeable future to prevent attacks against 
Americans and our allies.
    The President, just like President Obama, believes he has 
the legal authority he needs under the 2001 AUMF to fight ISIS, 
al-Qaeda, and other terrorist groups, and I agree. I agreed 
with the Obama administration, and I agree with this 
administration that they currently have that authority.
    It is clear that Congress is united in the strong support 
of the fight against al-Qaeda, the Taliban, ISIS, and other 
terrorist groups, and I believe Congress as a whole would agree 
that the President should continue to act against these 
threats. Congress has regularly notified--been notified of 
troop deployments around the world, including the build-up in 
Niger, and has responded consistently by funding the Department 
of Defense and its operations against ISIS and terrorists 
around the world. At the same time, I also believe we should 
update the AUMF to reflect the current conflict and reassert 
Congress' constitutional role, but we cannot risk undermining 
the legal foundation for this critical fight.
    We must also be mindful that moving an AUMF without 
significant bipartisan support could send the wrong message to 
our allies and our adversaries that we are not united and 
committed to victory. So far, Congress has been unable to 
bridge the gap between those who see a new AUMF as primarily an 
opportunity to limit the President and those who believe 
constraining the Commander-in-Chief in wartime is unwise. And 
unfortunately, the inability to reconcile this divide without 
threatening the existing authorization has allowed the status 
quo to prevail.
    This committee has always recognized that we have a special 
responsibility to try to speak with one voice on foreign 
policy. We have a great tradition of working together in a 
bipartisan way to advance the national interests. It is my hope 
that we will be able to do the same on this issue. I thank both 
of our distinguished witnesses and the members of this 
committee for the seriousness with which they approach the 
topic before us today. And I hope that together we can have a 
productive discussion about a way forward.
    Our distinguished ranking member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I join you 
in welcoming our two witnesses, and join you in our strong 
desire for this committee to operate in a nonpartisan way for 
the betterment of our national security, and I thank you for 
conducting this hearing. This is one of the most important 
topics the United States Senate and this committee could ever 
consider: under what circumstances and legal authority should 
the United States send men and women into war.
    Mr. Chairman, I am pleased that you are reasserting this 
committee's prerogatives on this issue. I hope that soon we 
will also be considering the repeal of the existing 
overextended Authorizations for the Use of Military Force from 
9/11 and the Iraq War, and a new AUMF tailored to the current 
terrorist threats.
    America faces unprecedented crises around the world, from 
ISIS in multiple countries, and al-Qaeda affiliates continuing 
to plot attacks against the United States, to a worsening 
nuclear crisis with North Korea, and a newly-manufactured 
crisis with Iran. I am deeply concerned about President Trump's 
inclination to go to war rather than find diplomatic solutions 
to these crises.
    It seems we have U.S. troops deployed almost everywhere in 
the world. In addition to significant deployments in Iraq, 
Afghanistan, and Syria, and major deployments in South Korea, 
Japan, and Europe, U.S. forces are and have been engaged in 
counterterrorism operations in Yemen, Somalia, Ethiopia, Libya, 
and Chad, with extensive advice, train, and capacity-building 
efforts in many more.
    Two weeks ago, we learned that four service members were 
killed in Niger in circumstances that are still unclear, their 
mission and the mission of what many may be as many as 800 U.S. 
troops in Niger. What is also unclear, the loss of these four 
courageous soldiers--Sergeant La David Johnson, Staff Sergeant 
Dustin M. Wright, Staff Sergeant Bryan C. Black, and Staff 
Sergeant Jeremy W. Johnson--shows the danger faced by men and 
women who are deployed around the world, whether they are 
deployed with the expectation of combat or not.
    Our hearts are with the families of these soldiers. They 
served their country courageously, and their families deserve 
the respect and appreciation that all men and women should 
receive after losing a loved one.
    During this hearing, I am going to be asking the witnesses 
some specific questions about the Niger incident, the mission 
these soldiers were performing, and the legal authorities for 
their deployment. That is our responsibility, this committee's 
responsibility. If our witnesses are unable to answer these in 
open hearings, then I am going to ask that you return to 
provide this committee a classified hearing. I think that we 
and the American people are now asking if the United States is 
fighting and dying in Niger, where else are U.S. forces put in 
harm's way.
    Some information has been provided to the Congress on this 
issue, including the June 27 notice to Congress that the 
chairman referred to. But there has been inadequate explanation 
of what activities are actually being done and under what legal 
authority. That is this committee's responsibility to deal with 
the authorization. Protecting the American people from 
terrorism extending from threats around the world is certainly 
important. But I think there needs to be more public discussion 
and light on these activities because I do not think the 
American people want the United States conducting a global 
endless shadow war under the radar, covert, and beyond 
scrutiny.
    There have been developments since this committee's last 
conversation on this topic with the Secretaries in August. 
First, ISIS control of contiguous territories in Iraq and Syria 
have been broken with hundreds of ISIS fighters killed and 
hundreds more surrendering. Second, the crisis with North Korea 
has gotten worse with North Korea testing both the ICBM with 
the ability to reach the United States and a thermonuclear 
device amid a bitter war of words and threats between President 
Trump and Kim Jong-un. Third, President Trump has even 
threatened the use of military options in response to the 
crisis in Venezuela.
    And finally, I am aware that we cannot discuss all the 
aspects of the use of the Authorization for Military Force in 
this meeting. The Foreign Relations Committee has jurisdiction 
over the AUMF and security assistance in the Senate, and an 
obligation to provide oversight as to how they can be used. 
Secretary Mattis and Secretary Tillerson, I will be asking you 
to commit to come up shortly to this committee and brief us in 
a classified setting on the use of the 2001 AUMF, including for 
counterterrorism purposes.
    As I said at our hearing in June, the 9/11 and Iraq AUMF 
have now become mere authorities of convenience for presidents 
to conduct military activities anywhere in the world. They 
should not be used as the legal justification for the 
administration's military activities around the world. I am not 
convinced that the evolving threat of ISIL to the United States 
and to our friends and allies necessitates committing more of 
our brave men and women to ground combat operations, and 
certainly not under the rubric of the 9/11 AUMF against al-
Qaeda for their attacks in Washington and New York.
    I am going to repeat one more time for the record what that 
says. The 2001 AUMF said the President is ``authorized to use 
all necessary and appropriate force against those nations, 
organizations, or persons he determines planned, authorized, 
committed, or aided the terrorist attacks that occurred on 
September 11th, 2011, or harbored such organizations or 
persons, in order to prevent any future acts of international 
terrorism against the United States by such nations, 
organizations, and purposes.'' As one who voted for that AUMF 
when I was in Congress in 2001, I never intended, and I think 
all of us never intended, it would still be used today to 
justify the use of military force against ISIS.
    Just one last point, if I might, Mr. Chairman, and that is 
I think it is very clear that under this authorization, there 
is no authorization for the use of military force against North 
Korea, unless there is an--absent an imminent attack upon the 
United States or upon forces or allies in this region. And I 
would be interested in hearing the Secretaries' belief as to 
what authorizations exist today for military operations against 
North Korea.
    Finally, it is important for Congress to better exercise 
its oversight over the use of force now. The United States has 
relied for too long on military force as the first response to 
the problems of terrorism, insurgency, and instability abroad. 
In this administration, one wonders--one wonders whether it has 
become the first and only response. It has proposed a dramatic 
increase in the defense budget, while the foreign affairs' 
budget has been slashed by 30 percent. Very soon, practically 
the only tools left in the U.S. foreign toolbox will be the 
massive hammer applied everywhere for lack of better options. 
We need to both authorize and to set limits on the use of that 
hammer. In so doing, perhaps the administration will rediscover 
the necessity and the value of diplomacy, development, and 
support for human rights as the means to build a safer world 
for everyone, especially the United States.
    I know that our two witnesses share the commitment to our 
national security and the importance of diplomacy and the use 
of military, and I look forward to their testimony.
    The Chairman. Thank you, Senator Cardin. We thank both of 
you for being here today. You have tremendous respect by almost 
every member of this committee. We support your efforts around 
the world. And if you could limit your comments to about 5 
minutes or so, you are going to have a lot of questions I know. 
Any written materials that you would like to have entered into 
the record will be done without objection.
    And I guess we will start with you, Secretary Tillerson. 
Again, we thank you for your extraordinary efforts on behalf of 
our country.

   STATEMENT OF HON. REX TILLERSON, SECRETARY OF STATE, U.S. 
             DEPARTMENT OF STATE, WASHINGTON, D.C.

    Secretary Tillerson. Thank you, Mr. Chairman. Chairman 
Corker, Ranking Member Cardin, and distinguished members, I 
appreciate the opportunity to speak to you today. I know the 
Senate's desire to understand the United States' legal basis 
for military action is grounded in your constitutional role 
related to foreign policy and national security matters. I 
understand your sense of obligation to the American people well 
in this regard.
    In the 2001 Authorization for the Use of Force, or AUMF, 
Congress authorized the President to ``to use all necessary and 
appropriate force against those nations, organizations, or 
persons he determines planned, authorized, committed, or aided 
the terrorist attacks that occurred on September 11th, 2001, or 
harbored such organizations or persons.'' Congress granted the 
President this statutory authority ``in order to prevent any 
future acts of international terrorism against the United 
States by such nations, organizations, or persons.''
    The 2001 AUMF provides statutory authority for ongoing U.S. 
military operations against al-Qaeda, the Taliban, and 
associated forces, including against the Islamic State in Iraq 
and Syria, or ISIS. The administration relies on the 2001 AUMF 
as a domestic legal authority for our own military actions 
against these entities, as well as the military actions we take 
in conjunction with our partners in the coalition to defeat 
ISIS. The 2001 AUMF provides a domestic legal basis for our 
detention operations at Guantanamo Bay where the United States 
currently detains members of al-Qaeda, the Taliban, and 
associated forces.
    The 2001 AUMF also authorizes the use of necessary and 
appropriate force to defend U.S., coalition, and partner forces 
engaged in the campaign to defeat ISIS in Iraq and Syria. In 
Syria, the efforts of the U.S.-led coalition are aimed at the 
defeat of ISIS. The United States does not seek to fight the 
Syrian government or pro-Syrian government forces. However, the 
United States will not hesitate to use necessary and 
proportionate force to defend U.S., coalition, or partner 
forces engaged in the campaign against ISIS. The President's 
authority to use force against ISIS is further reinforced by 
the Authorization for Use of Force against Iraq, or, in more 
plain terms, the 2002 AUMF.
    In addition to authorities granted to the President by 
statute, the President has the power under Article II of the 
Constitution to use military force in certain circumstances to 
advance important U.S. national interests, including to defend 
the United States against terrorist attacks. As an example, 
President Reagan relied on his authority as Commander-in-Chief 
in 1986 when he ordered airstrikes against terrorist facilities 
and military installations in Libya following a terrorist 
attack by Libya in West Berlin, which killed and wounded both 
civilians and U.S. military personnel.
    The United States has the legal authority to prosecute 
campaigns against the Taliban, al-Qaeda, and associated forces, 
including ISIS, and is not currently seeking any new or 
additional congressional authorization for the use of force. 
The 2001 AUMF remains a cornerstone for ongoing U.S. military 
operations and continues to provide legal authority relied upon 
to defeat this threat. However, should Congress decide to write 
a new AUMF legislation, I submit to you several recommendations 
that the administration would consider necessary to a new AUMF.
    First, a new AUMF authorities must be in place prior to or 
simultaneous with the repeal of old ones. Failure to do so 
could cause operational paralysis and confusion in our military 
operations. Diplomatically speaking, it could cause our allies 
in the global coalition to question our commitment to defeating 
ISIS. And a potential repeal of the 2001 AUMF without an 
immediate and appropriate replacement could raise questions 
about the domestic legal basis for the United States' full 
range of military activities against the Taliban, al-Qaeda, and 
associated forces, including against ISIS, as well as our 
detention operations at Guantanamo Bay.
    Second, any new authorization should not be time 
constrained. Legislation which would arbitrarily terminate the 
authorization to use force would be inconsistent with a 
conditions-based approach and could unintentionally embolden 
our enemies with the goal of outlasting us. Any oversight 
mechanism in a new AUMF also would have to allow the United 
States the freedom to quickly move against our enemies without 
being constrained by a feedback loop.
    Third, a new AUMF must not be geographically restricted. As 
is the case under the AUMF, the administration would need to 
retain the statutory authority to use military force against an 
enemy that does not respect or limit itself based on geographic 
boundaries. As ISIS' fraudulent caliphate in Iraq and Syria has 
crumbled, it has tried to gain footholds in new locations. As 
was discussed with the Senate during a closed defeat ISIS 
briefing in July, the United States has a limited military 
presence in the Lake Chad Basin to support partners, including 
France, in their counterterrorism operations in the region. 
This information is also being conveyed to you in multiple 
periodic reports submitted to Congress consistent with the War 
Power Resolution.
    The collapse of ISIS' so-called caliphate in Iraq and Syria 
means it will attempt to burrow into new countries and find new 
safe havens. Our legal authorities for heading off a 
transnational threat like ISIS cannot be constrained by 
geographic boundaries. Otherwise, ISIS may reestablish itself 
and gain strength in vulnerable spaces.
    The United States must retain the proper legal authorities 
to ensure that nothing restricts or delays our ability to 
respond effectively and rapidly to terrorist threats to the 
United States. Secretary Mattis and I, along with the rest of 
the administration, are completely aligned on this issue. We 
fully recognize the need for transparency with you as we 
respond to what will be a dynamic regional and global issue. We 
will continue to regularly update Congress and to make sure you 
and the American people understand our foreign policy goals, 
military operations, and national security objectives.
    I thank the committee for supporting our efforts and look 
forward to your questions.
    [Secretary Tillerson's prepared statement follows:]


         Prepared Statement of Secretary of State Rex Tillerson

    Chairman Corker, Ranking Member Cardin, and distinguished members, 
I appreciate the opportunity to speak to you today. I know the Senate's 
desire to understand the United States' legal basis for military action 
is grounded in your constitutional role related to foreign policy and 
national security matters. I understand your sense of obligation to the 
American people well in this regard.
    In the 2001 Authorization for Use of Military Force, or AUMF, 
Congress authorized the President ``to use all necessary and 
appropriate force against those nations, organizations, or persons he 
determines planned, authorized, committed, or aided the terrorist 
attacks that occurred on September 11, 2001, or harbored such 
organizations or persons.'' Congress granted the President this 
statutory authority ``in order to prevent any future acts of 
international terrorism against the United States by such nations, 
organizations or persons.''
    The 2001 AUMF provides statutory authority for ongoing U.S. 
military operations against al- Qaeda; the Taliban; and associated 
forces, including against the Islamic State in Iraq and Syria, or ISIS.
    This administration relies on the 2001 AUMF as a domestic legal 
authority for our own military actions against these entities, as well 
as the military actions we take in conjunction with our partners in the 
Global Coalition to Defeat ISIS.
    The 2001 AUMF provides a domestic legal basis for our detention 
operations at Guantanamo Bay, where the United States currently detains 
members of al-Qaeda, the Taliban, and associated forces.
    The 2001 AUMF also authorizes the use of necessary and appropriate 
force to defend U.S., Coalition, and partner forces engaged in the 
campaign to defeat ISIS in Iraq and Syria. In Syria, the efforts of the 
U.S.-led Coalition are aimed at the defeat of ISIS; the United States 
does not seek to fight the Syrian Government or pro-Syrian-Government 
forces. However, the United States will not hesitate to use necessary 
and proportionate force to defend U.S., Coalition, or partner forces 
engaged in the campaign against ISIS.
    The President's authority to use force against ISIS is further 
reinforced by the Authorization for Use of Military Force Against Iraq, 
or, in more plain terms, the ``2002 AUMF.''
    In addition to authorities granted to the President by statute, the 
President has the power under Article II of the Constitution to use 
military force in certain circumstances to advance important U.S. 
national interests, including to defend the United States against 
terrorist attacks. As an example, President Reagan relied on his 
authority as Commander in Chief in 1986 when he ordered airstrikes 
against terrorist facilities and military installations in Libya 
following a terrorist attack by Libya in West Berlin which killed and 
wounded both civilians and U.S. military personnel.
    The United States has the legal authority to prosecute campaigns 
against the Taliban, al-Qaeda, and associated forces, including ISIS, 
and is not currently seeking any new or additional congressional 
authorization for the use of force. The 2001 AUMF remains a cornerstone 
for ongoing U.S. military operations and continues to provide legal 
authority relied upon to defeat this threat.
    However, should Congress decide to write new AUMF legislation, I 
submit to you today several recommendations that the administration 
would consider necessary to a new AUMF:
    First, new AUMF authorities must be in place prior to or 
simultaneous with the repeal of old ones. Failure to do so could cause 
operational paralysis and confusion in our military operations. 
Diplomatically speaking, it could cause our allies in the Global 
Coalition to question our commitment to defeating ISIS. And potential 
repeal of the 2001 AUMF without an immediate and appropriate 
replacement could raise questions about the domestic legal basis for 
the United States' full range of military activities against the 
Taliban, al-Qaeda, and associated forces, including against ISIS, as 
well as our detention operations at Guantanamo Bay.
    Second, any new authorization should not be time-constrained. 
Legislation which would arbitrarily terminate the authorization to use 
force would be inconsistent with a conditions-based approach, and could 
unintentionally embolden our enemies with the goal of outlasting us. 
Any oversight mechanism in a new AUMF also would have to allow the 
United States the freedom to quickly move against our enemies without 
being constrained by a feedback loop.
    Third, a new AUMF must not be geographically restricted. As is the 
case under the current AUMF, the administration would need to retain 
the statutory authority to use military force against an enemy that 
does not respect or limit itself based on geographic boundaries. As 
ISIS's fraudulent caliphate in Iraq and Syria has crumbled, it has 
tried to gain footholds in new locations. As was discussed with the 
Senate during a closed defeat-ISIS briefing in July, the United States 
has a limited military presence in the Lake Chad Basin to support 
partners, including France, in their counterterrorism operations in the 
region. This information has also been conveyed to you in multiple 
periodic reports submitted to Congress consistent with the War Powers 
Resolution. The collapse of ISIS's so-called caliphate in Iraq and 
Syria means it will attempt to burrow into new countries and find safe 
havens. Our legal authorities for heading off a transnational threat 
like ISIS cannot be constrained by geographic boundaries. Otherwise, 
ISIS may re-establish itself and gain strength in vulnerable spaces.
    The United States must retain the proper legal authorities to 
ensure that nothing restricts or delays our ability to respond 
effectively and rapidly to terrorist threats to the United States. 
Secretary Mattis and I, along with the rest of the administration, are 
completely aligned on this issue. We fully recognize the need for 
transparency with you as we respond to what will be a dynamic regional 
and potentially global issue. We will continue to regularly update 
Congress to make sure you and the American people understand our 
foreign policy goals, military operations, and national security 
objectives.
    I thank the committee for supporting our efforts, and look forward 
to your questions.


    The Chairman. Thank you. Secretary Mattis, we thank you 
also for being here and your extraordinary service not only as 
Secretary, but through many, many years in our military. We 
especially appreciate the fact that the two of you work 
together constantly to deal with issues in a unified voice, and 
we very much appreciate that.
    With that, if you would begin.

  STATEMENT OF HON. JAMES MATTIS, SECRETARY OF DEFENSE, U.S. 
            DEPARTMENT OF DEFENSE, WASHINGTON, D.C.

    Secretary Mattis. Thank you. Chairman Corker, Ranking 
Member Cardin, members of the committee, it is appropriate we 
appear before you today to explain what we are doing from DOD's 
perspective in our counterterrorism campaign and why.
    This has been a long 16-year global conflict characterized 
by a very different form of warfare, specifically terrorism, 
fueled by extremism, aimed at innocents around the globe. 
Traditional campaigns to protect our people must adapt to the 
reality of today's nontraditional transnational character of 
this fight. The 2001 and 2002 Authorizations to Use of Military 
Force, or AUMF, remain a sound basis for ongoing U.S. military 
operations against a mutating threat.
    In the aftermath of the deadly 9/11 attack and to prevent 
future acts of international terrorism against the United 
States, Congress passed the 2001 AUMF, finding the President 
has, and I quote, ``authority under the Constitution to take 
action to deter and prevent acts of international terrorism 
against the United States.'' The 2002 AUMF provides the 
President with authority to, and I quote again, ``defend the 
national security of the United States against the continuing 
threat posed by Iraq.'' Previous administrations have cited 
these statutory authorities to address the threat posed by 
terrorist groups in Iraq and Syria.
    As demonstrated by presidents from Washington to Lincoln, 
Wilson, FDR, and their successors, it lies firmly within any 
president's constitutional authority and responsibility as the 
elected Commander-in-Chief to designate who presents a threat 
to our country. To date, this Article II authority, reinforced 
by the 2001 and 2002 AUMFs, has been used to take action 
against al-Qaeda, the Taliban, ISIS, and associated forces.
    Following the December 2011 pullout of our forces and--from 
Iraq and the outbreak of civil war in Syria, al-Qaeda in Iraq 
regained strength and rebranded itself as ISIS. In 2014 under 
its new name, ISIS unleashed mayhem in the heart of the Middle 
East, building its self-described caliphate and attracting the 
allegiance of terror groups from the Sahel to Southeast Asia. 
Groups would plan, inspire, and conduct external attacks around 
the globe, attacks that include San Bernardino, Paris, Orlando, 
London, and the Philippines to name only a few.
    Though a statement of continued congressional support would 
be welcome, a new AUMF is not legally required to address the 
continuing threat posed by al-Qaeda, the Taliban, and ISIS. 
Article II of our Constitution, the 2001 and 2002 AUMFs provide 
sufficient legal authority for us to engage and defeat the 
current threat, which we are doing by working by, with, and 
through our allies and partners. That said, any new 
congressional expression of unity, whether or not an AUMF, 
would present a strong statement to the world of America's 
determination, demonstrating, as Senator Kaine has stated, ``an 
important message of resolve to the American public and our 
troops that we stand behind them in their mission.''
    With that for background, I would like to note that to 
successfully prosecute the counterterrorism campaign, any 
debate on a new or revised AUMF needs to incorporate the 
following factors.
    First, the 2001 and 2001 AUMFs should not be repealed. 
After numerous court cases and debates, there appears to now be 
a general consensus by all three branches of government that 
these two AUMFs provide sufficient authority to prosecute 
operations against al-Qaeda, the Taliban, and, we believe, 
ISIS.
    Repealing the 2001 and 2002 AUMFs would only cause 
unnecessary policy and legal uncertainty, which could lead to 
additional litigation and public doubt. The uncertainty 
accompanying that situation could only signal to our enemies 
and our friends that we are backing away from this fight. It 
would stall our operations, immediately reduce allied 
commitments and support, and create significant opportunities 
for our enemies to seize the initiative. Additionally, 
repealing the AUMFs without new authority would deprive us of 
the ability to detain dangerous enemy combatants who could then 
be released to fight again.
    Second, any new AUMF must not be time restricted. For 
example, President Trump's South Asia strategy is conditions-
based, not time-based, because war is fundamentally 
unpredictable. We cannot put a firm timeline on conflict 
against an adaptive enemy who would hope that we have not the 
will to fight as long as necessary. Instead, we must recognize 
that we are in an era of frequent skirmishing, and we are more 
likely to end this fight sooner if we do not tell our adversary 
the day we intend to stop fighting. A conditions-based AUMF 
would not lessen Congress' authority. The power of the purse 
remains firmly vested in your hand should the executive branch 
not present a persuasive case for continuing the campaign.
    Lastly, any new AUMF must not be geographically 
constrained. As has been stated, these are not traditional 
threats. This is a fight against a transnational enemy, one 
that does not respect international borders, and does not place 
geographic limits on their areas of operations. So necessarily, 
to defend our country, we must be prepared to swiftly engage 
this global enemy in conjunction with our allies and partners.
    Regardless of the adaptations we must make for the common 
defense, I recognize that it is incumbent on the Department of 
Defense to keep Congress fully informed to fulfill its 
constitutional role, and I will continue to do so. Accordingly, 
as our troops on the battlefield carry out the last 300 meters 
of American foreign policy to protect our way of life, I ask 
Congress for your continued support and commitment to ensure we 
retain the necessary authorities to take our own side in this 
fight.
    Thank you.
    The Chairman. Thank you very much. I am going to reserve my 
time for interjections and defer to our ranking member, and 
then move down the line. For those of you who may have 
stepped--may have stepped in late, I know giving guidance to 
senators is a useless effort--[Laughter.]
    Senator Risch. Very true.
    The Chairman--[continuing]. But we are going to have a 
whole series of hearings. This one hopefully is mostly focused 
on the 2001/2002 AUMFs, but we will have a series of hearings 
looking at other war-making powers, whether it is North Korea, 
nuclear issues. We have had members on the committee and off 
ask about these issues. So, just know that, but I know you are 
going to ask whatever you wish.
    With that, Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. First, I want to 
welcome Senator King to our committee. It is not the first time 
he has attended our hearings, and it is nice to have you here.
    I would ask consent that the statement from Human Rights 
First be made part of our record.
    The Chairman. Without objection.
    Senator Cardin. Thank you.


    [The information referred to is located at the end of this 
hearing transcript on pages 55-58.]


    Senator Cardin. Secretary Mattis and Secretary Tillerson, I 
think we all agree that we are not anxious to repeal the 2001 
authorization without a new authorization being in force. That 
has certainly been the game plan. But I will point out that 
there are significant differences here about whether the 2001 
authorization covers the military operation--counterterrorism 
operations against ISIS. Many of us believe that is not 
included in the 2001, but we do agree that Congress needs to 
make sure that there is authorization to pursue our 
counterterrorism efforts.
    As I indicated in my opening statement, operational 
decisions on the use of AUMF for counterterrorism, I understand 
would not appropriate in an open setting. So, my request, and I 
would ask that you respond to it, that you would be willing to 
return in a closed session in order that the committee of 
jurisdiction on the AUMF has a better understanding of how the 
operational decisions are being made?
    Secretary Tillerson. Certainly, Senator.
    Senator Cardin. Thank you.
    Secretary Mattis. Absolutely, sir.
    Senator Cardin. I appreciate that. I understand the 
chairman's admonition about North Korea, but I just really want 
to put on the record, would you agree that there is no 
congressional authorization for the use of military force 
against North Korea? I understand the President's authorities 
under Article II. If there is an imminent threat against the 
United States, he has certain powers. But as far as 
congressional authorization, there is no authorization. Is that 
correct?
    Secretary Tillerson. That is my understanding, yes.
    Secretary Mattis. I believe the President has Article II, 
you know, authority only.
    Senator Cardin. Thank you. I want to get to what happened 
in Niger and sort of understand where we are because there is 
also limitations on the introduction of troops under the War 
Powers Act limiting it to 60 days, and as I understand it, our 
troops in Northern Africa have been there much longer than 60 
days. Can you just explain very briefly what our mission was in 
Niger when the tragedy occurred, and under what legal authority 
those troops were there?
    Secretary Mattis. I can, Senator. The troops are there are 
under Title 10 in a train and advise role. The letter from the 
President, from President Obama in 2013 to the president pro 
tem of the Senate and speaker of the House talks to the total 
number of U.S. military deployed there in 2013 was a hundred in 
furtherance of U.S. national security interests is President 
Obama's report to you. That continues to be the case at this 
time.
    Senator Cardin. But the specific mission that they were 
participating in, as I understand it, went beyond that. Am I 
wrong on that?
    Secretary Mattis. The mission of those troops on that 
patrol was a--was a combined patrol, which means they were with 
Niger troops, and they were on a patrol where they were 
teaching them how you do what is called key leader engagement. 
I would have to wait until I get the full investigation in to 
give you a more complete answer. But they are there with the 
Niger troops to train and advise them, consistent with the 
original intent they were sent there under the previous 
administration, continues to be the intent today.
    Senator Cardin. So, this is not 2001 authorization.
    Secretary Mattis. No, sir, this is under--this is under the 
Title 10, and requires us to report to you under that 
authority.
    Senator Cardin. I understand. Thank you for that answer. I 
want to know how far we would go in pursuing military options 
in that region of the world. Boko Haram is a horrible group 
doing terrible things. Do you have the authority under the 2001 
to pursue Boko Haram's atrocities?
    Secretary Mattis. These troops were there under Title 10.
    Senator Cardin. I know.
    Secretary Mattis. But as far as Boko Haram goes, they have 
pledged allegiance to ISIS or al-Qaeda, and so either way, they 
have associated themselves with the very group that that 
authorization is targeted on.
    Senator Cardin. So, without any further authorization from 
Congress, you believe you have authorization if the 
determination is made to deploy whatever force is necessary to 
go after Boko Haram, including ground troops?
    Secretary Mattis. If the President detects that there is a 
threat from them against us, our interests, I believe he would 
have the authority to designate that group, yes, sir.
    Senator Cardin. Yes, I understand the threat, but the 
threat is related to the 2001 threat is what you are saying. 
That this is a group that is--whose terrorist activities are 
endangering----
    Secretary Mattis. If it is an associated group, he would, 
under that----
    Senator Cardin. Well, he could--he could declare that to be 
an associated group?
    Secretary Mattis. No, he didn't.
    Senator Cardin. He could----
    Secretary Mattis. Boko Haram declared that they were an 
associated group.
    Senator Cardin. They did, but the President could authorize 
them as an affiliate group, and then use the full force of our 
military, including ground troops, without further 
restrictions?
    Secretary Mattis. Right now, Senator, they are--our troops 
are there under Title 10. I do not want to speculate about that 
because that is not what they are doing right now. I would have 
to go back and study it, but I believe a group that declares 
its allegiance to either al-Qaeda or ISIS would then be part of 
al-Qaeda or ISIS, yes, sir.
    Senator Cardin. Yeah, but my question really is related to 
how far he could commit our military to these types of 
campaigns. When we were attacked on September the 11th, we 
recognized the need for a military response, and we certainly 
understood that American troops are going to be called upon to 
protect our country. I am not sure that Congress envisioned 
that we would have the potential of ground troops in Northern 
Africa in combat missions. However, if I understand what you 
are saying, unless we modify this AUMF, you would feel that you 
have adequate authorization to commit American ground troops in 
Northern Africa.
    Secretary Mattis. Senator, if the President determines they 
are a threat to the United States, and--under the AUMF, say, 
they are allied with al-Qaeda or ISIS, yes, sir, I believe so.
    Senator Cardin. Thank you.
    The Chairman. Thank you. Senator Johnson.
    Senator Johnson. Mr. Chairman, let me first start out by 
thanking both the Secretaries for their service to the country. 
Let me pick up on the point of ground troops.
    Secretary Mattis, in your testimony, you talked about a 16-
year global conflict, totally different than anything we have 
really witnessed in the past. I remember when we had this 
discussion a couple years ago with the advent of ISIS, trying 
to rewrite a new authorization for use of military force, there 
was an awful lot of discussion about limiting ground troops. No 
ground troops. Secretary Tillerson, I think you said in your 
testimony, you talked about the caliphate is basically ended, 
is it not, or really darn close?
    Secretary Tillerson. Well, we have liberated a large amount 
of area in Iraq and Syria, but that fight is not over yet.
    Senator Johnson. Secretary Mattis, is there any way we 
could have done what we have done so far with the caliphate 
without ground troops?
    Secretary Mattis. I do not believe so, Senator.
    Senator Johnson. And yet, 2 years ago we were debating in 
this committee replacing the Authorization for Use of Force 
with one that would have restricted President Obama's and his 
replacement, his successor, his ability to--his or her ability 
to use ground troops. That would have been a big mistake, would 
it not have?
    Secretary Mattis. Senator, generally speaking, when you--
you do not tell the enemy in advance what you are not going to 
do. That is not a wise--even if you do not choose to do it, 
there is no need to announce that to the enemy and relieve them 
of that concern.
    Senator Johnson. Yeah, in the 2001 authorization, I 
personally do not think the 2001 applies to this situation, I 
really do not, when you read it, but by precedent, it does. But 
it does not restrict the President's use of force. It says, 
``to use all necessary and appropriate force,'' and then it 
goes on to describe what those--what those nations, what those 
organizations really are.
    In a real declaration of war against Japan and Germany, 
Congress declared that ``The President is authorized and 
directed to employ the entire naval and military force of the 
United States and the resources of the government to carry on 
the war against,'' in this case, the government of Germany, 
``and to bring the conflict to a successful termination, all 
the--all the resources of the country are hereby pledged by the 
Congress of the United States.''
    So, both in the 2001 authorization and the declarations of 
war against both Germany and Japan, there were no restrictions. 
We pledged all necessary resources of this country to the 
defeat of our enemy.
    In both your testimony, you laid out three conditions, but 
one thing I want to clear up. Secretary Mattis, you said we 
should not be--we should not repeal the 2001/2002 later on you 
talked about, without a new authorization. You are not--there 
is no difference in your testimony, correct?
    Secretary Mattis. No, sir.
    Senator Johnson. You can repeal them as long as you have 
something else in its place.
    Secretary Mattis. There are some lawyers who will say it is 
good to hold on to what you have even if you pass a new one 
that perhaps changes it in some way.
    Senator Johnson. So, is there a slight difference between 
your two testimonies then? You would prefer keeping the 2001/
2002 AUMF in place.
    Secretary Mattis. I would have to see what came out next, 
Senator, but right now I would say yes. We have been through a 
lot of difficulty trying to get the three branches of 
government aligned on this.
    Senator Johnson. Okay. I am not disagreeing with you in any 
way, shape, or form. You both said that neither--if there is a 
new AUMF, it should not be time restricted. You both said it 
should not be geographically restricted. I was waiting for the 
fourth, but neither one of you said this: there should be no 
operational restrictions. Do you believe there should be 
operational restrictions as we contemplated a couple years ago? 
No ground troops or something of that type of restriction? 
Secretary Tillerson.
    Secretary Tillerson. No, I do not think we can restrict 
operations given the way this particular enemy morphs, changes 
its tactics. As we saw with the emergence of ISIS, we start 
with what might be a fairly limited group of terrorists who 
then are able to overrun large territories and amass armies, 
essentially their own armies of tens of thousands. That 
requires a very different use of force than trying to chase and 
defeat terrorists that are making their way through the jungles 
in smaller numbers.
    This is an enemy that changes it names. It moves across 
borders. It is a non-state actor. And it has morphed and 
changed over this 16 years, which I know is part of why this is 
such a vexing issue because it does not fit a declaration of 
war. Certainly, it does not fit the criteria that Congress has 
used in the past for declarations of war.
    Senator Johnson. It is a totally different enemy than we 
faced in the past, but this has been a 16-year struggle.
    I do not think it is going to be over any time soon. 
Secretary Mattis, can you describe what has changed in the 
change of the administration that has allowed us to defeat the 
caliphate in relatively short order compared to what had been 
happening the previous 2 years?
    Secretary Mattis. Senator, what we did was we changed the 
tactics. We accelerated the number of partnered units that had 
American forces with them, not to do the fighting, but to call 
in air support. The change in tactics was one that where we 
could, we would surround the enemy first so they could not fall 
back and reinforce the next site, thus making it harder. And 
you saw the surround tactics used in Mosul, in Tal Afar, in 
Tatkal, in Raqqa.
    And those are the big changes, sir, as we accelerated the 
campaign, but also lessened the chance that foreign fighters 
could escape to return home or to reinforce the next position.
    Senator Johnson. Would you say it is true that we have 
allowed the commanders on the ground to make the decisions to 
defeat the enemy rather than direct them here from Washington, 
D.C.?
    Secretary Mattis. I have delegated authority to the 
appropriate levels, yes, sir.
    Senator Johnson. Both of you seemed to indicate that 
continued congressional support would be welcome if it is a 
statement of unity. But it has to be an authorization that does 
not restrict the military's ability to defeat our enemies. Is 
that correct?
    Secretary Tillerson. That is correct.
    Secretary Mattis. I agree, Senator. Assuming strong and 
very robust feedback loops to the Congress to keep you fully 
informed.
    Senator Johnson. I have no further questions. Again, thank 
you for your service.
    The Chairman. Thank you. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman, and thank you both 
for your service, and thank you for being here today.
    Secretary Mattis, the existence of multiple local militia 
forces in Iraq remains a major problem as ISIL is driven out. 
Kurdish aspirations of nationhood may be just the tip of the 
iceberg, and I am concerned we are ending up on multiple sides 
of a complicated conflict in a post-ISIL, Iraq, and Syria. How 
many different groups are the Department of Defense advising 
and assisting in Iraq?
    Secretary Mattis. Sir, we advise and assist the Iraqi 
Security Forces only in Iraq. And I would just mention that 
Secretary Tillerson just returned from there, and this issue 
was brought up with the prime minister. Do you wish to say 
anything, Mr. Secretary?
    Secretary Tillerson. Yes, the prime minister is asserting 
authority himself over other various militias, including 
Popular Mobilization Forces, the PMF, which are by and large 
Iraqi forces. They are Iraqi citizens who are fighting under 
militia arrangements, including the Peshmerga forces of 
Kurdistan during the war to defeat ISIS, to liberate Mosul, to 
liberate large parts of Ninawa and other provinces. These 
forces put themselves under the command of Prime Minister 
Abadi.
    So, there are multiple forces, but I think as the Secretary 
indicated, our support is through the Iraqi forces working with 
Prime Minister Abadi and under--and his authorities.
    Senator Udall. I am glad you brought that up because, 
Secretary Tillerson, it was reported that the Iraqi prime 
minister was pretty blunt in his response about Shia Iranian-
backed militias in Iraq, stating that they are already home and 
they are not going anywhere, and that--and that maybe U.S. 
forces should leave. If U.S. forces are told to leave, will we 
depart Iraq, or will we stay uninvited as our forces are doing 
in Syria, and under what legal authority will they remain?
    Secretary Tillerson. Senator, the prime minister--I never 
heard the prime minister say U.S. forces should leave. What he 
did clarify is that, as I said, many of the PMF forces are 
Iraqi Shia forces, so they are Iraqi citizens. My comment was 
regarding foreign fighters, foreign fighters that may have come 
to Iraq. We know there are foreign fighters in Syria. And my 
comments were that any foreign fighters, particularly those 
from Iran, needed to leave Iraq and go home. Certainly, PMF 
Iraqi citizens, this is their home. They will remain. But I 
think the prime minister has also made it clear as to his 
expectations of how these forces will organize themselves, or 
put their arms down and just rejoin their villages as citizens.
    Senator Udall. But we have reached--we have reached this 
new phase, and I--and I think this is a real possibility that I 
am asking you about. If U.S. forces are told to leave, will we 
depart Iraq, or will we stay uninvited as our forces are doing 
in Syria, and under what legal authority?
    Secretary Tillerson. We will remain in Iraq until ISIS is 
defeated, and we are confident that ISIS has been defeated.
    Senator Udall. Under what legal authority?
    Secretary Tillerson. Under the 2001 and 2002 AUMFs. Now 
having said that, we are there also at the invitation of the 
Iraqi government, and Prime Minister Abadi has given to me no 
indication that he is in any particular hurry to have us 
depart.
    Senator Udall. Secretary Mattis and Secretary Tillerson, do 
you agree with the assertion that this fragmentation of 
security forces will pose difficulties to the Iraqi Government 
maintaining order in areas that the U.S. Government recently 
regained control of? What is your advice to ensure that these 
areas do not see resumed sectarian violence now that the fight 
with ISIL is nearly over, and does this necessitate U.S. troops 
on the ground?
    Secretary Tillerson. Senator, as areas have been liberated, 
we are working with the coalition partners and with the United 
Nations and other non-governmental organizations to create 
stability around liberated cities, in particular, as well as 
villages. And that means having the military forces, the 
armies, pull back out of the villages, allow the--our coalition 
to enter those villages, undertake de-mining of the villages so 
that it is safe for people to return, and then begin the 
process of training local basically police forces. And we have 
a number of coalition partners that have undertaken that 
activity. So, as we are liberating areas, we are preparing 
security forces, local security forces, to transplant the 
military forces.
    Prime Minister Abadi made this direct observation to me. He 
said, I have to get my armies out of the cities. They are not--
they are not policemen. They are not trained to be policemen, 
and they are not equipped to be policemen, and I have to 
replace them with trained security forces to carry out police 
activities and provide security for the civilians as they 
return. There is a lot of work to do to stabilize these areas, 
but that is how we will lock in the military gains that have 
been achieved with the liberation.
    Senator Udall. Secretary Mattis, do you have a comment on 
that issue?
    Secretary Mattis. It is the Iraqi forces, you know, 
operating under Prime Minister Abadi that have--that have 
liberated these areas. It is not any other armed groups. Now, 
there are PMF forces that are engaged with them, but he has 
insisted that they fall under the authority of his field 
commanders. That is being imperfectly done. I would not say it 
is happening in all cases, but you have seen the successes 
enjoyed so far. And we are moving now against al-Qaeda with 
Iraqi forces to restore the border against Syria. So, you see 
it unfolding in that direction. The next step is exactly what 
the Secretary of State has laid out.
    Senator Udall. Thank you both. Thank you, Mr. Chairman.
    The Chairman. Thank you. I think, Senator Flake, you are 
next. If it is okay, maybe we will go with about 3 minutes of 
your questions, and then come back and you can resume if that 
is okay.
    Senator Flake. It is fine.
    The Chairman. Okay.
    Senator Flake. Thank you, Mr. Chairman. Thank you for being 
here.
    I think that here, you know, in the Senate we aspire to be 
more than just one cog on a feedback loop. This is the body 
with Article I authority to declare war and to authorize the 
use of military force. I understand the importance in looking 
at your three items that should not put a new AUMF--or should 
not repeal the old one until a new one is in its place: no time 
constraints--I will get to that in a second--not geographically 
limited. And the AUMF that Senator Kaine and I have introduced, 
the bipartisan AUMF, I think meets the conditions of the--of 
one and three.
    But number two with regard to time constraints, anybody 
want to hazard a guess of how many in this body right here on 
the Senate Foreign Relations Committee were in the Senate when 
the 2011 AUMF was passed? Not one. Not one member of this panel 
was in the Senate when the 2001 AUMF was passed, or the 2002 
for that matter. Seven of us were in the House during that time 
and voted on it, but not one has had the opportunity to weigh 
in on it 16 years later.
    I would argue that the concern about giving our adversaries 
notice that we have to vote on something may be an issue, but 
it is overwhelmed in a big way by not having Congress buy in 
and not having us have skin in the game. It simply allows us to 
criticize the administration--Republican or Democrat--if we do 
not like what they are doing because we have not weighed in. We 
have not said our peace. We have not voted on this. So, I would 
simply say that any concern about having to come back--we have 
a 5-year sunset on ours. Five-years. That is pretty long.
    But Congress needs to weigh in. We have to make sure that 
our adversaries, and our allies, and, most importantly, our 
troops know that we speak with one voice. And so, I hope that 
as we go along, we can--we can--we can talk about the relative 
importance of signaling that we might leave or might not 
finish, and not having Congress weigh in at all, to go for 16 
years before we actually weigh in or have any skin in the game.
    We, as I said, ought to aspire to be more than just part of 
a feedback loop. Article I authority is more than that. So, 
with that I will pull back.
    The Chairman. Thank you.
    Bertie, if you will keep 4 minutes and 15 seconds on 
Senator Flake's time. If we could all sprint over and sprint 
back, you will start again as soon as we will get back. And we 
will recess for about 14 minutes I hope. Thank you.
    You are welcome to come into the back or do whatever. 
[Break.]
    The Chairman. The Senate Foreign Relations Committee is now 
coming back out of recess. As with the Senate, we had one 
member kind of lollygagging around, and it took a little longer 
than we thought. It is the story of the United States Senate, 
but we are glad to be back in session.
    Senator Flake, if you will, continue your work.
    Senator Flake. Thank you, Mr. Chairman. We talked before 
the break about reasons we need an AUMF, and I mentioned how 
few people were actually here. Nobody on this panel voted in 
the Senate on the AUMF. In the House, fewer than a hundred 
members of the House were there when the 2001 AUMF was passed. 
I think total in the Senate, nobody on this panel, but only 23 
members of the Senate were here to vote on the AUMF. And so, it 
simply helps. We have got to have a situation where the 
Congress is more involved here.
    I understand what you say that a new AUMF would be 
welcomed, but not required. Just for the benefit of everybody 
here, no administration would ever concede that you need an 
AUMF because the absence of it would suggest that what we have 
been doing for 16 years would be illegal, or certain activities 
we have undertaken. So, I think we all understand that the 
administration will say that no new AUMF or no new authorities 
are needed.
    But whether or not they are needed to provide a legal 
basis, it is certainly needed politically, and we cannot 
continue to go on in a situation where, you know, 70 percent of 
the House and the Senate has never voted on an AUMF, and has no 
reservation at all to criticize whatever administration is in 
power and their use of military force because they did not vote 
on it. And we cannot continue to go year after year after year 
without doing that.
    But specifically on a question here, with regard to Niger, 
I understand that you say that is Title 10 authority. You 
expressed concern about not having authorities that expire so 
as not to tip off the enemy that we might leave. Explain Title 
10 authority with regard to--now that is part of the NDAA that 
we gratefully--it is the one authorization bill that we pass 
every year. But what if we were not going to pass that next 
year, if we failed in our duty to do it? What would that do?
    Secretary Mattis. Well, we would--I believe, Senator, we 
would still have Title 10 authority under the U.S. Code, so we 
would not--I mean, we would have trouble probably getting 
appropriations if we did not have the NDA--the authorization. 
But I think that under the U.S. Code, we still exist as a 
military, so--I would have to turn to my general counsel, sir, 
to give you a better answer.
    Senator Flake. You mentioned, Secretary Mattis, in your 
remarks that we still in Congress here have the power of the 
purse, and that maybe should be sufficient. There was one 
member of our body who said when he was briefed on what was 
going on in Niger, he said that Congress--we would--``We need 
to decide whether or not we want to authorize this operation 
through the appropriations process.''
    Now, for us authorizers, that ought to be a hit right here 
that only the Appropriations Committee in this body has 
authority to look at what we are doing and decide whether or 
not appropriate authority exists and, through the 
appropriations process, give that authority. I would suggest 
that this committee ought to stand up and say that is not 
enough. That is not enough. Let us pass a new AUMF.
    So, I know that--I hope Senator Kaine will go into the AUMF 
that we have proffered. It is gaining momentum certainly and 
support. And I hope, above all else, that we can come to a 
point where we speak with one voice overseas, whether it is use 
of diplomacy or use of military force. And under the current 
situation with a 16-year-old AUMF, I would suggest that we do 
not, and our adversaries, our allies, and our troops need to 
know that we do.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. If I could just for clarification, 
when you say ``Title 10,'' you are talking about the Train and 
Equip Program?
    Secretary Mattis. That is correct, Chairman. Basically, we 
have the authority under Title 10 to carry out these kind of 
partnering activities, yes, sir.
    The Chairman. Throughout the world.
    Secretary Mattis. If the President directs it, yes, sir.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you both for being here. You are both patriots, and thank you 
for your service to the country. I want to maybe get back to 
this question of exploring the limits of that Title 10 
authority, but I wanted to build upon a question preview that 
Senator Cardin referenced, and that is on the existing 
authorities in North Korea.
    The President has talked about our military options should 
we choose to use them in North Korea, and I just wanted to make 
sure that we understand the range of authority that the 
President has today with respect to potential military 
operations in the Korean peninsula. Would you both agree that 
absent a strike against the United States or the imminent 
threat of a strike against the United States, the 
administration would need congressional authorization to engage 
in military activity against North Korea?
    Secretary Tillerson. Well, Senator, I think it would 
depend, again, on all circumstances, and it is a fact-based 
decision. I think clearly today we are there under Article II 
authorities, and Article II is really--you know, if you look at 
it historically, it has been grounded in kind of two criteria. 
One is to protect United States' persons, property, and 
national security interests, and secondly, it has been used for 
circumstances that do not rise to the level of a declaration of 
war. And I think that is the circumstance we have in the 
peninsula today in Korea.
    So, it is a question of the--of the threat, the imminent 
threat, the nature of the threat as to whether the President 
then would exercise his authorities without the need of further 
congressional authorization. So, it is--it will be fact-based, 
and all those will have to be considered.
    Senator Murphy. Secretary Mattis?
    Secretary Mattis. Yes, I believe under Article II, he has 
the responsibility obviously to protect the country. And if 
there was not time, I could imagine him not consulting or 
consulting as he is doing something, along the line, for 
example, of what we did at Shayrat Airfield here in Syria when 
we struck that and the Congress was notified immediately. This 
was after the chemical weapons use by the Assad regime. But in 
this case of North Korea, it would be a direct, imminent, or 
actual attack on the United States that I think Article II 
would apply.
    Senator Murphy. I think I would agree that if it is an 
attack or an imminent attack, and we can all split hairs as to 
what the definition of ``imminent'' would be. But let me try to 
get to the bottom of that. Would the possession of a weapon, a 
nuclear weapon, capable of reaching the United States fill--
fulfill the definition of an ``imminent threat'' to the United 
States? Would a possession--the simple possession of a weapon 
that is capable of doing great damage to the United States be 
sufficient to qualify as an imminent threat?
    Secretary Tillerson. Well, again, I am always reluctant to 
get into too many hypotheticals because the possession can be 
sitting in an underground, not ready to be used condition, or 
possession could be sitting upright on a Tel about to be 
launched. So, again, I think it would be have to be fact-based 
and given consideration as to the circumstances around an 
imminent threat.
    Senator Murphy. Secretary Mattis?
    Secretary Mattis. I fully agree with Secretary Tillerson. I 
think this is an area that a number of facts would have to bear 
on the problem in order to give you a complete answer, Senator.
    Senator Murphy. I thank you both for your answers. I think 
the primary fact is whether there is an attack or an imminent 
attack. I think other than those two facts, you need to come to 
Congress for authorization, but I appreciate your answers.
    Secretary Mattis, I wanted to drill down a little bit more 
on the Title 10 authority. You certainly have Title 10 
authority to conduct training missions abroad. You are using 
that authority in Niger today. You have properly notified 
Congress. You referenced President Obama's notification. But 
how do you answer concerns that our constituents may have when 
it looks as if a training mission is something more than 
training, that we are actually putting American troops out in 
harm's way, partnered with local forces engaged in activity 
that imperils U.S. men and women?
    To many folks, this did not look like a training mission. 
It did look like we were side-by-side with domestic forces, but 
we were actually helping them carry out pretty critical mission 
components. How do you address concerns that some of our 
constituents have that a training mission can very easily morph 
into something that looks much more like operational and 
offensive capabilities that are unauthorized by Congress?
    Secretary Mattis. It is a great question, Senator. When you 
look at why did President Obama send troops there, why did 
President Trump send troops there, it is because we sensed that 
as the physical caliphate is collapsing, the enemy is trying to 
move somewhere, and so, those troops are there. Most of them 
are providing, frankly, intelligence, surveillance, and 
reconnaissance support, intelligence support, refueling 
support. There are some doing this train and advise mission.
    In this case, we are trying to build up the internal 
defenses of another country so they can do this job on their 
own. The French have carried the burden for this, have taken 
severe casualties at times in this mission. We are supporting 
them. But in this case, since April, I believe, and we will get 
the specific numbers once the investigation comes in, over 2 
dozen patrols in this area with no enemy contact. I think it 
was reasonable to think they could go out and continue training 
these troops without the idea they were going into direct 
combat, but that is not a complete answer. I need to wait until 
I get the results of the investigation. --
    Senator Murphy. But you referenced the falling apart of the 
caliphate at the beginning of that answer, and so that suggests 
that this might not be a Title 10 authority mission. This might 
be a 2001 AUMF mission. And if that is the case, then--okay, 
you are not saying----
    Secretary Mattis. I misled you there.
    Senator Murphy. Okay.
    Secretary Mattis. This is a Title 10 train and advise, and 
we are trying to prepare them if, as the caliphate falls apart, 
their country comes under attack so they can defend their own 
population. You will remember Boko Haram nearby and the 276 
girls they kidnapped. It is a real problem up in that region, 
and we are trying to get them in a position where they can 
defend themselves, and do it in accordance with the law of 
armed conflict in a very complex environment. This is tough 
training, sir.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Senator Young.
    Senator Young. Thank you, Chairman. Secretary Mattis, you 
said in the past, you said again here today, that a new AUMF by 
this Congress would send a message of resolve to our troops and 
to our enemies. I absolutely agree with that. I would like to 
get into the law, though, the legal components of this.
    Legally, there are at least--one, it seems we would have to 
make--concede that there is a principle, there is a logical 
argument that the 2001/2002 AUMFs do not apply, or now have a 
highly attenuated application to current circumstances. 2001 
AUMF was in response to 9/11. It was directly in response to 9/
11, albeit written broadly. 2002 AUMF was directed against the 
Saddam Hussain regime. In fact, it was invoked here today, but 
the language of that AUMF says ``a threat posed by Iraq.'' And 
then in 2014, ISIS leadership--al Baghdadi--actually disavowed 
very publicly any association with al-Qaeda.
    Secretary Mattis, you indicated that a terrorist group--I 
think it was Boko Haram--but a terrorist group was covered by 
the 2001 AUMF because they swore allegiance to al-Qaeda. Now, 
by that same logic, if ISIS broke with al-Qaeda, why would the 
2001 AUMF apply to the fight against ISIS?
    Secretary Mattis. Senator, what we have seen is these 
groups come apart, go back together. They change their name as 
often as a rock and roll band. They are keenly aware that they 
have got--they have got certain legal strictures on our side 
that they can take advantage of. We call lawfare where they 
actually use our laws against us. We have seen it. We read 
their mail. We know what they are thinking in many cases.
    It is an associated group because if you look at the 
photographs we have from intelligence that shows who is leading 
in Baghdadi's outfit, there is a remarkable resemblance to 
other photographs we have under al-Qaeda in Iraq. So, when the 
same group in the same area seems to be spawning from the same 
people, a disavowal is something that is of interest, but it is 
not necessarily compelling, especially since they seem to have 
many of the same tenets to their ideology as the group they 
disavow. And I am not sure I would call them ``highly 
attenuated'' in that circumstance.
    Senator Young. Well, that is my characterization. No, I 
respect yours, Mr. Secretary.
    Secretary Mattis. Yes, sir.
    Senator Young. So, it seems like these arguments could be 
made both ways. They swore an allegiance; therefore, they are 
covered by the AUMF. And then secondarily, well, you know, that 
factor is not all that important in our consideration based on 
a range of other factors. It might be helpful to lay out what 
multi-factor analysis legally your attorneys are looking at to 
help make these decisions.
    Secretary Mattis, on January 27, 2015, you testified before 
the Senate Armed Services Committee. You said the following: 
``We have observed the perplexing lack of detainee policy that 
has resulted in the return of released prisoners to the 
battlefield. We should not engage in another fight without 
resolving this issue up front. Treating hostile forces, in 
fact, is hostile.'' When asked about that in the hearing, you 
continued: ``I think that when we have--what we have to do is 
have a repeatable detainee policy so that when we take them, we 
hold them, and there is no confusion about their future, not 
among the enemy's mind, certainly not among our own.'' Do you 
stand by those statements, sir?
    Secretary Mattis. I do, Senator.
    Senator Young. Why do you believe it is important up front 
to ensure that there is no confusion regarding our Nation's 
ability to detain enemy combatants under the law of war until 
the end of hostilities?
    Secretary Mattis. Senator, when we release people and 
eventually we find them back on the battlefield fighting us--
when Rommel's Africa corps was taken prisoner in World War II 
in North Africa, we did not let them go because they said, 
``well, I was only a tank driver, I was not a gunner,'' and let 
them take another shot at us at Normandy. We held them in the 
prison camp until the war was over. I think that that is a 
rather straightforward proposition that we take our own side in 
this.
    Senator Young. Thank you, Mr. Secretary. So, if this body 
were to pass another AUMF, would you support an effort that 
seeks to eliminate any uncertainty whatsoever regarding our 
Nation's ability to detain enemy combatants under the law of 
war until the end of hostilities?
    Secretary Mattis. For those taken overseas, yes, sir. I 
just want to make sure you understand I am not talking about 
people here in the United States who are taken.
    Senator Young. Nor am I, so thank you. Another legal point 
going back to the law here, I would argue--you invoked 
litigation risks. I would argue that the further away we get as 
a country from 2001 or 2002, the more attenuated the 
relationship exists between our ongoing fight against 
associated forces and that period of time in which our previous 
Congress, working with our previous Commander-in-Chief, passed 
an AUMF, but the litigation risk is only going to grow. So, 
kindly consult with your attorneys and give me their analysis 
about why I have it wrong or right, but I think I have it 
right.
    Secretary Tillerson and Secretary Mattis, both of you over 
the course of this hearing have indicated that there are three 
essential elements for a new AUMF. And I think you worded them 
differently, but I think they are distilled down to no lapse in 
authorities, no time constraint, and no geographic restriction. 
Is that a correct and fair summary of the elements that need to 
be in there?
    Secretary Mattis. Yes, sir.
    Secretary Tillerson. Yes.
    Senator Young. Thank you. Well, I would just note for the 
record that the AUMF I introduced on March 2nd--Senate Joint 
Resolution 31--meets all of those criteria. So, I think it 
certainly satisfies that.
    I am going to pivot to a different topic. Secretary Mattis, 
you mentioned ISR assets. And in testimony before the Senate 
Armed Services Committee on March 9, 2017, General Waldhauser, 
who is commander of AFRICOM, stated in his written testimony 
that only approximately 20 to 30 percent of Africa Commands' 
ISR requirements are met. The general wrote that ``this 
shortfall in ISR limits situational understanding, support to 
operations, and fails to offer threat indications and 
warnings.'' Secretary Mattis, could you please discuss AFRICOM 
and DOD's ISR shortfalls and the operational impacts of those 
shortfalls, and what we can do to help?
    Secretary Mattis. Yes, sir. The ISR assets are insufficient 
basically worldwide. I can go to a number of other combatant 
commanders from the Pacific, even in the Middle East, CENTCOM, 
certainly EUCOM, and they would all say they have shortfalls. 
As you know, we've been under continuing resolutions for many 
of the last 10 years. We have been under budget reductions, and 
eventually real capability is insufficient.
    At the same time, I think in this case, General Waldhauser 
is a hundred percent correct, but that force, again, was in an 
area where a reasonable person looking the last several months 
would say contact was not imminent, was not likely to be 
imminent. And so, you look at how you prioritize it. There is a 
finite amount of ISR assets, and we deal them out--we deal them 
out, frankly, like gold coins through the various combatant 
commanders.
    Senator Young. Thank you both for your service.
    The Chairman. Thank you. Thank you very much. Senator 
Coons.
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Cardin, for this important hearing. And thank you, Secretary 
Mattis and Secretary Tillerson, for the service you have 
rendered to our country, and for the men and women you lead and 
command. I think it is important that we as a committee come 
together in a bipartisan way and provide you with an updated 
authorization for the very demanding and difficult work that 
your men and women are doing around the world.
    I think the tragedy in Niger--the loss of four American 
soldiers--helped focus on the fact that we have got citizens 
and we have got senators who are unclear on exactly where in 
the world we are engaged against this morphing, changing enemy 
in a new era of skirmishes, as you put it, sir. And in the 
opening list, you gave of roughly, I think, 19 countries, I 
will tell you it is a striking. A majority of them are on the 
continent of Africa in a region that is not that familiar to 
many senators and many Americans.
    So, I will just assert that I believe it to be in our 
national interest to have a renewed, clearer, strengthened 
authorization of the very difficult work that you and the folks 
you lead are doing around the world. And I take seriously the 
risk presented of potentially emboldening our adversaries and 
undermining the confidence of our coalition partners if we do 
it in a way that is rough-hewn. But at the same time, it just 
defies my sense of our role to accept that a 2001 AUMF, where, 
as Senator Flake put it, fewer than a third of the currently-
serving Congress voted for it, has become so attenuated, I 
think was your phrase, so convoluted that it is hard to trace a 
path from 2001 and al-Qaeda in Afghanistan to young American 
men and women serving in the Philippines, or in Yemen, or in 
Niger.
    So, we have to do this, I think, together. And I find it 
beyond my ability to get my head around that we must authorize 
an unlimited war that has no limits of geography, of time, or 
of an oversight mechanism. So, I commend my colleagues who have 
put together what I think are strong drafts and that attempt to 
tackle this. And I, frankly, think on both sides we are going 
to make concessions in order to provide our warfighters and our 
diplomats with the authorization that makes it clear what we 
intend to do and for how long we intend to do it. I think that 
strengthens our country. I think that shows democracy at work, 
but it also means we are going to have to take some risks.
    Talk to me, if you would, for a moment about how we make 
sure that our citizens, that our senators, know where we are 
fighting beyond the current system of notification because I 
think it is not fully effective. And what do you think is the 
appropriate level of public transparency for military 
deployments outside of areas of active hostility? Is it 
helpful, is it important, and how do we strengthen 
accountability to the Senate and the public of where we are 
deployed, and what are the limits on that?
    Secretary Mattis. Senator, I would just say that in my 
Department's case, in Fiscal Year 2016, we submitted 901 
reports to the Senate, which, for the number of days you are in 
session, is about six a day. It has been added in Fiscal Year 
2017 another 175, so we will be submitting seven reports a day. 
Under the War Powers Resolution notification that comes in, 
Niger has been reported every 6 months under the previous 
administration as well as under our current administration.
    The most recent in June reported about 645, thanks to the 
appropriation by the Congress, to work on airfield. We have 
actually got probably 150 more there right now, engineers 
working on airfield with the money you provided to make the 
airfield that will provide more ISR opportunity for our troops 
in that region. So, I think the most important thing is we look 
at the reports we are giving you to see if we are just bearing 
on the important information inside a mass of reports that pour 
into you every day literally, and make sure that maybe tier one 
issues that--and this would be--you would decide tier one, that 
we are highlighting that information to you to include in any 
closed hearing briefings that filled in any gaps you sensed.
    Senator Coons. Thank you, Mr. Secretary. Secretary 
Tillerson.
    Secretary Tillerson. Well, Senator, I think your--what you 
have really put your finger on is what is, I think, 
concerning--I am hearing concerning this committee and others, 
and that is the level of transparency and understanding of 
where our forces are deployed, and in what role they are 
deployed, and to what levels they are deployed, and what is the 
expectation for the likelihood of combat engagement.
    But I also think that when I consider the current AUMF, and 
I do not want to pretend to know what the intent of Congress 
was in 2001. But quite frankly, maybe the intent recognized 
that this was a completely different situation than we have 
ever faced before. This was not a sovereign state actor that we 
can do a war declaration against. War declarations, I think as 
Senator Johnson pointed out, do not have timelines. We did not 
tell the Japanese we are going to come out and fight for 3 and 
a half years, and then we are going home, and we have done 
that. We have done that under this AUMF. We announced 
withdrawal from Iraq, and we see what happened. ISIL emerged 
and created an enormous caliphate.
    So, anything that signals our intentions, this enemy takes 
advantage of that. We have now learned that lesson multiple 
times. So, I do appreciate that--the issue over what 
congressional control or oversight there is for this 
authorization. On the other hand, you know, Article I gave the 
Congress the right to declare war. Article II gave the 
Commander-in-Chief the right to conduct the military affairs. 
And I think the Founders recognized in writing Article I and 
Article II that you cannot fight war by consensus. You cannot 
fight war with a collective approach. There has to be one 
Commander-in-Chief to fight the war because someone has to take 
the hard decisions to win.
    And so, the separation is there, I think, in Article I and 
Article II. And the reason there is not a declaration of war 
here is because, as I indicated earlier, the situation, the 
circumstances do not give rise to a declaration of war, which 
then puts into motion a number of other authorizations. So, I 
think the authority has been properly used by the Congress in 
the 2001 AUMF.
    Secretary Mattis, I think, would welcome a strong statement 
from the Congress. But in many respects, the Congress can 
express its will now 16 years later and say this authorization 
is still valid, and it is serving the purposes of this war 
against this very unique and unusual enemy that we will fight 
for we do not know how long, or for where, or for--with what 
forces. That is the nature of this fight that we are in.
    Senator Coons. Well, Mr. Secretary, I would like to thank 
both of you. I will just comment in closing. Having spent time 
in West Africa, I am particularly concerned about the ways in 
which associated forces morph and change, affiliate and 
disassociate, and the way in which who we are fighting 
metastasizes, more at their choice, and direction, and timing 
than ours, and how it is possible for something like Boko Haram 
to split into two, and to become now two enemies, one al-Qaeda-
affiliated, one ISIS-affiliated, but without a significant 
amount of direction, or funding, or control from a core enemy.
    This is a different kind of fight than we have been in as a 
Nation before, and I do think our constituents expect some 
sense of strategy, trajectory, timeline, and cost. Yet I am not 
blind to what you raise as the very real risks if we undermine 
the confidence of our coalition partners and our troops by 
failing to deliver a strong consensus AUMF.
    I look forward to working on that with you both, and I 
thank you, Mr. Chairman and Mr. Ranking.
    The Chairman. I will say before turning to Senator Isakson, 
with few exceptions--I have been here 11 years--I really have 
not heard a member specifically raise questions or criticize 
efforts that are underway against ISIS, al-Qaeda, Boko Haram. 
So, I know everybody is concerned. I mean, I know that when 
this began, no one expected in 2001 that we would be continuing 
as we are today. I understand that, and I would like for us to 
strive for a balance.
    But in fairness, and we may hear it--I know there is one 
member here that may express that in just a moment. But I 
really have not heard a member go down to the Senate floor and 
criticize the Bush administration--as it relates to al-Qaeda 
now--the Bush administration, the Obama administration, or this 
administration yet relative to the activities they have 
underway. It does seem to me that the Senate and the House, 
generally speaking, do support the efforts that underway.
    So, with that, Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. Secretary Mattis, 
I want to thank you very much for mentioning the names of those 
four soldiers in Niger who lost their life last week. In 
particular, I want to be sure and mention Dustin Wright from 
Lyons, Georgia, who was one of the four troops who lost his 
life.
    I want to thank you and repeat what was told to me in a 
Kroger grocery store in Marietta, Georgia, this past weekend 
when I was home by a lady who came up, whose son is in the 
United States Army, volunteer for the United States Army, is 
overseas now. She talked about how proud she was for him to be 
serving under people like you and the leadership we have in our 
country. So, I want to thank you from the bottom of my heart 
for that, but also tell you that is what the people in the 
streets are telling me.
    Now, Senator Coons and I go way back, and, in fact, the 
chairman and I traveled to Africa and went to Darfur. We were 
the second and third senators to ever go to Darfur, if I 
remember correctly, and saw some of the horrible things that 
were happening in Africa. And I appreciate on the one hand what 
Senator Coons said about how complex the continent of Africa 
is, and how many players are, and how hard it is to keep up. 
But I think that underscores the reason you just cannot write 
an AUMF with restrictions, or try and be so prescriptive in the 
way you prescribe the geography--where they can fight or the 
tools that they can use, or anything like that--and do so 
without risking the life of your own troops.
    I was in the military. It has been a long time ago. We had 
muskets back then, but--[Laughter.]
    Senator Isakson. I remember the limitations on your ability 
to serve and what you could do, the rules of engagement, were 
affected, I am sure by the AUMF at the time. I am sure the 
AUMF--the rules of engagement flow down from the AUMF. Am I 
right?
    Secretary Mattis. Yes, sir.
    Senator Isakson. So, when we are writing an AUMF here to 
restrict our soldiers geographically, methodology wise, or any 
other way, in the end we are affecting--potentially affecting 
the rules of engagement we have on the ground in countries 
where there are no rules, like Niger and the other countries we 
talk about in Africa.
    So, I think we have to be very much aware the people that 
who are working for us--the people who we are working for are 
our constituents, and the people who are working for us are our 
soldiers in the field, our airmen and our soldiers and our 
naval personnel. And they operate under rules of engagement 
where they are limited to what they can do to carry out their 
mission, and those limitations are then somewhat affected by 
the AUMFs that exist at the time.
    So, I just wanted to bring that point out. We have to be 
very careful about what we are really--we are not just dealing 
with limitations we as senators want to have--our country to 
have. We are limiting the people who are out there as 
volunteers fighting to save our country day in and day out in 
some very dangerous places. Am I right?
    Secretary Mattis. Well, you are, Senator, in terms of 
geography or time, this sort of thing. And I think that people 
run on hope, and if the enemy hopes we are going to quit on a 
certain day, or if they know we will not deal with them if they 
step over a certain border, then the enemy is going to do 
exactly that. As our sergeants say in the military, ``the enemy 
gets a vote.''
    Senator Isakson. Absolutely. By the way, your comment about 
a rock and roll band, that was--it piped something in my mind. 
My staff is going to get mad at me for doing this. I am ad 
libbing now. But I come from Athens, Georgia, and went to the 
University of Georgia, and it founded a lot of bands. One of 
the best ones is Wide Spread Panic, and that is what happens in 
continents like Africa, the type of countries they are. You 
have--you are not talking about an enemy that is just a 
country. You are talking about groups within those countries 
who are waging war in their own country that we end up getting 
engaged with one way or another.
    My next question, Secretary of State Tillis, from the 
standpoint of any limitation whatsoever, from your testimony, I 
take it that you do not think there should be--if we were to 
write a new AUMF, it ought to simultaneously go into force and 
replace the one that exists today. There should no gap. Is that 
correct?
    Secretary Tillerson. Yes, Senator. We cannot afford to have 
any gap in terms of our authorities.
    Senator Isakson. And like Secretary Mattis, you do not 
think there should be any limitation, geographic or otherwise, 
in that AUMF.
    Secretary Tillerson. No, Senator. Again, this is the nature 
of the enemy we are confronted with today.
    Senator Isakson. And we have to be ready to make the 
decisions that those--that those lack of limitations allow us 
to make at the drop of a hat in today's type of warfare and 
today's type of conflict around the world.
    Secretary Tillerson. I think we have seen how quickly this 
enemy can collect itself, raise forces, and overrun territory. 
We saw that happen at an outstanding level of speed in Iraq.
    Senator Isakson. My last comment, I have been giving a lot 
of thought to this issue for a lot of reasons. One of them is 
North Korea, which is a serious problem that all of us 
recognize is serious. I do not know if we all recognize it as 
serious as it really is.
    But I was in college in the early 60s. John Kennedy was 
President of the United States. And it was a period of time 
where the Russians put missiles in Cuba and had the potential 
of launching missiles 90 miles north into the United States and 
into Miami. And that was a--you are talking about a huge issue 
that got everybody's attention. For those few--Ms. Shaheen was 
not here. She was not even born then I know, but most everybody 
in this room was not here, but they were tough times and 
perilous times.
    President Kennedy did a great thing in that conflict 
because--there was a book, Seven Days in May, that described--
he took it--we got to the point where we had done the air 
photography. We had the evidence. It was clear that the 
missiles had been installed in Cuba. Khrushchev had beat his 
shoe on a table and talked about he was not going to take them 
out. And Kennedy had done everything but tell him, yes, he was, 
and lock themselves away in a room. And finally, President 
Kennedy and his brother, Bobby, sat down one night and decided 
it was time to draw a line that he would have to cross. And 
they used an embargo on an island as a line--a red line in the 
sand, so to speak.
    Now, I know North Korea is not an island. I do not want 
anybody to think I am comparing that. But what I am saying if 
there was a non-lethal, but provocative, way to force them to 
have to come into the game that they have started with, the 
North Koreans, we are getting close in my mind to that point. I 
know you all are thinking about it today, and the last thing I 
would want you to do is talk about it because he is over there 
in North Korea watching our television right now anyway getting 
his intelligence.
    But we are getting close to that particular time in the 
history of or country where it is an example of how you go to 
the next step without necessarily risking a life, by drawing 
the line in the sand that somebody has got to cross, or else 
you do end up engaged with them. So, I just wanted to throw 
that thought out. I did not want you to have to respond to it. 
But I thought it was a great example of leadership by a great 
President at that time in a time that certainly was similar to 
what we face today with North Korea.
    Thank you.
    The Chairman. Thank you very much. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, and I thank you 
both for your service.
    During the last Congress and again this past January, I 
introduced the Restricting First Use of Nuclear Weapons Act 
with Representative Ted Lieu. This bill would ensure that no 
President can launch a first-use nuclear attack against any 
target anywhere without a declaration of war from Congress. 
Under existing laws, the President possesses unilateral 
authority to use a first-use nuclear strike on anyone anywhere 
around the world, even in the absence of a nuclear attack 
against us or our allies.
    There is no question that since the dawn of the nuclear 
age, it has been essential for the President to have clear 
authority to respond to nuclear attacks on the United States, 
our forces, or our allies. But in my view, no one person should 
have the power to launch a first-use nuclear strike without 
congressional approval.
    Under Article II of the Constitution, the President has 
authority to repel sudden attacks as soon as our military and 
intelligence agencies inform him of such an attack. Nothing in 
our bill changes the President's authority to use nuclear 
weapons against anyone who is carrying out a nuclear attack on 
the United States, our territories, or our allies. What we do 
propose is a commonsense step to check any President's 
authority to launch a first-use nuclear strike by prohibiting 
such a strike unless explicitly authorized by a congressional 
declaration of war. Since the dawn of the nuclear age 7 decades 
ago, we have been relying upon cooler heads and strategic 
doctrine to forestall the unthinkable, but too often those kind 
of ad hoc measures seem less reassuring than ever.
    Do you think, Secretary Mattis, that the President has the 
authority to launch a first-use nuclear strike without 
congressional approval?
    Secretary Mattis. Senator, first, I would not say it is ad 
hoc. It is extremely rigorous the discussions and the step-
through process for decision making. And I would just prefer 
not to talk about a hypothetical that we have never confronted 
since we--basically in the post-World War II time to today, we 
have never--we have never had something like that come up.
    Senator Markey. Do you contemplate a circumstance within 
which the President of the United States could launch nuclear 
weapons against another country where that country has not 
launched nuclear weapons against us?
    Secretary Mattis. If we--if we saw they were preparing to 
do so and it was imminent, I could imagine it. It is not the 
only tool in the toolkit to try to address something like that, 
but I believe that congressional oversight does not equate to 
operational control. I think that we have to keep trust, keep 
faith in the system that we have that has proven effective now 
for decades.
    Senator Markey. Well, again, we are in the circumstance now 
where the President talks at least elliptically to preventative 
war, which would mean the United States launching nuclear 
weapons potentially against North Korea as we did in Iraq. That 
is not nuclear weapons, but starting a war in order to disarm 
Saddam of nuclear weapons. That was at least the ostensible 
justification that Dick Cheney gave 2 days before the war 
began.
    So, in your opinion, is there a circumstance under which we 
would be able to use nuclear weapons if we have not been 
attacked with them?
    Secretary Mattis. The question, again, please, Senator?
    Senator Markey. Again, I am coming back to this question of 
whether or not there is a scenario under which a first strike 
using nuclear weapons could, in fact, be used by the President 
of the United States without consulting any member of the 
United States Congress, much less the entire Congress in its 
entirety.
    Secretary Mattis. Senator, again, it's a hypothetical. I 
think that if there was an imminent strike and it was the only 
way to stop it, and I am not saying that would happen. There 
may be different tools, conventional tools, to stop it, but he 
has a responsibility to protect the country.
    Senator Markey. Well, I think--I think it is too important 
a subject for the United States Congress not to be informed as 
to what the circumstances are under which we would use nuclear 
weapons first. I think that it is imperative for you, and 
Secretary of State, and others, if necessary, to give us the 
classified briefing as to what those circumstances might be as 
to when you think they would have to be used, they could be 
used without ever consulting the Congress at all.
    Would you be willing to come up and to give us a classified 
briefing on when you think first use of nuclear weapons is 
appropriate when we have not been attacked?
    Secretary Mattis. Senator, I have a record of never being 
reluctant to come up and speak. Some hearings are best in 
closed session, but I am often reluctant to speak to 
hypotheticals. But I can certainly go part way down that road 
in terms of what might occasion something like that, like an 
imminent attack, yes.
    Senator Markey. Well, in my opinion, no human being should 
have the authority to use nuclear weapons if there has not been 
an attack. We have the most powerful military in the world--Air 
Force, Navy, Army. If there is--if there is a threat that is 
conventional, then we have a conventional response, but if 
nuclear weapons are used, I think that there has to be a 
process by which the United States Congress is consulted.
    This is not something, in my opinion, which is any longer 
hypothetical. I think it is something that President Trump 
contemplates, although I will add that we introduced the 
legislation when Hillary Clinton was ahead by seven points last 
September. So, it has to do more with whether or not any 
President should have this authority unfettered.
    What would be the process right now to use nuclear weapons? 
What would the President have to go through? Could you walk us 
through what that consultation would have to be?
    The Chairman. We will walk that through in another hearing 
if it is okay. And just for what it is worth, we have had--I 
know that you have asked about this, and I appreciate that. 
Other members have asked the same. We have met with CRS and 
understand that there has not been a hearing on this topic, 
through them--they could be incorrect--since the 1970s. And so, 
we do plan to have a hearing to walk through how the process 
works. You know, there are multiple scenarios that come into 
play, and I think a full hearing would be much better than a 1-
minute response.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Senator Risch.
    Senator Risch. Gentlemen, thank you, and thank you for your 
service.
    You know I have been 9 years on this committee and the 
Intelligence Committee, and I have sat through literally dozens 
and dozens and dozens of debates, arguments, hearings, 
witnesses on AUMF and trying to redo the 2001/2002, or replace 
them and do a new one. And I am struck with a number of things 
after all that time.
    Number one, everybody wants to do something. Everybody 
wants a new AUMF, and the parties on both sides are working, I 
really believe, in good faith. It certainly is not a partisan 
exercise. There are people on both sides working on a 
bipartisan basis to do this.
    The second thing that has struck me is I have seen dozens 
of iterations of what a new--what a bill would look--a 
resolution would look like. And the problem is we get high 
centered on the details, and after listening to all this, I am 
a little pessimistic about whether we can actually do something 
new. The old system is in place, and with all due respect to my 
good--my really good friend, Senator Flake, you know, none of 
us voted on the original 2001/2001, but we vote every year on 
this when it comes to the appropriations. In fact, at times, we 
vote multiple times a year, depending upon how many CRs that we 
do.
    So, Congress could stop fighting ISIS if we wanted to. You 
know, we all the time put restrictions on funding as to what 
the money cannot be used for, and we are pretty successful in 
that regard when we do it. The problem is, of course, we both 
know that the--that the will is different than what we would 
like to see in a perfect world. So, I agree with you, we did 
not vote on it directly, but all of us here have had a say 
every single year.
    In any event, you know, the Founding Fathers had a really 
good idea. They said, look, the first branch of government, the 
legislative branch should decide when we are going to war. 
Really good idea because the--we are not made up of the 
military branch. The military branch is the one more likely to 
pull the trigger quicker than the--than the civilian branch is. 
So, they put that in our hands.
    The other idea they had, which was also an excellent idea, 
is that Congress would not run the war. As has been pointed out 
here, you cannot have the politicians running the war. You need 
a commander-in-chief, and that was a really good idea. The 
difficulty, of course, today is things have changed so 
dramatically since the time that that was done. War fighting 
has changed. On top of that, those guys could not possibly have 
thought that a war we are fighting is against non-state actors, 
against people dispersed all over the world with a common idea 
of what they--what they want to accomplish. And it is so 
different today than what it was then.
    So, where does that leave us? I think we have got the 
constitutional provisions, which are pretty clear. We have got 
the War Powers Act, which you can argue is constitutional in 
all or in part. And we are moving forward, but we do not seem 
to be headed towards a resolution on this AUMF.
    I would like to get your thoughts on an issue that has 
already been touched on. We have talked a lot about terrorism 
because that is where the--that is where the fight is. But I 
think North Korea has been raised a couple of times, and to me, 
that is the biggest issue that we have if you are going to 
describe ``big.'' What happens when somebody knocks on the door 
of the Oval Office and says, Mr. President, North Korea has 
just launched, what do you want us to do? And, look, there is 
no time for an AUMF. There is no time to get the lawyers 
involved to determine what can or cannot be done. And somebody 
has got to make--somebody has got to make that decision.
    So, I appreciate the chairman's thoughts that we should 
have a--should have a separate hearing on this particular 
issue. But I would like to get your thoughts on what--and I 
know the lawyers are on both sides of this. I have heard cadres 
of lawyers argue whether the President has this power, whether 
it is limited, whether Congress has that power. I would like to 
get your thoughts under the scenario I just talked about.
    As far as the terrorism thing, we deal with that regularly 
in the Intelligence Committee and on this committee. Tell me--
tell me about North Korea. What happens? What happens if 
somebody knocks on the door and says, Mr. President, they have 
launched? A summary. In summary. I am not going to ask you to 
give us anything classified obviously.
    Secretary Mattis. Senator, the first step, of course, would 
be that our ballistic missile defense forces at sea and in 
Alaska, California, the various radars would be feeding in, and 
they would do--they would do what they are designed to do as we 
make every effort to take them out. The response, if that is 
what you are referring to, after the immediate defense, would, 
of course, depend on the President and laying out options, a 
wide array of options, I will tell you, and in alliance with 
our allies as well, I might add, because many of them have 
roles to play here and have indicated they will be with us. And 
we would take the action the President directed, and I am sure 
that Congress would be intimately involved.
    Senator Risch. Well, and, of course, under the scenario I 
have outlined, this is a matter of minutes, not a matter of 
days or even hours.
    Secretary Mattis. Defenses will go, sir, if we do not do 
any----
    Senator Risch. I get that.
    Secretary Mattis. I mean, the President will be woken up or 
whatever, but our commands are--we rehearse this, I will just 
tell you, routinely.
    Senator Risch. I get that.
    Secretary Mattis. I will just leave it at that in this open 
session, sir.
    Senator Risch. Secretary Tillerson, do you have anything to 
add to that?
    Secretary Tillerson. Well, I think as Secretary Mattis 
indicated, we do have defensive mechanisms which are in place. 
There would be some judgment made as to the effectiveness of 
those, and then there would be some judgment made of whether a 
necessary and proportionate response is required.
    You know, one of the strengths over the last 70 years has 
been the deterrence, and the fact that no President--Republican 
or Democrat--has ever foresworn the first-strike capability. 
That has served us for 70 years. So, I think any consideration 
of foregoing that does change in a very material way the 
strength of that deterrence.
    Senator Risch. I agree, Mr. Secretary. And also, it seems 
to me that the enemy we are dealing with here with North Korea, 
that deterrence issue does not seem to be fazing them because 
either a man would have to be absolutely crazy or incredibly 
stupid to not know what was going to happen after that.
    My time is up. Thank you, Mr. Chairman.
    The Chairman. So, I think in that scenario, it is about a 
15- to 20-minute process before response takes place. And, 
again, I think it would be very edifying for us to walk through 
that.
    Let me, before I turn to Senator Kaine, Secretary Mattis, 
you have--you have, I know, said on several occasions that you 
think it would be great if Congress spoke with one voice on 
this issue and showed support. And, look, I hope we are going 
to have an outcome here that does that. But does anybody get 
any sense anywhere in the world that the United States and the 
people that are within the United States are somehow divided 
over fighting ISIS, al-Qaeda, and groups that spin off?
    Secretary Mattis. Chairman, there have been times when 
allies and even, I think, our adversaries have been convinced 
we were willing to give up and pull out of certain theaters, 
yes, sir, I think so, but those are operational aspects. I 
think as far as our antipathy of people----
    The Chairman. And you are really speaking more to what 
happened in Iraq and what happened--what are you speaking to 
when you say ``them being concerned about.''
    Secretary Mattis. Pulling out--yeah, announcing the pullout 
from Iraq, sir. Obviously, that was one of the reasons ISIS had 
a chance to grow. When we were talking about pulling out of 
Afghanistan, we had a total of 50 nations in the field fighting 
the enemy. As we were pulling out, we have now dropped to 39. 
That is turning around, and those allies are coming back on 
board, adding troops based on the rollout of our South Asia 
strategy.
    So, you can see what happens as both--you know, when we 
started pulling out of Afghanistan, people thought, well, maybe 
the Taliban will want to make peace then. Some of us doubted 
that, but, in fact, they accelerated their campaign. So, you 
see the enemy's response. You see allies, 11 of them, leaving 
the field when they saw us saying we were going to leave. So, 
yes, it does have an effect. But I do not think it is that the 
enemy believes the American people are suddenly willing to vote 
for the kind of things our enemy exists for, believes in. But 
they at times question whether or not we have the will to stand 
the strain.
    The Chairman. Thank you very much. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. The question of this 
hearing is whether we can be in an endless war with no 
congressional vote against newly-formed terrorist groups all 
over the world forever. We are in year 17, and I have heard 
testimony before that this could go on for generations with no 
vote of Congress.
    The recent deaths of four American troops in Niger and the 
news about a June death of a Green Beret in Mali while deployed 
there on a special forces mission raise many questions about 
the geographic scope of the American military campaign against 
terrorism. And I repeat what I have often said in the last 4 
years: it is time for Congress to have a public debate and vote 
about an authorization for U.S. military action against non-
state terrorist groups. Many of us believe we are legally 
required to do. Others believe if not required, we would be 
wise to do so.
    Secretary Mattis has testified in support of this on 
earlier occasions, as has the chairman of the Joint Chiefs of 
Staff, General Dunford. Our troops and the American public 
deserve an open debate and vote on the extent of military 
operations. If not in year 17, in year 30? In year 40? In year 
50?
    Mr. Chairman, I want to introduce for the record a contract 
solicitation issued by the Navy in 2014 seeking to contract 
with an entity able to provide casualty evacuation, search and 
rescue, and personnel recovery in connection with ``high-risk 
activities'' in Africa. It designates 14 nations, five of which 
have been identified to Congress in War Powers notice letters.
    I find no fault with the contract solicitation. You have to 
plan. But I believe that this level of planning, and this is 
from the Obama administration era, demonstrates a contemplated 
scope for American counterterrorism activity in Africa far 
greater than what has been briefed to Congress, and 
significantly greater than what the American public 
understands.


    [The information referred to is located at the end of this 
hearing transcript on pages 97.]


    Senator Kaine. To our witnesses, Senator Flake and I have 
introduced an authorization for military action against ISIS, 
al-Qaeda, and the Taliban to replace 2001 and 2002, and to 
finally engage us in our Article I responsibility. You signed a 
letter to Congress on September 5th opposing the proposal. I 
will introduce that for the record as well.
    The Chairman. Without objection.


    [The information referred to is located at the end of this 
hearing transcript on page 93.]


    Senator Kaine. I think we can stipulate that this 
administration, like the two preceding administrations, 
believes that the 2001 authorization and 2002 gives it broad 
power in this area, and would rather than not have any 
congressional revision. But we have a job to do, the Article I 
branch, so let me ask you about your reasoning.
    Your first objection in the letter to the proposal is that 
``The legislation would arbitrarily terminate the authorization 
5 years after date of enactment. This is inconsistent with a 
conditions-based approach in the President's South Asia 
strategy. Such a provision could also unintentionally embolden 
our enemies with a recognizable goal of outlasting us.''
    The annual NDAA we pass every year expires every year, but 
Congress still manages to pass the next NDAA. And 
appropriations bills and continuing resolutions expire every 
year, and then they are followed by subsequent appropriations. 
And other critical national security legislation must have 
legislation, like FISA, for example, commonly have an 
expiration date and a need for congressional reauthorization.
    Do either of you view the annual expiration of the NDAA or 
defense appropriations as Congress ``arbitrarily terminating 
our support for the military?''
    Secretary Mattis. No, sir, we have several hundred years 
that this works. It may be imperfectly with continuing 
resolutions, but I suggest the AUMF is substantially different.
    Senator Kaine. Do you have any evidence that the annual 
expiration of the NDA or defense appropriations unintentionally 
emboldens our enemies?
    Secretary Mattis. The continuing resolution has certainly 
inhibited our ability to adjust the military to the modern 
threats.
    Senator Kaine. Do you think the enemies are emboldened by 
thinking that we will not pass a CR or will not pass an 
appropriation?
    Secretary Mattis. I do not think they understand those kind 
of intricacies, whereas an AUMF is a statement of purpose.
    Senator Kaine. You count on being able to get the next NDAA 
passed and the next appropriations bill passed because you have 
confidence in your request, and you have confidence in Congress 
to take seriously the need to defend the United States. Is that 
not correct?
    Secretary Mattis. That is correct, Senator. My reservation 
is that, for example, I have several dozen people who have been 
waiting some time for hearings in order to give me the civilian 
oversight of the Department of Defense we need and respond 
appropriately in keeping Congress informed, and I cannot seem 
to get floor votes on some and certainly hearings for others. 
So, I think it is the speed at the--at the speed of relevance 
for something like this. We would want to make certain that 
where you get into could be construed as the--not just the 
oversight, but the management or direction of this fight has a 
degree of continuity that destroys the enemy's confidence that 
they can outlast their enemies.
    Senator Kaine. If you deemed it advisable at the end of 5 
years that we should continue the battle against these 
authorizations, do you doubt your ability to make the case to 
Congress, or you doubt--do you doubt the ability of Congress to 
take seriously the need to defend the Nation against terrorist 
organizations?
    Secretary Mattis. Sir, I am not in the political realm. I 
realize I play a political role up here, but I am probably----
    Senator Kaine. You do not--you do not doubt the will of 
Congress to battle non-state terrorist groups, do you, 
Secretary?
    Secretary Mattis. Sir, this war is so non-traditional that 
I think we----
    Senator Kaine. I understand that, but you do not doubt the 
will of Congress to defend the Nation against non-state 
terrorist groups, do you?
    Secretary Mattis. No, I do not.
    Senator Kaine. A second objection, if I could--I am sorry I 
am having to move--is that the resolution includes a definition 
of ``associated persons or forces'' that is inconsistent and 
could result in unnecessary uncertainty. The definition says, 
``associated persons or forces or individual entities other 
than a sovereign state that are part of or substantially 
support al-Qaeda, the Taliban, or ISIS, and are engaged in 
hostilities against U.S. armed forces and other personnel.'' I 
am just going to leave that for the record. I think it is 
crystal clear, and there is no uncertainty about it.
    The third and final objection in your letter is that the 
joint resolution would create a cumbersome congressional review 
process for use of force against new associated forces or new 
countries. Let me ask you this. Does the administration object 
to having to identify to Congress the associated forces we are 
targeting with military force, to notify us?
    Secretary Mattis. I believe that under Article II of the 
Constitution, the President has the authority to declare a 
threat to the United States as the elected Commander-in-Chief.
    Senator Kaine. Do you object--does the administration 
object to notifying Congress of the associated forces against 
which you are taking military action?
    Secretary Mattis. I do not think so, sir. We have been 
forthcoming with that very information.
    Senator Kaine. You have, and do you object to the need to 
notify Congress of the countries where military action is 
undertaken? You do that in the War Powers letters correct, 
right?
    Secretary Mattis. We do it routinely, sir.
    Senator Kaine. That is all that Senator Flake and I have in 
our resolution. We require you to notify us about countries and 
notify us about associated forces, and you can immediately take 
action against them, subject only to a resolution of 
disapproval by Congress, which is the current law.
    If I could just conclude, Mr. Chairman. Based on the 
answers in this quick thing, and it is tough to do it so 
quickly, I have a hard time understanding the opposition to the 
resolution as anything other than we do not want congressional 
oversight. There is a 5-year sunset reauthorization with an 
opportunity to extend just like we do in FISA, just like we do 
in the Patriot Act, just like we do in NDAA, just like we do in 
appropriations. The ``associated forces'' definition is 
extremely clear. The process for countries is not a geographic 
limitation. It is just a notice requirement that Congress can 
then affirmatively take steps under the normal rules of the 
Constitution to rebut.
    I recognize that the administration feels like it does not 
want any more authority, but to quote my colleague, we are more 
than a feedback loop. This is a constitutional power, and we 
should not be putting troops into harm's way, and as Congress 
standing back and trying not to have our fingerprints on this 
when it is mutating all over the globe.
    The Chairman. I think we are good.
    Senator Kaine. I think it is a forever war, and I worry 
about deeply about handing the power over to presidents to do 
this without the feel--the need to come to Congress at all. 
Thanks, Mr. Chair.
    The Chairman. You did a good job. [Laughter.]
    The Chairman. I do have remaining time. I do want to say 
that what the senator said is true. I mean, you just have to 
notify the countries. You just have to notify the additional 
groups, so that part is not cumbersome.
    I would ask, and this was going to be a cue from us anyway, 
but I would like to know what the problem is with the 
associated forces. It does appear to be very broad, and I would 
like, if it takes a classified response, we will be glad to 
take it. But it is--I do not understand what the problem is 
with associated forces, and I think it would be--I actually 
ask, and I know you will send me a response to that. I 
appreciate it. Senator Paul.
    Senator Paul. You know, I think it should not surprise any 
of us that administrations, Republican and Democrat, come to us 
and say they believe in unlimited Article II power to execute 
war. What should surprise and worry us, though, is that it 
seems like they also argue that they have virtually unlimited 
power to initiate and to execute war, and that is where the 
real problem comes here.
    I am pretty much like everybody else, execute the war. I do 
not want to have you restrained by rules of engagement, I want 
to engage and kill the enemy, but initiation of the war was 
given to us.
    Madison wrote that the executive branch is the branch most 
prone to war, and, therefore, was studied--we gave that power 
to the legislature. And so, while some would argue, well, we 
can just not appropriate money, that becomes very difficult. 
Even in Vietnam, nobody wanted to cut off the money because no 
one wants to be accused of not giving money to soldiers in the 
field. So, our real only chance of preventing war is not to 
initiate the war.
    The problem we have with you coming forward to us and 
saying--my goodness, you will not even tell us we are not going 
to have preventative or preemptive war with North Korea. This 
sends a signal not just that we are willing to do first strike, 
but what signal does it send to enemies of other nuclear 
powers--enemies of Russia, enemies of China, enemies of 
Pakistan, of India--that we are reserving the right, if we do 
not like what weapon you have and you think it might reach us, 
we might as well just take you out.
    I mean, look, Pakistan and India are pointed at each other. 
You have got Israel pointed at Saudi Arabia, pointed at Iran. 
You have all of these enemies, and if we are going to assert 
that, yes, we have the right and the will, and we will take 
preemptive war against a nuclear power, I think that is very 
troublesome. But if we want to fix it, we should fix it.
    You know, we complain if administrations want to take II 
power, we reassert our power. It is not just us. It has been 
generation after generation of Congress just acquiescing in 
this. And while I applaud the AUMF that is being put forward as 
asserting our authority, if it does not limit the authority of 
the executive, I am not sure we are a lot better. My problem, 
if the executive branch thinks it is too restrictive, I think 
will still authorize war in 34 countries. At least seven for 
certain, but probably 30-some odd.
    So, when we look at this and we want to ask whether or not 
there should be limitations, whether or not we are prepared to 
be involved in perpetual war, or whether we are prepared to let 
any president involve us in perpetual war, we have to think 
about this. I mean, the war started in the first generation 
after Muhammad. I mean, you have got Ali Hussein, and Yazid the 
First fighting in 66 A.D. They still remember the Battle of 
Karbala. The Shia still mourn that battle 13-some-odd years 
later. Are we willing just to not have any more votes and say 
the vote in 2011? No intellectually honest person thinks 2011 
has anything--2001 has anything to do with this, I promise you 
that.
    It says specifically we are going after the enemies who 
attacked us. ISIS has nothing to do with that. Nobody in Niger 
has anything to do with 9/11 other than they have sort of this 
ideology of radical Islam. But I do not think we gave the 
executive branch a blanket authority just to go to war anywhere 
they want against people who they say are, you know, a part of 
radical Islam. Ultimately there is going to have to be 
diplomacy involved in this as well.
    You know, how are we ever going to end the war? Is there 
ever an end to this war? But really, the crux of the argument 
is over who has the power. You say you have got it. Dick Cheney 
once said that it should be unconstitutional to challenge 
Article II authority, which he also meant to be unlimited 
basically. The Constitution was very clear. We were supposed to 
initiate war. It does not matter whether it is a state or a 
non-state actor, initiation of war comes from Congress, and I 
believe that very strongly. And I think if we all did, we 
should assert our power.
    We have the ability to assert our power, and we should 
resist when the administration--anyone, Republican or 
Democrat--comes before us and tells us they have--they believe 
they have the ability to have preemptive war anywhere, any 
time, and they have the ability to continue to fight a war 
against an ideology wherever they perceive it to be. So, I 
think it is very, very dangerous, and this should be a wake-up 
call to all of us, and if we can come together.
    What I would say, though, just passing an AUMF is not 
enough for me because it should be an AUMF that does give us 
some hope of someday coming to an end, and someday there will 
be an end to the war. I see no end to this war historically. I 
think the war and the answers are going to come from within 
Islam. I think Islam is going to ultimately have to stamp out. 
I think we are a target everywhere we go. And, yes, we can 
defeat anyone, but I do not think in the end it ends the war.
    I mean, we went to Yemen. You guys just did it on your own. 
So, you are in a new war theater now. You are involved with 
Saudi Arabia there. You got 17 million people on the point of 
starvation in Yemen, and we are assisting and aiding the Saudis 
in blockading. We give them weapons. They kill civilians. They 
killed 150 people in a funeral procession.
    So, when we go to a village and you guys come and say, oh, 
we got great information, which no one will tell me 
specifically what the information came from that village in 
Yemen. But when we went in there unavoidably, and I do not 
blame our soldiers, I blame us, the people in charge, but women 
and children were killed in that village. What do you think--
and you say, well, we were--we did not try to do that. Sure, 
but what do you think they tell about us in the surrounding 
communities? What do you think they say about the time the 
Americans came in the night, and women, children, and a whole 
village was wiped out? What do you think they say about that? 
They will repeat that by oral tradition. The same way they 
remember Karbala from 680 A.D., they are going to remember 
this.
    So, I do not think we can kill more than we create in the 
process, so ultimately there is going to have to be another way 
that involves some diplomacy, some discussion. It does not mean 
we cannot resist the enemy and we should not, but it should not 
be your power. I am here to say very forcefully it is not your 
power. But the only way we will ever change that is if we as a 
body stand up and say enough is enough, we are going to 
reassert the power of the Senate and the power of Congress to 
determine these things. And we could, and my admonition is to 
do that.
    I am alarmed today to find out that Article 10 basically 
has us involved in civil wars in Africa. So, we can call any 
kind of euphemism we want--``train and equip''--but it sounds 
like you have got a conflict going on there. You have got 
conflict there. You have got conflict going on in Niger. We 
have 6,000 troops in 54 countries in Africa, and we should just 
politely say, oh, we were given this authority under Article 10 
to be anywhere any time?
    I was alarmed that you were going to justify it with 9/11. 
Now I am even more alarmed that Section 10 or Article 10 sounds 
like you believe you can be anywhere any time whether there is 
a war going on or not. And we can say it is train and equip, 
but I suspect there is more going on in Niger than train and 
equip.
    But I do not think there is ultimately a question there 
other than I hope that we as a body would pull together, and 
stand up, and resist, not because you are bad people. You are 
good people. You served your country. You want what is best for 
your country. All soldiers are. But the balance of power--
Madison said we would pit ambition against ambition, so we 
would check and balance each other. We have not been checking 
and balancing the executive branch for 60-some odd years, maybe 
longer. So, we need to stand up, and that is my admonition to 
our body, and I do not think I will change your minds. But it 
is an admonition that we should have a real full-throated 
debate, and I thank the chairman for the beginning of this. 
Thank you.
    The Chairman. No, thank you very much. And my guess is 
under Title 50 authorities, there is a great deal underway that 
the American people nor us are aware of, but that is part of 
what we are dealing with here. Senator Merkley.
    Senator Merkley. Well, thank you, Mr. Chairman, and thank 
you to both of you, Secretaries, for your management of 
perilous circumstances around the world.
    Secretary Tillerson, I believe I understood you to say that 
the retention of the potential for first use with nuclear 
weapons has been a foundational doctrine that has helped keep 
the peace over the last, I think you referred to 70 years. Did 
I catch that right?
    Secretary Tillerson. Yes, Senator.
    Senator Merkley. I would say that maybe not. It has not 
generally been the retention of the potential for first use as 
it has been assured destruction, assured retaliation that has 
kept that peace, and there is a significant difference between 
the two. And I believe I heard one of you refer to that we had 
not really considered the use of nuclear weapons after World 
War II. I am not sure if I heard that right. Did I hear that 
right?
    Secretary Mattis. Senator, I said that we have not 
initiated the use of nuclear weapons since World War II.
    Senator Merkley. Okay, great. And that would certainly be 
very accurate, but we have had serious conversations about the 
potential of using a nuclear weapon in--as a first-use weapon 
both in Vietnam and in Korea. And, Mr. Chairman, I would like 
to submit for the record a CIA document that goes through--it 
is March 18th, 1966.
    Senator Risch. [Presiding] There is no objection.


    [The information referred to is located at the end of this 
hearing transcript on page 81.]


    Senator Merkley. Thank you. It noted they were analyzing in 
the context of a debate about using nuclear weapons the issues 
that might flow should we choose to do so, and they noted some 
of the following things. They said NATO would be badly shaken. 
They said once a taboo had been broken, there would remain no 
effective barrier to the expansion of such weapons. They said 
there would be great agitation in Japan, probably including the 
loss of facilities available to the United States. They said 
there would be accelerated momentum for nuclear proliferation, 
that there would be fundamental revulsion of the United States, 
including condemnation of the United States and the United 
Nations, that no British government that failed to condemn the 
U.S. would probably be able to stand, and that there would be 
pressure for immediate nuclear disarmament. This was the list 
of the things that they talked about that would be 
consequences.
    Are these all kind of concerns that you all would share if 
the U.S. was to utilize a nuclear weapon against North Korea, 
or another circumstance where it is essentially a conventional 
setting?
    Secretary Tillerson. Senator, are you asking with respect 
to a first strike or use of a weapon under any circumstance?
    Senator Merkley. Use of a first strike with a U.S. nuclear 
weapon against conventional forces.
    Secretary Tillerson. I am sure some of those conditions in 
that report are enduring. I am not sure all of them are. I 
would need to study it and give it greater thought.
    Senator Merkley. Secretary Mattis?
    Secretary Mattis. I would have to study it, sir. I would 
just tell you that we have not been discussing this sort of 
thing in any kind of an actionable way.
    Senator Merkley. Thank you. I am very, very pleased to hear 
that. I was very struck when I read this list. It is that they 
would all be things that probably stand up today if we were 
discussing them, the impact on NATO, our allies, the world 
attitude toward us, the effect on the British Government, and 
so forth. It just--I was almost like, wow, it could be a list 
for today's conversation.
    Turning to the 2001 AUMF, my colleague from Kentucky, and 
please correct me if I get this wrong, but noted that most 
rational people looking at the 2001 AUMF would not see a 
connection to the uses in which it is being employed today. Did 
I get that right? And I have it--I have it here in my hand.
    And earlier, Secretary Tillerson, you noted that you were 
not sure of the motivations behind that AUMF, but it is so 
clearly laid out in the ``whereases'' of that--of that AUMF. 
And it is very specifically targeted to use all necessary and 
appropriate force against nations, organizations, or persons 
planning, or authorized, or committed, or aided the terrorist 
attacks that occurred or harbored such organizations or 
persons. Completely the--completely about those 2001 attacks.
    The thing that I think all we are struggling with as a 
committee in our role in this constitutional balance is between 
a situation--a vision of the past in which our Constitution was 
framed around a declaration of war and then an executive who 
commanded forces in such wars, and the modern battlefield of 
the world in which there are terrorist groups scattered about, 
and whether what you are asking for, which sounds like 
permanent worldwide ability for the executive on its own to 
take on radical Islam. And that is quite a different vision 
than the one laid out in our Constitution.
    Am I--am I describing it fairly in terms of--because I did 
hear no timeline, no geographic constraints, no restriction on 
type of operations. That sounds a whole lot like a permanent 
transition of power to the executive that really takes Congress 
out of the picture.
    Secretary Mattis. Senator, that statement from the 
authorization goes on to say, ``In order to prevent any future 
acts of international terrorism against the United States by 
such nations, organizations, or persons.'' And I think you 
bring up a very valid point because the Westphalian world that 
the Constitution was written in obviously has been thrown aside 
by these very powerful transnational groups that we see right 
now.
    And so, however we deal with this to keep Congress' 
legitimate, strong, constitutional power in play has got to 
recognize that traditional forms of warfare are no longer used. 
There are ways to do this. There are many variations that have 
been offered for AUMFs that could address this or, in some ways 
will not address it. But I think we do have to recognize that 
Congress was very blunt that it was to prevent future acts of 
terrorism.
    Senator Merkley. Yes, and it sure was: ``by such nations 
and organizations that had been involved in planning, 
authorizing, and assisting the terrorist attacks on September 
11th.'' But often I hear, and I think we have heard a number of 
times today, that this has been reinterpreted to involve any 
associated forces. Now, there is no wording in this of 
associated forces, and it is often, I find in just academic 
discussions, it is people think that those words exist in here.
    And I do understand the point that organizations change 
names, and fracture, and move on. But we are quite distant in 
purpose and time from these groups which attacked us on 2001. 
And the challenge here is what--if one takes this ``associated 
forces'' as an add-on to this, an implication of this, then the 
question becomes is not almost anything associated in the 
world, and where is that line? And that is a challenge for this 
committee and in dialogue with the executive to figure out what 
is that line. And that is what we are struggling with. And I 
for one am not ready to concede that the line should be wiped 
out with no geographic limits, no time limits, no style of 
force limits.
    Thank you, Mr. Chairman.
    The Chairman. [Presiding] Thank you very much. Senator 
Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thank you, 
Secretaries Tillerson and Mattis, for your leadership and your 
commitment to our country.
    A couple of questions. I believe, Secretary Mattis, you had 
stated that one of the advantages of Congress passing a new 
AUMF would be to show the resolve of Congress and the unity of 
Congress. What does--what does that look like, though, a 
``united Congress?'' Is that a filibuster-proof passage of an 
AUMF? Is that a 100 to nothing passage? What does a ``united 
passage'' passed AUMF look like?
    Secretary Mattis. Well, I am not sure it would have to a 
hundred percent, sir, but it would have to show, I think, a 
bipartisan embrace of the definition of the threat, and then at 
least sufficient congressional support for what to do about 
that threat, that we would see America standing up saying that 
is where we stand, if that helps, Senator.
    Senator Gardner. Under the AUMF that is currently in 
effect, has there been any material change to the authorities 
that you view, the President views, the AUMF through that 
President Obama had not already defined that way, utilizing the 
same authority, the same reasoning?
    Secretary Mattis. There have been some changes in the 
application.
    Senator Gardner. Rules of engagement issues.
    Secretary Mattis. That sort of thing. But I do not--I 
cannot think of any change in the authorities that we think we 
are operating under.
    Senator Gardner. Has there been any additional AUMF grant 
of authority since President Obama left office over the last 10 
months?
    Secretary Mattis. I do not believe so, sir.
    Senator Gardner. If you move from a Title 10 type of action 
to an AUMF type of authorization, what would that require? What 
would that look like?
    Secretary Mattis. I think it would have to be an 
authorization that defines this enemy sufficiently, that it 
does not restrict our operations in the field, and sets a 
condition under which we are to fight for an objective.
    Senator Gardner. So, we are in the Philippines right now 
under Title 10. Is that correct? In the Philippines right now 
under Title 10. Is that correct? Do we have special operators 
in the Philippines?
    Secretary Mattis. Yes, sir, we do.
    Senator Gardner. And are they under Title 10?
    Secretary Mattis. I know we have had them there under Title 
10. The difference is that now with the fight going on in 
Marawi, I believe we reported them under ``other authorities'' 
as well, AUMF, but I am not positive. I need to check on that.
    Senator Gardner. So, is that a presidential declaration? Is 
that a determination by you? I mean, when is there a cold break 
between a Title 10 action and a 2001 AUMF action?
    Secretary Mattis. Well if troops were to be sent into 
direct combat, which they are not in the Philippines--we are 
supporting, again, with intelligence, surveillance, 
reconnaissance--that would cause us, under the War Powers 
Resolution, to notify you of that. But I think we notify you of 
the troops there under our normal maintaining your knowledge of 
where we have troops deployed, not in a combat role.
    Senator Gardner. Quickly here because I want to move on to 
North Korea. Quickly here, what is the most significant rule of 
engagement change that we have seen right now in our fight 
against ISIS from the previous administration to this 
administration?
    Secretary Mattis. I believe it would be in Afghanistan 
where we have authorized the troops there not to have a 
requirement for proximity to the enemy. In other words, 
wherever we see them, we can attack them. They are declared 
hostile--Taliban, al-Qaeda, ISIS--and there is no need for them 
to have to be in self-defense mode to call our air support, for 
example.
    Senator Gardner. And that goes to your question--your point 
you made on lawfare earlier. They knew that, correct? Our enemy 
knew that.
    Secretary Mattis. Absolutely.
    Senator Gardner. They could utilize that rule of engagement 
against us, and that is your point on lawfare that they were 
protecting themselves based on rule of engagement, correct?
    Secretary Mattis. Absolutely, sir.
    Senator Gardner. And we have made significant progress in 
the fight against terrorism because of a change in the rule of 
engagement, correct?
    Secretary Mattis. And the tactics we have employed, yes, 
sir.
    Senator Gardner. Thank you. North Korea. Secretary Mattis, 
you said that North Korea was the most urgent national security 
threat facing our country. Do you still agree with that today?
    Secretary Mattis. I do.
    Senator Gardner. Secretary Tillerson, do you agree with 
that?
    Secretary Tillerson. I do.
    Senator Gardner. Has there been--I hear comments about 
first strike and nuclear capabilities. Kim Jong-un, to our 
knowledge, has not given up his first-strike capabilities. Is 
that correct?
    Secretary Tillerson. Well, it is unclear what his striking 
capabilities are at this point from a nuclear perspective.
    Senator Gardner. But should he have a nuclear weapon, has 
he given up a first-strike possibility?
    Secretary Tillerson. Not to my knowledge.
    Senator Gardner. Secretary Mattis?
    Secretary Mattis. No, sir.
    Senator Gardner. Has anything in our nuclear chain of 
command doctrine changed between the previous administration 
and this administration?
    Secretary Mattis. No, it has not.
    Senator Gardner. So, the chain of command, the response, 
the first-strike capability, that is all the same, correct?
    Secretary Mattis. Yes, sir.
    Senator Gardner. Secretary Tillerson, you may or may not 
wish to answer that?
    Secretary Tillerson. No, as far as I am aware, nothing has 
changed.
    Senator Gardner. Thank you. An additional question on North 
Korea. You have said, Secretary Mattis, I believe, that if 
there was an action going into North Korea, under Article II, 
the President would obviously act if need be, but an AUMF would 
be required for further operations. Is that correct?
    Secretary Mattis. I would think an AUMF, a declaration of 
war, you know, it would depend on the circumstance, so I would 
have to see the circumstances surrounding the requirement for--
to engage in conflict, sir.
    Senator Gardner. Thank you. And I know that you have made, 
at least in the last week, Secretary Tillerson, that the 
Department of Treasury announced several new sanctions against 
Chinese entities. Are there more Chinese entities forthcoming 
in sanctions as it relates to North Korea?
    Secretary Tillerson. There are additional sanctioning 
targets that Treasury has developed.
    Senator Gardner. Thank you. And I am running out of time 
here, so a couple brief questions for you. Secretary Mattis, do 
you believe the Iraqi Security Forces' use of U.S. armor is 
legal under the Iraqi constitution as it relates to what is 
taking place right now with the Kurds--Kurdistan?
    Secretary Mattis. Sir, right now we have got a pause in the 
activity on both sides as a result of the referendum, and I 
think we are talking our way through it right now.
    Senator Gardner. Well, I would like to have an answer, 
though, on the Iraqi Security Forces' use of U.S. armor and 
whether that is legal under the Iraqi constitution, and whether 
Iranian involvement in the current situation could create 
further implications under U.S. law as it relates to the use of 
that equipment. That is one question I would like to have an 
answer to.
    The second question relates to Section 702 reauthorization. 
I know Senator Kaine mentioned FISA reauthorization earlier. 
Secretary, is the Department of Defense asking for Section 702 
to be reauthorized as part of the Defense Authorization Act 
Conference Committee?
    Secretary Mattis. I need to talk with the President about 
that, sir.
    Senator Gardner. Thank you.
    The Chairman. Before turning to Senator Booker, I do think 
as we move through this, the lawfare issue that you brought up 
relative to Afghanistan, that was a significant problem. Our 
enemies were aware it existed, and they took advantage of it. 
And I just--I think that was a very good line of questioning 
also. Senator Booker.
    Senator Booker. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here, and I appreciate your service to our 
country.
    Secretary Mattis, right now in Niger, it is becoming a 
pretty significant beneficiary of a lot of DOD activity, a lot 
of DOD funding under the train and equip--global train and 
equip program. To my understanding, there is a new Air Force 
facility in Agadez amounting to hundreds of millions of 
dollars. Is that correct?
    Secretary Mattis. That is correct.
    Senator Booker. And we are seeing a lot of talk now about 
continued military operations in the region, continued 
investment of U.S. troops as well resources. Is that correct?
    Secretary Mattis. Senator, we have been operating in Niger 
and the surrounding area for about a little over 20 years now, 
yes, sir.
    Senator Booker. But there is--but my point is that there 
has been a significant increase of recent.
    Secretary Mattis. There has been recently as we watch--as 
we try to build them up to take care of their own security.
    Senator Booker. And at the same time, we are seeing that, 
at least a proposed budget from the administration for food 
peace programs. It used to total about $33.8 million. The 
proposed budget is now being cut to $1.6 million for all 
bilateral aid to Niger. Is that correct, sir, to your 
knowledge?
    Secretary Mattis. I am going to have go back and look at 
the figure.
    Senator Booker. Those figures are correct, in the proposed 
budget. So, in other words, a massive ratcheting up of our 
military operations, a proposed decrease. Now, I bring that up 
to you really because, and I--and I think I have heard you talk 
to this, but I would like for you to speak to it now. You know, 
we are seeing in a lot of these states we are involved in 
Africa very different conditions often than we have seen in 
other places we have been involved in train and equip programs 
or fighting in the sense of what is happening with a lot--in a 
lot of these countries.
    Let us turn to Nigeria for a second. Nigerian military 
forces have conducted significant crimes, I would say, 
massacres of Shia Muslims in the northeast town of Zaria in 
which over 350 people were killed. The Nigerian air force 
bombed and displaced persons--a displaced persons camp killing 
236 refugees and injuring thousands more. In 2014, the military 
was accused of over 600 unarmed detainees--of killings of over 
600 armed detainers, interring them in mass graves. There has 
been very little progress or accountability for these 
incidents.
    And I guess I say this because we seem to be involved in 
places like Nigeria, and you know that as we decrease efforts 
in stabilizing democracies, helping with food aid, creating an 
environment where there is stability, and we are involved in 
partnering with militaries that are responsible for atrocities, 
that that creates an environment for more terrorism, or do you 
disagree with that statement, Secretary Mattis?
    Secretary Mattis. Senator, what we try to do is maintain 
our diplomatic engagement, our development support, at the same 
time provide sufficient security, which is by training them how 
to do their own security behind which the development can occur 
to remove the root causes. Anywhere you see U.S. troops, 
Senator, you will find them schooling local troops. Part of our 
training, the law of armed conflict is military ethics. We are 
the good guys in trying to get this across.
    Senator Booker. I do not take issue with that at all. What 
I take issue with is that you are saying we try to maintain our 
efforts at the diplomacy and food support because that is not 
reflected in budget numbers.
    Let me just continue to the point I was trying to make, 
that there is a lot of extensive research, which I am sure you 
aware, that in addition to socioeconomic status, excessive 
force by police and military forces engenders deep grievances 
that lead to radicalization, and the heavy-handed responses 
from military drive recruitment and violent extremism in 
organizations that often then lead to terrorist activity. You 
are aware of that research.
    Secretary Mattis. I am not aware of what we have done. In 
May of 2014, when 276 Nigerian girls were kidnapped. I do not 
find the connection between our activities and Boko Haram's 
kidnapping of hundreds of girls.
    Senator Booker. I was not making--I was not making that 
connection, sir. I am simply making the point Senator Paul made 
within Yemen, for example, that we are engaged in 
counterterrorism activities, partnering with military 
operations like we are seeing with Saudi Arabia, like we are 
seeing with the Nigerian forces. And they are conducting 
operations in a way in which civilians are killed, in which 
atrocities are accomplished. In your opinion, does that in any 
way often drive the creation or the--or the condition for 
radicalization?
    Secretary Mattis. I understand, Senator. It certainly 
could. I assure you that what we are trying to do is to keep 
that from happening, those very things. And in this case, the 
United Nations-recognized government in Yemen is fighting 
inside a civil war there to try to restore that government. And 
if we do not get it restored, then that will set the conditions 
for the very kind of growth of terrorist groups that you have 
mentioned.
    Senator Booker. In Somalia, the language of your current 
notification of June 27th says, ``United States forces also 
advise, assist, and now accompany regional forces.'' Is that a 
change that means that we could be accompanying regional 
forces, means a potential combat role for troops in Somalia?
    Secretary Mattis. Yes, sir. However, our mission there is 
still to train, and advise, and assist them by accompanying 
them how to carry out their own security. We are not taking 
over the fighting from the Somalia or the Africa Union Forces, 
AU Forces.
    Senator Booker. So, I have run out of time. I just want to 
say there is a whole bunch more questions on a lot of the 
activities in Africa that I would love to get answers to, Mr. 
Chairman. I will also say that it strains my understanding of 
what an authorization for the use of military force--I do not 
want to tell you what I was doing 16 years ago. [Laughter.]
    Senator Booker. But it really strains me----
    The Chairman. I am sure we do not want to hear it.
    Senator Booker. Okay. [Laughter.]
    Senator Booker [continuing]. It strains me that this idea 
that somehow that authorization is being used, I do not care if 
it is Indonesia, where there is a terrorist activity in the 
Philippines, Niger, Somalia--I can go through--that we are 
still relying for all of these activities. There has been no 
objective, in my opinion, of a conversation had enough to see 
if we are really achieving U.S. aims or engaging in a way that 
is making this world a much more complex place. And I really do 
agree with a lot of my colleagues, that we should be having 
this debate openly and more in Congress.
    The Chairman. Thank you so much. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Secretary 
Mattis, as we were discussing, you have just gotten back from 
Korea, the--just right before this time today. You were at the 
DMZ, and you said, ``North Korea has accelerated the threat 
that it poses to its neighbors in the world through its illegal 
and unnecessary missile and nuclear weapons program.''
    Well, today North Korea announced that it is going to be 
launching more ``satellites'' into space, and I am just 
wondering if these satellite launches are simply just another 
way for North Korea to test ballistic missiles under the guise 
now of a space program.
    Secretary Mattis. The application of technology is by and 
large the same, sir.
    Senator Barrasso. Secretary Tillerson, I want to switch a 
little bit to what I see happening in terms of recent 
confrontations between the government of Iraq and the Kurdistan 
regional government. I am very concerned about the Christians 
and the minority communities in the disputed territories that 
are being impacted by this. There have been recent media 
reports of 700 to a thousand Christian families forced to flee 
their homes in Telasofa, a Christian town about 19 miles north 
of Mosul. Many of these Iraqi Christians recently just were 
able to return to their home, to their villages after ISIS had 
forced them out of the area.
    So, could you just spend a little time explaining what are 
you hearing from Christian leaders in their--in these 
communities and what the U.S. is doing to ensure that Christian 
and other vulnerable minorities are being protected?
    Secretary Tillerson. Senator, the good news is they are 
trying to get back to their homes, their villages, their 
traditional homes that they fled when ISIS entered the area. 
And many of their villages have been spared because the 
fighting did not occur there. We have been in direct contact 
with Christian leaders in those communities who are concerned 
that this conflict between Kurdish Peshmerga forces and Iraqi 
Central Government forces not be fought out in their villages, 
and as a result, they have pulled their forces out.
    Prime Minister Abadi has ensured that his forces stay out 
of those villages, and I think, to my knowledge, the Kurdish 
have pulled out of those villages as well. So, we have direct 
engagement with local leaders of those communities and 
Christian leaders that are trying to bring those populations 
back.
    Senator Barrasso. Thank you. Secretary Mattis, earlier this 
month there were violent clashes between the Iraqi Security 
Forces and the Kurdish Peshmerga in Northern Iraq. The media 
reports indicated that the Iraqi government had moved forces 
into the disputed areas and the region of Kurdistan. So, I am 
wondering what impact does the fighting have on our efforts of 
the U.S.-led international coalition against ISIS in terms of 
the ability to move military equipment and supplies to allied 
forces in Iraq and in Syria?
    Secretary Mattis. Senator, the fighting has disrupted and 
delayed some of those movements of our equipment, logistics 
support, ammunition, for example. But I would point out that 
the Iraqi forces moved into areas short of the 2004 green line. 
And as a result, although there were some firefights along 
there, Secretary Tillerson has been engaged diplomatically. We 
always lead diplomatically on all of our efforts, and those 
have been successful. And Prime Minister Abadi has, in effect, 
been able to hold things under control, make certain none of 
these militias are creating more problems as the Kurds sort out 
their political situation in Erbil.
    Senator Barrasso. Thank you. And in terms of moving first 
diplomatically, if I could Secretary Tillerson, turn to 
Pakistan. August 21st, President Trump gave a primetime address 
to announce his strategy for Afghanistan. He said a pillar of 
that strategy was, as he said, ``to change the approach in how 
to deal with Pakistan.'' You briefly discussed this issue while 
you were traveling in the region last week. You said that you 
have given the Pakistanis, I think, ``certain expectations we 
have of their government.'' And you went on to say that you 
were ``attempting to put in place a mechanism of cooperation 
through information sharing and action to be taken to begin to 
deny these organizations the ability to launch attacks.''
    So, could you talk a little bit about what is the change to 
approach to Pakistan and maybe some of the expectations that 
you have articulated for the Pakistani government that you 
could share with the committee in terms of what this 
cooperation is going to look like?
    Secretary Tillerson. Well, I can share some broad contours, 
and if there is an interest in more detail, we might need to do 
that in a closed hearing. But the conversation with the 
Pakistani government is for them to recognize that they will be 
one of the greatest beneficiaries of a successful peace process 
in Afghanistan. Pakistan lives with two very unstable borders, 
one with Afghanistan and one with India. And our message to 
them is you have to begin to create greater stability inside 
your country, and that means denying safe haven to any of these 
organizations that launch attacks from your territory.
    So, we are going to enter into an effort to have greater 
sharing of certain intelligence information. The Pakistanis 
have indicated they--if we provide the information, they will 
act. We are going to have to test that. We will give them an 
opportunity to do so.
    And so, what will change is that Pakistan will find it in 
their interest to begin to disassociate these longstanding 
relationships that have developed over time with certain 
terrorist organizations--the Haqqani Network, the Taliban--
inside of Pakistan, which may have served their purpose for 
stability once upon a time, but they no longer serve that 
purpose. And it is up to Pakistan, I think, to think about 
their longer-term stability and their future by changing that 
relationship with these organizations.
    Senator Barrasso. Okay. Thank you. Thank you very much. I 
am very grateful for your leadership and your service. Thank 
you, Mr. Chairman.
    The Chairman. Thank you very much. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, and thank you, 
Secretary Tillerson and Secretary Mattis, for being here, and 
for your service and your stamina, frankly, that we are still 
here.
    Over the past several years, as has been pointed out in 
this discussion, the range of threats that we face from 
terrorist groups and state actors has become increasingly 
diverse, fragmented, and geographically expansive. And 
militants that we defeat in one country have spread their 
ideology and violence to other areas. Similarly, state actors, 
like Iran and Russia, are increasingly expanding their reach 
beyond their borders, particularly in the Middle East and 
Africa, where our troops are present.
    So, I am concerned, as many on this committee are, that 
without an adequate understanding of the parameters that the 
administration is using to justify the use of force, that our 
strategies will remain ambiguous, and that our troops will have 
few limits to where they will be asked to go and what they will 
be asked to do.
    And I have to say that I believe in the importance of U.S. 
engagement in the world, so I am not an isolationist. I do not 
think we should withdraw from everywhere. But I want to make 
sure, as Senator Booker said, that we are actually achieving 
the aims that we set out to achieve when we put troops in a 
particular area. And, Secretary Tillerson, as you point out, 
the American people and our soldiers have a right to know where 
they are being asked to go, what they are being asked to do, 
and what the expectations are, and what the end game is.
    And I think one of the places where it is not at all clear 
to me what the end game is and that we have a strategy for that 
end game, is in Syria, which is--you know, the conflict there 
is one of the things that has allowed terrorist groups and ISIS 
to metastasize in the way that they have. So, as we look at the 
liberation of Raqqa, what is our end game for fighting ISIS 
along the Middle Euphrates River? Do we intend to continue down 
the Euphrates to Mayadin? Will the Assad regime or the Russians 
do that? It is not at all clear, and we have not just the 
terrorists that we are fighting there, but we also have those 
state actors--Russia, Syria, Iran--who are playing a role that 
is complicating the situation.
    So, I guess this is for you, Secretary Mattis.
    Secretary Mattis. Senator, it is the most complex 
battlefield I think I have ever experienced. I would tell you 
right now that, again, our operational aspects are by, with, 
and through partnered or allied forces. That is why you see us 
helping others learn how to fight or putting our people, in 
this case in Syria, in a position to resupply them. Basically 
we, I believe, lost one soldier killed taking Raqqa, and the 
Kurds lost over 600 killed. You see it written in the grimmest 
possible statistic.
    What we will do is knowing they have moved their external 
operations elements down toward Mayadin, as we gather strength 
from the Arab tribes, we certainly will continue to move 
against ISIS--move against ISIS because we--this thing is not 
over until it is over. At the same time, the regime, the pro-
regime forces--I am talking about Iranian-supported elements--
Lebanese Hezbollah--and the Russians forces are moving from 
Darzar in the same direction. Again, we do de-confliction, as 
you know with them, at several levels.
    Senator Shaheen. Right, understand.
    Secretary Mattis. So, we will continue to move against 
them. The Iraqis will move against them from their side of the 
border. Even as this Kurdish referendum issue has been a 
distraction further north, they are continuing to move. So, we 
are still on the move. We are still de-conflicting, and 
Secretary Tillerson is coordinating the larger issue of the end 
state diplomatically.
    Senator Shaheen. And so, is the expectation as we drive 
ISIS out, that we will leave that remaining sections of Syria 
to Assad, to the Russians, to Iran? Because it is not at all 
clear that once we are gone, what will happen in those 
territories?
    Secretary Tillerson. Well, Senator, that is where our 
diplomatic efforts are underway to create these de-escalation 
zones. That is, areas are liberated. We then de-escalate the 
conflict so that the civil war does not re-erupt. And in order 
for that to happen, that means that the regime hold its 
positions and not try to overrun or retake areas that were 
liberated by others.
    We have successfully put one de-escalation zone in the 
southwest of Syria in conjunction with Jordan and Russia. That 
de-escalation zone went into effect January the 9th. There have 
been no aerial bombings in that area since, and we have had 
success moving Iranian presence as well as Lebanese Hezbollah 
presence out of those areas.
    We are working to create additional de-escalation zones, 
and these are not demarcation zones. These are not intended to 
divide the country. They are merely intended to de-escalate, 
de-conflict, and, in effect, get ceasefires in place so that we 
then can get representatives to the Geneva process pursuant to 
U.N. Security Council Resolution 2254, which has a very 
prescribed process for how Syria will work its way towards new 
elections over the next few years.
    Senator Shaheen. Well, sorry to interrupt. I would like to 
pursue this discussion in a classified setting. But I did want 
to follow up on a statement that you made, Secretary Mattis, 
where you said that we always lead with diplomacy. I would to 
like to think that we always lead with diplomacy, but given the 
current reorganization at the State Department, the current 
cuts to the budget at the State Department that were requested 
by this administration, the number of personnel, the number--
the amount of years of expertise of people who have left the 
State Department, I guess I question whether, in fact, we are 
leading with diplomacy and putting our best foot forward.
    So, I do not know, Mr. Secretary. Can you explain to me why 
this is a good time to let go of those personnel, to cut back 
on the budget of the State Department?
    Secretary Tillerson. We have let no one go, Senator. Some 
people have retired. Some people have chosen to leave and 
pursue other interests on their own. There have been no 
layoffs. There have been no terminations. And, quite frankly, 
Senator, I have to speak on behalf of the professional men and 
women at the State Department--Foreign Service officers and 
others--who have many, many years of experience that have 
stepped up to the open positions that are still open because we 
are waiting for confirmations, and are doing a superb job 
representing the American people's interests.
    And our diplomacy has not stopped. It is not hampered. It 
is not slowed. These people are engaged directly with our 
counterparts and leading this diplomatic effort. I am proud of 
them. They are doing a great job, and we need some more help. 
We need some leadership help. But we have not depleted our 
ranks of expertise by any stretch of the imagination, and, 
quite frankly, on their behalf I want to defend their 
expertise, to you.
    Senator Shaheen. Well, I certainly was not attacking the 
men and women of the State Department. I think they do an 
excellent job. And my concern is that we have seen many people 
with a lot of expertise who have left the Department because 
they are concerned about the direction there, and that is what 
I wanted to speak to. But I share your support for the work 
that they are doing.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman. So, Secretary 
Mattis, Secretary Tillerson, in an increasingly dangerous and 
volatile world, I am glad you are where you are. And we have 
got a lot of challenges, and I think the current AUMF covers 
the fight against ISIS, even though as was stated earlier, 15 
years ago there was no ISIS as such.
    However, I also believe having a new AUMF has benefits. I 
think it can be worthwhile in providing greater clarity and 
guidance, including to our military commanders and to your 
diplomats, Mr. Secretary. I think it can help you establish a 
firmer base of political support for overseas operations. I 
think it can send a clear signal of resolve from the United 
States Congress as well as the administration to friend and foe 
alike. And so, I am interested, but I am only interested in the 
right AUMF. It has got to be helpful in empowering those who 
are undertaking this incredibly important task during a time 
with such danger.
    I guess my question to you would be, I understand looking 
at your testimony and having been here earlier, that you have 
laid out what you think the guiding principles ought to be. But 
are there any authorities or guidance that you now lack that a 
new AUMF could provide?
    Secretary Mattis. On the military side, Senator, I would 
just--I would say no as it stands right now. And, again, when I 
spoke, I just thought that we need to incorporate those factors 
that I brought up. I am not telling the Senate how to do its 
business. I just owe you my best military advice. How you deal 
with that, I salute, and we will--we will carry out our orders 
to the Commander-in-Chief.
    But I think those factors of conditions-based and the 
timelines--anything that we do, we have to recognize has an 
impact on both our operations and on the enemy's view, and we 
just have to take that into account. That is a reality. And I 
am not saying that there is some prescriptive one way to solve 
these.
    Senator Portman. Secretary, any guidance or any authorities 
you lack?
    Secretary Tillerson. I do not think there are any 
authorities we lack. As we indicated, we think the current 
authorizations we have are sufficient to allow us to pursue 
this enemy wherever they choose to want to fight us. And, 
again, I think, you know, this is all about fighting them over 
there so they do not come here to attack us on the homeland 
again.
    Senator Portman. And the threat has evolved, and it will 
continue to evolve. And geographic limitations, as an example, 
would make no sense, I assume, given the fact that we have seen 
a metastasizing of the threat through countries we might never 
have imagined would be part of now ISIS or former al-Qaeda.
    Let me ask you a broader question, and this is a tough one. 
But I have, as is true with many of my colleagues, been 
frustrated as you have with regard to Syria. You called it a 
very complex battlefield, and I know the President and our 
administration has focused on defeating ISIS as is appropriate. 
But there is a broader issue here, which is, you know, how did 
ISIS evolve in the first place, and how do we deal with the 
underlying problems and the chaos in that region, the 
instability that fueled the rise of ISIS in the first place.
    And I guess my question to you is, let us say we continue 
to be successful with ISIS. You talked about Raqqa earlier, and 
you talked about some of the military success we have on the 
ground. As we do that, I would think our coalition partners and 
us are going to see the limitations of a military approach 
because you will continue to have sectarian divisions, 
competing interests, a worsening humanitarian crisis. And I 
just want to be sure if we are doing a new AUMF we cover that. 
In other words, this is not just to give you the authority to 
use military force, but it is really to get at the underlying 
causes so that we do not have to go back again.
    I guess, Secretary Tillerson, to ask you first, as an 
example, do you think there can be a lasting peace there as 
long as Assad is in power, and does the current AUMF give you 
the ability, Secretary Mattis, to be able to deal with that 
issue. If you--if you think that has to be resolved, that might 
be one example.
    Secretary Tillerson. Well, the current AUMF only authorizes 
our fight against ISIS in Syria, as I indicated in my remarks. 
We are not there to fight the regime. There is no authority 
beyond the fight against ISIS. Therefore, we have to pursue a 
future Syria that is kept whole and intact, and a process which 
the--which the U.N. Security Council process does provide a 
process by which, in our view, the Assad regime will step down 
from power.
    How that occurs will be part of that process, and that is 
what we have continued to indicate. That is a view that is 
widely held by others in the region as well. It is a view that 
is widely held by our allies in Europe, and broadly by the 
coalition. So, what we want to do is create conditions so 
Geneva has an opportunity to succeed.
    Senator Portman. And, again, how does this play into the 
potential new AUMF, and, Secretary Mattis, you might focus, if 
you would, on the military operation side of this thing, in 
order to secure the peace after ISIS is defeated if we are 
successful. What would you like to see in an AUMF that would be 
broader and give you the ability to do what has to be done?
    Secretary Mattis. Sir, I think the AUMF has to address the 
two basic brands of terrorism that we have seen strike at 
civilized people everywhere, and to determine what it takes to 
define that problem in sufficient detail, and to a point that 
here in the Congress we are in agreement, if you go forward 
along those lines, so that we speak with one voice on the 
threat. If we spend time basically defining the threat in 
sufficient rigor, then I think much of the response to that 
threat will be understandable and supportable across the 
political spectrum.
    Senator Portman. Okay. And, again, I know this is a 
sensitive topic, but do you think a broader AUMF is needed to 
deal with the underlying issues, not just the immediate 
elimination of the ISIS threat in Syria, but some of the 
factors that have led to the rise of ISIS?
    Secretary Mattis. It could do that, Senator. Properly 
constructed, it could do that.
    Secretary Tillerson. I think it is a question of after we 
are successful as we are having success now, how do you 
stabilize these areas. And do we as--is there any military role 
for that stabilization? I am not--I would have to think about 
it further as to whether it is a military role or whether it is 
really we equip, which is what we are doing today, we equip 
local capacity to maintain the security of their communities.
    And as I said, and even as Prime Minister Abadi noted, 
armies are not good at police--serving in a police role. They 
are not trained for that. So, we have to train security forces 
that are able to provide a policing function to maintain 
stability and security for these communities, which helps tamp 
down the conditions that give rise then to this violent 
extremism again.
    Senator Portman. No question. I guess I am just--I am just 
again--I am out of time, and I appreciate your indulgence 
allowing me to go a little over, Mr. Chairman. But I do think 
this is a discussion that we can have as part of this potential 
new AUMF is, you know, what is the broader strategy here that 
we ought to be pursuing to avoiding getting back in the fight 
again.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. And before I turn to Senator 
Cardin for his closing comment, on that note, I mean, you guys, 
I just want to be clear--people are tuned into this. You are 
not asking for an authority to go against Assad.
    Secretary Tillerson. No, Senator.
    The Chairman. And if you attempt----
    Secretary Mattis. No, sir.
    The Chairman  [continuing]. If you felt you needed to go 
against Assad as part of the broader picture that Senator 
Portman was bringing up, you would come to Congress because we 
would then be going against a country. Is that correct?
    Secretary Tillerson. That is correct.
    The Chairman. Senator Cardin.
    Senator Cardin. Mr. Chairman, I first want to thank both of 
our witnesses for their service to our country and their 
participation in this hearing. There may be some disagreements 
about what the AUMF covers currently and what Congress should 
include in a more up-to-date AUMF. That is a healthy debate 
that we are having. There is no debate, as the chairman has 
pointed out, about our resolve to go after terrorists who are 
attacking our interests and our allies, and we want you to have 
the ability to root them out and destroy them. So, there is no 
disagreement about that.
    I just would sort of conclude on this, and that is I think 
there is a real willingness of all of us to try to work 
together to modernize the AUMF. So, we are going to try--we are 
going to try to be able to do that. But I particularly want to 
thank you for the direct answers to our questions. I think you 
were very clear in responding to the questions that have been 
asked by the members of this committee, and that is very 
encouraging because this hearing, I think, has been extremely 
helpful to us to try to sort out how we can best represent the 
national security interests of this country.
    The Chairman. I really want to thank you both for coming, 
for your service to our country, for the concrete answers that 
you gave. Obviously, the next logical step is for us to mark up 
an AUMF, and I would just ask while you are here that you agree 
to work with us promptly, and the work period is short. We have 
got other issues to deal with, and that you would both use your 
resources to respond quickly to questions we might have legally 
and otherwise relative to an AUMF.
    Secretary Tillerson. Will do.
    Secretary Mattis. Absolutely.
    The Chairman. Yeah. Again, thank you so much. There will be 
additional questions that will be--we will take those through 
the close of business Wednesday. To the extent you can answer 
those promptly considering the other duties you have, we would 
appreciate it.
    Again, I cannot thank you enough for your service and for 
the time you spent with us today.
    And with that, the meeting is adjourned.
    [Whereupon, at 8:15 p.m., the hearing was adjourned.]

                              ----------                              

              Additional Material Submitted for the Record

        Statement for the Record Submitted by Human Rights First

                              introduction
    The recent deaths of 4 U.S. service members in Niger have prompted 
members of Congress to give renewed attention to the scope of war 
authorities that govern U.S. counterterrorism military operations 
abroad.\1\ Within days of the 9/11 attacks, Congress passed an 
authorization for use of military force (``AUMF'') against those who 
``planned, authorized, committed, or aided the terrorist attacks that 
occurred on September 11, 2001 or harbored such organizations or 
persons.'' \2\ This language is widely understood as authorizing force 
against al-Qaeda, who planned and committed the attacks on the United 
States on 9/11, and the Afghan Taliban, who had harbored al-Qaeda 
before and after the attacks.
---------------------------------------------------------------------------
    \1\ Connor O'Brien, Niger Attack Fuels New Push for War Vote, 
Politico, Oct. 20, 2017.
    \2\<bullet>T3AAuthorization for Use of Military Force, Pub. L. No. 
107-40, 115 Stat. 224, 224 (2001) (codified at 50U.S.C. Sec. 1541 
note),
---------------------------------------------------------------------------
    The 2001 AUMF is also expressly limited to using force to prevent 
future acts of terrorism against the United States by the entities 
responsible for 9/11, not their associated forces, successor entities, 
or unaffiliated terrorist organizations. Indeed, Congress expressly 
rejected the executive branch's request for broad and open-ended 
authority to use military force against other terrorist groups without 
specific authorization from Congress.\3\
---------------------------------------------------------------------------
    \3\ See David Abramowitz, The President, the Congress, and the Use 
of Force: Legal and Political Considerations in Authorizing the Use of 
Force Against International Terrorism, 43 Harv. Int'l L.J. 71 (2002); 
Gregory D. Johnsen, 60 Words And A War Without End: The Untold Story Of 
The Most Dangerous Sentence In U.S. History, January 16, 2014, 
Buzzfeed.
---------------------------------------------------------------------------
    Yet for nearly 16 years, longer than any war in the nation's 
history, the executive branch has been using the 2001 AUMF as the 
primary legal basis\4\ for military operations against an array of 
terrorist organizations in at least seven different countries around 
the world.\5\ Some of these groups, like ISIS and al Shabaab, not only 
played no role in the 9/11 attacks, but did not even exist at the time 
Congress authorized the use of force in 2001.\6\
---------------------------------------------------------------------------
    \4\ The executive branch has also relied on the 2002 Iraq AUMF to 
justify its counter-ISIL campaign. See e.g., Stephen Preston, The Legal 
Framework for the United States' Use of Military Force Since 9/11, 
Remarks at the American Society for International Law, Washington, DC, 
April 10, 2015
    \5\ Report on the Legal and Policy Frameworks Guiding the United 
States' Use of Military Force and Related Operations, December 2016.
    \6\ It is worth recalling that in 2014 when the claim that the 2001 
AUMF applied to ISIS was first made, national security law experts from 
both sides of the aisle were astounded. See e.g. Robert Chesney, The 
2001 AUMF: From Associated Forces to (Disassociated) Successor Forces, 
Lawfare Blog, September 10, 2014. Before the announcement, law 
professor Ryan Goodman had noted the ``remarkable consensus of 
opinion'' among experts ``that ISIS is not covered by the 2001 AUMF.'' 
See Ryan Goodman, The President Has No Congressional Authorization to 
Use Force against ISIS in Iraq, June 19, 2014. National security expert 
Ben Wittes commented that extending the 2001 AUMF to ISIS ``is not a 
stable or sustainable reading of the law.'' See Ben Wittes, Not Asking 
the Girl to Dance, September 10, 2014. And former State Department 
legal advisor Harold Hongju Koh considered a new AUMF to be the only 
``lawful way to fight the Islamic State'' and prevent a 
``constitutional battle over the president's prerogative to conduct 
unilateral war.'' See Harold Hongju Koh, The Lawful Way to Fight the 
Islamic State, August 29, 2014.
---------------------------------------------------------------------------
    The executive branch's continued reliance on the 2001 AUMF for 
military operations far beyond what Congress originally authorized 
undermines Congress' important constitutional role as the branch 
responsible for the decision to go to war. As Senator Todd Young noted 
during a keynote speech at the Heritage Foundation in May of this year, 
the founders entrusted Congress with the decision to go to war to 
``avoid foolish, hasty, unnecessary, and perpetual wars that tend to 
accrue debt and erode liberty.'' \7\ The lack of any sunset provision 
or reporting requirements in the 2001 AUMF also restricts the ability 
of Congress to conduct meaningful oversight over military operations 
and the foreign affairs of the United States.\8\
---------------------------------------------------------------------------
    \7\ Is it Time for Congress to Pass an ISIS-Specific AUMF?, The 
Heritage Foundation, May 1, 2017.
    \8\ Recent entanglements with Iranian and Russia-backed pro-Assad 
forces in Syria, where the U.S. is fighting ISIS, demonstrate just how 
far the 2001 AUMF has been stretched. See Kate Brannen et al., White 
House Officials Push for Widening War in Syria Over Pentagon 
Objections, Foreign Policy, June 16, 2017.
---------------------------------------------------------------------------
    This untenable state of affairs has other dangerous consequences as 
well. Continued reliance on outdated and ill-defined war authorizations 
that blur the line between war and peace undermine national security, 
U.S. leadership in the world, and human rights both at home and abroad.
 ill-defined war authorities undermine national security, u.s. global 
            leadership, and human rights at home and abroad.
    War authorizations confer extraordinary powers on the president, 
powers that outside of war would amount to egregious violations of 
human rights. Wartime rules were designed for the unique circumstances 
of armed conflict between opposing armed forces. As a result, the laws 
of war sometimes permit killing as a first resort, detention without 
charge or trial, and the use of military tribunals-actions that are 
otherwise contrary to basic American values and human rights.
    The United States has long been a global leader on human rights, 
leveraging its example to influence other nations to improve their own 
human rights records. The United States has rightly criticized other 
nations for improperly invoking wartime authorities in the name of 
national security. But the ability of the United States to level this 
criticism effectively demands that it demonstrate that its own use of 
wartime authorities is lawful and appropriate. Continued reliance on 
ill-defined authorities or questionable legal theories that enable the 
use of wartime authorities outside the lawful boundaries of war not 
only harms U.S. leadership on human rights, but U.S. national security 
as well.
    The current status quo puts the United States at odds with allied 
nations, counterterrorism partners on the ground, and local populations 
whose help is critical to effective counterterrorism. As a result of 
doubts about the lawfulness or legitimacy ofU.S. actions or policies, 
allies and partners withhold critical cooperation, consent, and 
intelligence information. Local populations turn against the United 
States, fueling terrorist recruitment and propaganda and increasing 
attacks against U.S. and allied forces. Assuring U.S. allies, 
counterterrorism partners, and local populations that the United States 
respects human rights and the rule of law-including important limits on 
where, when, and against whom wartime authorities may be employed-will 
improve cooperation, undermine terrorist recruitment and propaganda, 
and reduce attacks against U.S. forces.
    Setting the country on a new course is also needed to ensure that 
the United States does not set dangerous precedents that are 
detrimental to its long-term interests. The policies, practices, and 
legal justifications used by the United States today will be used by 
other states tomorrow. Expansive interpretations of a state's authority 
to use wartime powers-such as lethal force as a first resort, military 
tribunals, and detention without charge or trial-embolden other states 
to use such practices. Constraining the use of these exceptional 
authorities to circumstances meeting the legal threshold for armed 
conflict and to where their use is militarily necessary, will provide a 
model for other states on how to use wartime authorities lawfully, 
strategically, and responsibly.
    Not only is it unlawful to apply wartime authorities to address 
terrorist threats off the battlefield, it is not necessary. The United 
States has a robust array of diplomatic, law enforcement, and 
intelligence resources to mitigate the threat of terrorism. And 
ultimately, partner nations in which terrorist threats reside must take 
the lead to address those threats head on, and effectively, with the 
support of the United States. The United States also retains the 
authority to act in self-defense, including through the use of military 
force, when there is an imminent threat that cannot be addressed 
through other means. Wartime authorities such as an AUMF are not 
necessary to take such action.
    By tailoring congressional war authorizations to the conflicts to 
which they are intended to apply and conducting regular oversight of 
war, Congress provides a crucial check on the executive branch, 
ensuring that presidents do not stretch wartime killing, detention, and 
trial authorities beyond the bounds of armed conflicts authorized by 
Congress.
 recommendations for drafting authorizations for use of military force
    Any new war authorization passed by Congress should be clear, 
specific, carefully tailored to the situation at hand, and aligned with 
the international legal obligations of the United States to respect 
state sovereignty, human rights, and the boundaries of wartime rules. 
Careful drafting is critical to prevent any new AUMF from being 
stretched to justify wars not authorized by Congress, to ensure ongoing 
congressional engagement and an informed public as the conflict 
proceeds, and to prevent the authorization from being used in ways that 
undermine human rights or U.S. national security.
    To meet this standard, Human Rights First recommends that any new 
authorization for use of military force include the following elements: 
\9\
---------------------------------------------------------------------------
    \9\ These elements have been recommended and endorsed by numerous 
national security experts from across the political spectrum. See e.g., 
Goldsmith et al., Five Principles That Should Govern Any U.S. 
Authorization of Force, Washington Post. These elements have also 
gained the support of a coalition of human rights, civil liberties, and 
faith groups. See ``Re: Authorizing the Use of Military Force.'' Letter 
to Senator Bob Corker and Senator Ben Cardin. June 19, 2017.
---------------------------------------------------------------------------
Specify the enemy and the mission objectives:
    Any new AUMF should clearly specify the entity against which force 
is being authorized, the mission objectives or purpose for authorizing 
force, and where force may be used. These elements prevent the 
executive branch from overstepping Congress's intent, discourage 
mission creep, and ensure that the authorization will not be used to 
justify unlawful or perpetual armed conflict. Authorizing the president 
to use force against unknown future enemies,\10\ for undefined 
purposes, or in unknown locations is an unconstitutional delegation of 
Congress's power to declare war. It is also unnecessary for national 
security. The president has authority to defend the nation from sudden 
attacks under Article II of the Constitution and Article 51 of the U.N. 
Charter. Moreover, Congress can authorize force against new threats 
when and if such threats arise.
---------------------------------------------------------------------------
    \10\ Should Congress to choose to authorize force against the 
associated forces of a group named in the authorization, it should 
carefully define the term associated forces in a manner that complies 
with the laws of war. Congress should not authorize force against so-
called ``successor entities.'' See Human Rights First, Authorizing the 
Use of Force Against ISIS: How to Define ``Associated Forces''.
---------------------------------------------------------------------------
Reporting requirements:
    Regular and detailed reporting helps promote democratic 
accountability, maintain legitimacy both at home and abroad, ensure 
compliance with domestic and international law and enables Congress to 
fulfill its critical oversight functions. To properly keep Congress and 
the public informed of the scope and progress of the mission, the 
president should provide regular reports detailing at minimum: the 
entities the administration believes are covered under the new AUMF, 
the factual and legal basis for including these entities in the AUMF, 
the number of civilian and military personnel killed, and the legal 
analysis the administration is relying on for undertaking new actions. 
This information is critical for proper public transparency and 
engagement and enabling Congress to exercise its constitutional 
oversight responsibilities over a continuing armed conflict.
Compliance with U.S. obligations under international law:
    For over 200 years the Supreme Court has held that domestic 
statutes must not be interpreted to conflict with U.S. obligations 
under international law if there is any other plausible 
interpretation.\11\ An explicit statement in an AUMF that operations 
must only be carried out in compliance with U.S. international legal 
obligations would bolster global confidence in the United States as a 
national that complies with the rule of law and is committed to its 
obligations to respect state sovereignty under the U.N. Charter and 
customary international law, treaty and customary law-based human 
rights law, and the requirements of the law of armed conflict, where 
applicable. Such a statement would enhance the legitimacy of the 
mission, aid the effort to win hearts and minds, and encourage 
cooperation from allies, and partners.
---------------------------------------------------------------------------
    \11\ Murray v. The Charming Betsy, 6 U.S. (2 Cranch) 64 (1804).
---------------------------------------------------------------------------
Supersession/sole source of authority provision:
    Any new AUMF should include language that makes it clear that it is 
the sole source of statutory authority to use force against the named 
enemy in the authorization. This is important to avoid overlap, 
confusion, or loopholes that could be used to evade the requirements of 
either an existing or new AUMF. For example, as the executive branch 
has claimed that the 2001 AUMF and 2002 Iraq AUMF already provide 
authority to use force against ISIS, a new ISIS AUMF should either 
repeal the 2001 AUMF and 2002 Iraq AUMF, or include language that makes 
it clear that the new ISIS AUMF is the sole source of statutory 
authority for using force against ISIS.\12\ Failing to include such 
clarifying language or to repeal old AUMFs opens the door for the 
executive branch to rely on the 2001 AUMF to avoid the requirements of 
the new ISIS AUMF.
---------------------------------------------------------------------------
    \12\ The Obama administration claimed that the 2001 and 2002 AUMFs 
already authorize force against ISIS. Failing to clarify that a new 
ISIS AUMF supersedes these authorizations confuses rather than 
clarifies the administration's powers. See Jen Daskal, Why Sunset and 
Supersession Provisions Are Both Needed in an Anti-ISIL AUMF, Just 
Security, March 18, 2015.
---------------------------------------------------------------------------
Sunset clause:
    Sunset provisions have been included in nearly a third of prior 
AUMFs.\13\ They act as a forcing mechanism that guarantees continued 
congressional oversight and approval as the conflict evolves, providing 
a safeguard against perpetual armed conflict or executive branch 
overreach. Sunsets require Congress and the administration to come 
together to reexamine the AUMF at a future date in light of current 
conditions, and if necessary, reauthorize and/or refine the legislation 
to suit those new conditions. As former general counsel for the CIA and 
Department of Defense Stephen Preston has explained, requiring Congress 
to reauthorize an ongoing conflict does not signal to the enemy that 
the United States plans to walk away from the fight at a set date.\14\ 
Rather, heexplained, a properly structured reauthorization provision 
with a mechanism for renewing the authority in advance of the sunset 
would signal to our partners and adversaries that the United States is 
committed to its democratic institutions and will fight the fight for 
as long as it takes.
---------------------------------------------------------------------------
    \13\ Ending the Endless War, National Security Network, February 
2015.
    \14\ Is it Time for Congress to Pass an ISIS-Specific AUMF?, The 
Heritage Foundation, May 1, 2017.
---------------------------------------------------------------------------
                               conclusion
    The founders of this nation recognized the profound significance of 
going to war and wisely assigned this power to Congress. If and when 
Congress passes a new war authorization, that authorization should 
reflect the hard lessons of the last decade and a half by including the 
above elements. If Congress cannot reach agreement on an authorization 
that meets these requirements, it should not pass one.

                               __________


     Responses to Additional Questions for the Record Submitted to 
     Hon. Rex Tillerson, Secretary of State, by Senator Bob Corker

    Question 1. If Congress decided to repeal the 2001 and 2002 
Authorizations for Use of Military Force (AUMFs), and simultaneously 
provide a replacement AUMF that authorizes the President to use all 
necessary and appropriate force against the Taliban, al-Qaeda, ISIS, 
and associated forces (appropriately defined):

   What would be the legal consequences, and what other provisions of 
        law would be impacted? Please be as specific as possible.

    Answer. The repeal of the 2001 and 2002 Authorizations for Use of 
Military Force (AUMF), even if accompanied by a simultaneous 
replacement statute, could cause unnecessary uncertainty to the 
President's authority to use military force in the midst of ongoing 
military operations.
    With respect to the 2001 AUMF, all three branches of the U.S. 
Government have affirmed the ongoing authority conferred by the 2001 
AUMF and its application to al-Qaeda, to the Taliban, and to forces 
associated with those two organizations within and outside Afghanistan. 
Specifically, the Federal courts have issued rulings in the detention 
context that affirmed the President's authority to detain individuals 
who were part of, or substantially supported, Taliban or al-Qaeda 
forces or associated forces that are engaged in hostilities against the 
United States or its Coalition partners. Congress has also affirmed the 
President's detention authority under the 2001 AUMF in the National 
Defense Authorization Act for Fiscal Year 2012.
    Repeal of the 2001 AUMF could be seen as reopening settled legal 
questions regarding the President's detention authority. Such repeal 
would likely lead to renewed litigation by detainees at Guantanamo Bay 
seeking to challenge the legal basis for their continued detention 
beyond the date of the repeal of the statute under which they are 
currently being held notwithstanding the continuation of hostilities 
between the United States and the Taliban, al-Qaeda, and associated 
forces, including against ISIS.
    The 2002 AUMF provides authority ``to defend the national security 
of the United States against the continuing threat posed by Iraq.'' The 
repeal of the 2002 AUMF could call into question the President's 
authority to use military force to assist the Government of Iraq both 
in the fight against ISIS and in stabilizing Iraq following the 
destruction of ISIS's so-called caliphate.

    Question 2. How could Congress mitigate any negative legal 
consequences in a replacement AUMF and ensure a smooth transition to 
the new authority, including with respect to legacy detainees? If 
possible, please provide specific language.

    Answer. Ensuring that there are no negative consequences is the 
reason why this administration urged Congress not to repeal the 2001 
and 2002 AUMFs. Therefore, at a minimum, any subsequent AUMF must not 
call into question the legal basis for the continued detention of 
individuals currently held at Guantanamo Bay. For example, the 
administration would seek language that avoids reopening settled legal 
questions relating to the President's authority to continue to detain 
individuals at Guantanamo Bay, ``who were part of, or substantially 
supported, Taliban or al-Qaeda forces or associated forces that are 
engaged in hostilities against the United States or its Coalition 
partners, including any person who has committed a belligerent act, or 
has directly supported hostilities, in aid of such enemy armed 
forces.''
    The administration is prepared to review any proposed language that 
the committee might develop.

    Question 3. In the alternative, if Congress decided to repeal the 
2002 AUMF and amend the 2001 AUMF to provide fresh authorization for 
the use of military force against the Taliban, al-Qaeda, ISIS, and 
associated forces (appropriately defined):

   What would be the legal consequences, and what other provisions of 
        law would be impacted? Please be as specific as possible.

    Answer. The 2002 AUMF provides authority ``to defend the national 
security of the United States against the continuing threat posed by 
Iraq.'' Any repeal of the 2002 AUMF could call into question the 
President's authority to use military force to assist the Government of 
Iraq in military operations against ISIS and in stabilizing Iraq 
following the destruction of ISIS's so-called caliphate.The 
administration would need to review the specific language of any 
proposed legislation.

    Question 4. How could Congress mitigate any negative legal 
consequences with an amended 2001 AUMF and ensure a smooth transition, 
including with respect to legacy detainees? If possible, please provide 
specific language.

    Answer. Ensuring that there are no negative consequences is the 
reason why this administration urged Congress not to repeal the 2001 
and 2002 AUMFs. Therefore, at a minimum, any subsequent AUMF must not 
call into question the legal basis for the continued detention of 
individuals currently held at Guantanamo Bay. For example, the 
administration would seek language that avoids reopening settled legal 
questions relating to the President's authority to continue to detain 
individuals ``who were part of, or substantially supported, Taliban or 
al-Qaeda forces or associated forces that are engaged in hostilities 
against the United States or its Coalition partners, including any 
person who has committed a belligerent act, or has directly supported 
hostilities, in aid of such enemy armed forces.''
    The administration is prepared to review any proposed language that 
the committee might develop.

    Question 5. In a letter to Senate leaders earlier this year, you 
and Secretary Mattis expressed concern about the definition of 
``associated persons or forces'' in S.J. Res. 43, which you stated is 
``inconsistent with the standard applied by the Executive Branch and 
which could result in unnecessary uncertainty regarding its scope.''

   What is the ``standard applied by the Executive Branch'' to which 
        you referred in your letter?

    Answer. To be considered an ``associated force'' of al-Qaeda or the 
Taliban for purposes of the authority conferred by the 2001 AUMF, an 
entity must satisfy two conditions. First, the entity must be an 
organized, armed group that has entered the fight alongside al-Qaeda or 
the Taliban. Second, the group must be a co-belligerent with al-Qaeda 
or the Taliban in hostilities against the United States or its 
Coalition partners.

    Question 6. If the administration does not support the definition 
of ``associated persons or forces'' in S.J. Res. 43, what definition 
does the administration recommend for a new AUMF?

    Answer. The administration would want to ensure that any statutory 
definition of ``associated force'' is consistent with the standard 
currently applied by the Executive Branch as described in the answer to 
the previous question.

    Question 7. Does your Department have any legal or policy concerns 
with repealing the 2002 AUMF? If yes, please explain.

    Answer. The 2002 AUMF provides authority ``to defend the national 
security of the United States against the continuing threat posed by 
Iraq.'' The repeal of the 2002 AUMF could call into question the 
President's authority to use military force to assist the Government of 
Iraq both in the fight against ISIS and in stabilizing Iraq following 
the destruction of ISIS's so-called caliphate.

    Question 8. Does your Department construe any of the following 
provisions of existing law as an Authorization for Use of Military 
Force? If yes to any, please specify and explain the interpretation:

 a. Authorization of the Secretary of Defense to provide support for 
        friendly foreign countries (10 U.S.C. Sec. 331).
 b. Authorization of the Secretary of Defense to support for foreign 
        forces, irregular forces, groups, or individuals engaged in 
        supporting or facilitating ongoing military operations by 
        United States special operations forces to combat terrorism (10 
        U.S.C. Sec. 127e).
 c. Authorization of the Secretary of Defense to conduct or support a 
        program or programs to provide training and equipment to the 
        national security forces of one or more foreign countries for 
        the purpose of building the capacity of such forces to conduct 
        one or more of the following (10 U.S.C. Sec. 333):

         1. Counterterrorism operations.
         2. Counter-weapons of mass destruction operations.
         3. Counter-illicit drug trafficking operations.
         4. Counter-transnational organized crime operations.
         5. Maritime and border security operations.
         6. Military intelligence operations.
         7. Operations or activities that contribute to an 
        international coalition operation that is determined by the 
        Secretary to be in the national interest of the United States.

    Answer. No, the administration does not interpret 10 U.S.C. 
Sec. 331, Sec. 127e, or Sec. 333 to provide statutory authorization for 
the use of military force.

                               __________


     Responses to Additional Questions for the Record Submitted to 
 Hon. Rex Tillerson, Secretary of State, by Senator Benjamin L. Cardin

    Question. Section 4(a) of the War Powers resolution requires that 
in the absence of a declaration of war, in any case in which ``United 
States Armed Forces are introduced (1) into hostilities or into 
situations where imminent involvement in hostilities is clearly 
indicated by the circumstances,'' the President must withdraw such 
forces within 60 days unless Congress has declared war or otherwise 
authorized their deployment. U.S. Forces in Niger are now, obviously, 
in an area in which imminent involvement in hostilities is clearly 
indicated by the circumstances of the attack on U.S. soldiers, and the 
resulting death of four of them, in early October. Does the 
administration now consider that the 60-day clock has begun, and if 
not, what is the legal reasoning behind this conclusion?

    Answer. Consistent with the War Powers Resolution, the President 
previously reported the deployment of U.S. Armed Forces to Niger, 
including in a report submitted to Congress on June 6, 2017. The report 
of June 6, 2017, stated that there were approximately 645 U.S. military 
personnel deployed to Niger in support of our African partners' 
counterterrorism operations in the Lake Chad Basin Region. Since 
submitting that report, the number of U.S. military personnel deployed 
to Niger has fluctuated consistent with operational requirements.
    The October 4 ambush of U.S. and Nigerien forces was a tragic but 
isolated incident. It does not indicate imminent involvement of U.S. 
forces in further hostilities. Additionally, our assessment is that an 
ISIS group was responsible for that ambush. Operations against ISIS are 
authorized by the 2001 AUMF so would not be subject to the termination 
provision of the War Powers Resolution.

                               __________


     Responses to Additional Questions for the Record Submitted to 
     Hon. Rex Tillerson, Secretary of State, by Senator Todd Young

    Question. I note that you spoke with the Burmese Armed Forces 
Commander-in-Chief on October 26 to discuss the Rohingya crisis. Can 
you please provide an update on the administration's efforts related to 
the situation in Burma?

    Answer. This administration is undertaking significant efforts to 
ensure the violence and suffering end immediately, in addition to 
pursuing accountability for those responsible for human rights abuses. 
Our most pressing objectives are achieving protection for all local 
populations and meaningful, durable solutions for those who have been 
displaced, including the creation of conditions that will allow those 
displaced the chance to go home again voluntarily, in safety, and with 
dignity.
    As part of those efforts, I traveled to Burma on November 15, where 
I met with high-level government officials, including State Counsellor 
Aung San Suu Kyi and Commander-in-Chief Senior General Min Aung Hlaing, 
and discussed ways forward on this crisis. While in Manila for the 
ASEAN-related summits, I met with numerous counterparts from across the 
region to coordinate efforts related to humanitarian assistance, 
repatriation of refugees, and accountability for abuses committed 
against members of communities in Rakhine State.

                               __________


     Responses to Additional Questions for the Record Submitted to 
   Hon. Rex Tillerson, Secretary of State, by Senator Robert Menendez

    Question 1. You were recently quoted as saying ``it's our view that 
we do not believe there is a future for the Assad regime, the Assad 
family.'' What implications does that have for U.S. policy in Syria? 
Are we actively engaged in a political dialogue that would remove Assad 
from power? With whom? How do you plan to promote this view with Russia 
and Iran? Will the United States actively seek to remove Assad from 
power? [If so] Under what authorities?

    Answer. The United States believes a lasting peace in Syria 
ultimately means a Syria without Bashar al-Assad. That said, we do not 
seek the dissolution of the Syrian state, which would likely result in 
further chaos, violence, and instability. Nor is it ultimately a U.S. 
decision whether Assad stays or goes--that decision rests with the 
Syrian people. We will work to ensure that the Syrian people get that 
choice in a free and fair U.N.-supervised election.
    Our priorities in Syria are defeating ISIS, countering malign 
Iranian influence, and de-escalating the Syrian conflict to create the 
necessary space for a political solution to the crisis. As part of our 
efforts to de-escalate violence, we reached the July 9, 2017 southwest 
ceasefire arrangement with Russia and Jordan, which is still largely 
holding. The United States, Russia, and Jordan signed a Memorandum of 
Principals in Amman on November 8, endorsed by Presidents Trump and 
Putin in Vietnam on November 10. We hope this arrangement, and other 
genuine efforts to de-escalate violence, will contribute to creating a 
better environment to negotiate a permanent political solution to the 
crisis.
    As part of our diplomatic efforts, we are committed to the Geneva 
process and support a credible, U.N.-led political process to resolve 
the question of Syria's future. According to the U.N., it will host the 
next round of Geneva talks at the end of November or beginning of 
December, and we hope they will be another step towards implementing 
U.N. Security Council Resolution (UNSCR) 2254 and ending this crisis.
    Russia voted for UNSCR 2254, which explicitly requested that the 
U.N. convene formal negotiations on a process for political transition 
between the regime and the opposition. And per UNSCR 2254, the Syrian 
parties were supposed to reach agreement on the shape of a transition 
within six months. President Putin reiterated Russia's commitment to a 
political transition and UNSCR 2254 in the joint statement our 
countries released November 10. Though the Russians continue to declare 
support for the efforts enshrined in UNSCR 2254, to date they have not 
used their influence to bring Assad to the negotiating table. Russia is 
concerned about terrorist threats emanating from Syria, which will 
continue as long as Assad remains in power. He has caused too much 
destruction in his country for Syria to return to or remain at peace 
under his leadership.

    Question 2. Sanctions are one of the most powerful diplomatic tools 
we have, yet you have apparently eliminated the position of sanctions 
coordinator at the State Department. By systematically undermining 
crucial offices, are you pushing us into more inevitable conflicts?

    Answer. Sanctions are a critical tool in supporting and advancing 
U.S. foreign policy and national security interests, and are fully 
integrated into all areas and levels of the Department diplomatic and 
policy activities. The State Department was at the forefront of 
coordinating and directing the use of sanctions as a tool of foreign 
policy before the Office of Sanctions Coordinator was established and 
remains a leader in the interagency. Dozens of officers within our 
Bureaus of Economic and Business Affairs (EB), Counter Terrorism (CT), 
International Security and Non-Proliferation (ISN), International 
Narcotics and Law Enforcement Affairs (INL), International 
Organizations (IO), Democracy Human Rights and Labor (DRL), and in 
every regional bureau and at countless posts overseas historically 
have, and continue to apply and implement the United States' sanctions 
commitments and obligations. These Bureaus work with the Policy 
Planning Staff (S/P) to continue to coordinate State Department 
sanctions activities with those of other departments and agencies, as 
well as foreign allies and partners. As long as sanctions remain a 
critical tool to advance foreign policy, the Department will continue 
to devote significant attention, personnel, and resources to sanctions 
policy, coordination, and implementation.

    Question 3. As the fight to recapture territory held by ISIS seems 
to wind down, what are the standards and metrics you will use to 
determine the defeat of ISIS in Iraq and Syria?

    Answer. Coalition-backed military operations have liberated over 90 
percent of the territory ISIS once controlled in Syria and Iraq and 
freed an estimated 7.5 million people from ISIS's oppressive rule. 
Realizing that military operations while necessary are insufficient to 
achieve ISIS's enduring defeat, the U.S.-led Global Coalition to Defeat 
ISIS is committed to helping stabilize liberated communities and 
preventing ISIS's reemergence.
    The United States and our Coalition partners are using several 
metrics to gauge the success of our efforts to militarily defeat ISIS 
and subsequently provide explosive remnant of war removal and 
stabilization assistance to enable the safe return of displaced persons 
and the restoration of essential services in liberated areas, in 
addition to humanitarian support for those affected by the conflict. 
First, ISIS has been unable to recapture a single inch of the over 
103,000 square kilometers of territory liberated in Coalition-backed 
military operations, and which includes important cities such as Mosul, 
Fallujah, Ramadi, Tikrit, Tal Afar, Hawija, al-Qaim, Sinjar, Manbij, 
Tabqa, Shaddadi, and Raqqa. Second, the Coalition has trained-and-
equipped over 122,000 members of the Iraqi Security Forces, to include 
the Iraqi Army, local and federal police, border guards, Kurdish 
Peshmerga, the Counter Terrorism Service, and local hold forces. The 
Coalition has also trained over 9,500 members of the Syrian Arab 
Coalition, the Arab element of the Syrian Democratic Forces, and over 
2,000 members of the Raqqa Internal Security Force. These forces will 
be a vital component of our partnered forces' efforts to combat a 
likely ISIS insurgency in the weeks, months, and even years ahead. 
Third, Coalition-funded, Government of Iraq-led, United Nations 
Development Programme-implemented stabilization assistance has helped 
facilitate the safe and voluntary return of more than 2.6 million 
internally displaced Iraqis. Similarly, in Syria we are working with an 
array of local actors including the Raqqa Civilian Council to 
coordinate and implement stabilization programming. The longer it takes 
to establish the conditions that allow for the return or local 
integration of internally displaced persons (IDPs), the higher the risk 
for a potential re-emergence of ISIS or another violent extremist 
organization. We will continue to work with the Government of Iraq and 
Prime Minister Abadi in particular to ensure local authorities and 
beneficiary populations are included in the provision of humanitarian 
assistance and the implementation of stabilization projects to bolster 
trust between Iraqi citizens and the central government.

    Question 4. What is your assessment of the ISIS threat[s] after 
the[y] lose their territory? Where will ISIS fighters go and what 
tactics will they employ? Is there a threat of ISIS fighter rebranding?

    Answer. Despite losing over 90 percent of the territory it once 
controlled in Syria and Iraq, ISIS remains a capable adversary with the 
ability to conduct offensive operations in a number of areas of Iraq 
and Syria. The group also maintains its ability to direct, enable, and 
inspire external operations outside of Iraq and Syria.
    ISIS maintains control over the city of Albu Kamal, pockets of 
territory in other areas of Syria, and a sizeable presence north of the 
Euphrates River in Syria's Deir Ez-Zour province. ISIS similarly 
maintains control over a small segment of territory in Iraq's Anbar 
province along the Euphrates River Valley, including the town of Rawa 
on the northern bank of the Euphrates River. The overall force strength 
of ISIS in Iraq and Syria is approximately 1,500-3,000 fighters, though 
this number has likely been reduced further by recent military 
operations.
    As ISIS loses territory in Iraq and Syria, ISIS is likely to evolve 
into a more traditional insurgency group, shifting tactics from larger, 
conventional operations to asymmetric guerrilla and terrorist attacks 
to sow instability. ISIS fighters in Syria and Iraq are still able to 
conduct improvised explosive device (IED), vehicle-born improvised 
explosive device (VBIED), suicide, mortar, sniper, and small-arm 
attacks. They have also used unsophisticated, commercially-available 
unmanned aerial vehicle (UAV) technology to drop munitions from the air 
in harassing attacks, and rudimentary chemical weapons largely for 
psychological effect. And they maintain the capability to radicalize 
and recruit foreign sympathizers using the internet and other media. 
Furthermore, ISIS has deliberately hidden large numbers of IEDs and 
other unexploded munitions in territory it has fled, which will 
complicate stabilization efforts and likely continue to cause 
significant civilian casualties, damage cities, and incite 
apprehension.
    ISIS is also a global phenomenon, unconstrained by international 
boundaries. In the Lake Chad Region, Yemen, North Africa and the Sahel, 
East Africa, and the Philippines, ISIS branches, affiliates, and 
sympathizers will continue to carry out terrorist attacks and look to 
recruit and radicalize potential followers. The U.S. Government will 
continue to work with local, regional, and international partners to 
degrade these individuals and cells, regardless of their location, and 
work to ensure they are unable to direct or enable attacks against the 
U.S. homeland, U.S. persons, or U.S. interests. Our security 
partnerships will persist beyond near-term battlefield victories to 
ensure our partners are able to effectively counter any new insurgency 
and to ensure ISIS is unable to re-emerge. Our Intelligence Community 
will continue to track the movement of ISIS fighters both inside Iraq 
and Syria and around the world.
    The Global Coalition to Defeat ISIS is committed to ISIS's enduring 
defeat. Realizing that military operations are necessary, but alone 
insufficient to achieve that objective, the Coalition will remain 
engaged with our partners on the ground in Iraq and Syria to help 
stabilize liberated communities and prevent ISIS's reemergence. The 
United States Government, alongside our Coalition partners, will 
continue to engage in bilateral, regional, and international efforts to 
eliminate ISIS and ISIS facilitation networks.

    Question 5. Is there a point at which you will run out of 
authorities to legally remain in Iraq--or Syria-- if ISIS, al-Queda, 
Jabhat Fateh Al-Sham, or any other affiliate groups have been driven 
from their previously held territory?

    Answer. As a matter of domestic law, the 2001 Authorization for Use 
of Military Force (AUMF) and the 2002 AUMF authorize the U.S. use of 
military force against ISIS in Iraq. As a matter of international law, 
the United States is using force against ISIS in Iraq at the request of 
and with the consent of the Government of Iraq.
    In Syria, the 2001 AUMF and, in certain circumstances, the 2002 
AUMF authorize the use of force in Syria against al-Qaeda in Syria and 
ISIS. As a matter of international law, the United States is using 
force in Syria against ISIS and is providing support to Syrian partners 
fighting ISIS in the collective self-defense of Iraq (and other states) 
and in U.S. national self-defense. The United States is also using 
force in Syria against al-Qaeda in self-defense of the United States.
    These domestic and international legal bases for U.S. military 
operations in Iraq and Syria do not depend on ISIS's, or any other 
group's, physical control of territory. Whether and to what extent the 
United States would have legal authority to undertake specific military 
actions in Iraq and Syria in the future would necessarily depend upon 
the facts and circumstances of a specific situation.

    Question 6. In Iraq, how do you determine which groups within the 
Popular Mobilization Forces are taking orders from Iran?

    Answer 6. We are under no illusions about the destabilizing nature 
of Iran's activities in the region. To the extent that Iran pursues 
policies in Iraq that heighten sectarian tensions and undermine Iraqi 
sovereignty, we remain committed to helping the Government of Iraq 
(GoI) counter these activities.
    The Popular Mobilization Forces (PMF) are part of the Iraqi 
Security Forces (ISF), reporting to the Prime Minister's Office. Over 
40 groups are part of the PMF, many of them Shia, but also Sunni, 
Christian, and Yazidi.
    Some PMF groups are openly close to Iran, and we monitor this 
closely. The United States carries out extensive vetting of all ISF 
units and their leaders before delivering any training or equipment. We 
do NOT provide support to groups or forces that are designated 
terrorist organizations, responsible for gross violations of human 
rights, or that are not under the full control of the GoI.

    Question 7. What is the U.S. policy on demobilizing the PMF after 
ISIS is defeated in Iraq?

    Answer. We agree with Prime Minister Abadi on the importance of 
ensuring that all participants in the shared fight against ISIS are 
under the control of the GoI and held to the same standards of 
accountability. We will support the GoI as it continues to reform its 
security sector, and begins to demobilize some PMF elements and make 
others a part of the Iraqi Army, Federal Police, or other security 
structures and institutions under the full control of the Iraqi state.

    Question 8. Does PMF involvement in Kurdish majority areas threaten 
stability and civilian protection in these areas?

    Answer. We remain concerned about the potential for violence 
between ISF and Kurdistan Regional Government (KRG) forces following 
the KRG's unconstitutional and ill-advised independence referendum. We 
continue to urge all parties in Iraq to halt any uncoordinated movement 
in disputed areas, and we are encouraged that parties have begun 
dialogue on establishing Federal authority at international border 
crossings. We expect enhanced military coordination will lead to 
constructive dialogue on a host of issues, from establishing joint 
security and administrative mechanisms in disputed territories to oil 
revenue sharing.
    We have and will continue to express our concerns with 
undisciplined elements of the PMF having security responsibility in 
sensitive disputed areas or around minority communities. We continue to 
urge Iraqi leaders to withdraw PMF from these areas and replace them 
with Iraqi Army and local police units.Question 7:
    As Iran's influence continues to grow in Syria, what measures would 
we take if Iran attacked U.S.-backed forces there? [If so] Under what 
authorities?
    Answer. The efforts of the U.S.-led Global Coalition to Defeat ISIS 
in Syria are aimed at the defeat of ISIS. The United States does not 
seek to fight the Syrian Government or pro-Syrian-Government forces, 
including Iran.
    The 2001 Authorization to Use Military Force (AUMF) authorizes the 
use of force against al-Qaeda and associated forces, including against 
ISIS, including in Iraq and Syria. The 2001 AUMF also provides 
authority to use force to defend U.S., Coalition, and partner forces 
engaged in the campaign to defeat ISIS to the extent such use of force 
is a necessary and appropriate measure in support of these counter-ISIS 
operations.
    As a matter of international law, the United States is using force 
in Syria against al-Qaeda and associated forces, including against 
ISIS, and is providing support to Syrian partners fighting ISIS, such 
as the Syrian Democratic Forces, in the collective self-defense of Iraq 
(and other States) and in U.S. national self-defense. Necessary and 
proportionate measures in self-defense include the use of force as 
needed to defend U.S., Coalition, and U.S.-supported partner forces 
engaged in the campaign to defeat ISIS from interference by Syrian 
Government and pro-Syrian Government forces.

    Question 9. In August, Secretary Tillerson said that it appeared 
Russia was ramping up support of the Taliban in Afghanistan. Is the 
friend of our enemy our enemy as well? Does this make Russia our enemy 
in Afghanistan or more broadly? What authorities do you believe you 
have to respond to state-sponsored support of the Taliban and how would 
you use those authorities? What authorities would you seek?

    Answer. Russia maintains relationships with the Afghan government 
and the Taliban in part to hedge against instability in Afghanistan and 
in part to undermine U.S. influence in the region. Russia seeks to 
justify its relations with the Taliban by claiming it is to counter 
ISIS, promote a peace process, and protect Russian diplomatic 
personnel.
    Our conditions-based South Asia Strategy is a strong rebuke to 
Russia's Taliban hedging strategy. We have made it clear the United 
States will stay in Afghanistan as long as it takes to ensure a peace 
agreement that ends the conflict and prevents Afghanistan from ever 
again becoming a safe haven for transnational terrorist groups. We will 
continue to engage all regional actors, including Russia, to reinforce 
the fact that the only way to promote security, including countering 
transnational terrorist groups, is to fully support the Afghanistan 
government and its security forces.
    I am not aware of any additional authorities the State Department 
needs to respond to foreign support to the Taliban. We have made it 
clear to all parties in the region--Iran and Russia, in particular--
that hedging behavior through support to the Taliban only undermines 
security in the region. Support to the Taliban's military capacities is 
especially dangerous and destabilizing. We will counter any and all 
support to the Taliban.

    Question 10. Our military leaders generally agree that the best 
investments we can make into preventing war start with a robust 
diplomacy and development budget.
    You submitted a budget with deep cuts to critical diplomatic 
initiatives and development efforts. The President has not provided a 
nomination for an Ambassador to South Korea--our most crucial ally as 
we seek to confront an aggressive North Korea. You shuttered the office 
of the Special representative for Afghanistan and Pakistan:

   What are the implications for cuts to the State Department? What 
        are the implications for less than a fully staffed diplomatic 
        presence in places like Iraq and Afghanistan?

    Answer. The President's FY 2018 budget request prioritizes the 
well-being of Americans, bolsters U.S. national security, secures our 
borders, and advances U.S. economic interests. Within those priorities, 
the State Department's mission is focused on protecting our citizens at 
home and abroad, as well as advancing the economic interests of the 
American people.
    Ensuring the security and prosperity of the American people and 
advancing our values has necessitated difficult tradeoffs in our 
budget. The State Department and USAID's FY 2018 budget request 
acknowledges that our operations must become more efficient, that our 
assistance must be more effective, and that our primary mission must 
always be advocating for the national interests of our country. Global 
challenges cannot be met by governments alone, and no longer rely so 
heavily on the United States. The FY 2018 request expects greater 
leveraging of U.S. dollars, along with increased efficiency and 
effectiveness of each dollar. In addition, the request expects that the 
private sector and countries themselves make better use of their own 
investments for development.
    The FY 2018 budget request reorients our foreign assistance to the 
most critical priorities, which means revisiting where and at what 
level we provide assistance. If no bilateral funding is requested for a 
particular country, in some cases we are leveraging prior-year funds to 
continue some support. In other cases we may utilize funds from a 
regional line to support activities in a particular country.
    Charge d'Affaires Marc Knapper is leading our diplomatic mission in 
the Republic of Korea and the Secretary has full confidence in him. Mr. 
Knapper is a Korea expert with extensive experience working on Korea 
issues.
    On November 18, 2016, the Department notified to Congress our 
intent to merge the U.S. Special Representative for Afghanistan and 
Pakistan (SRAP) into the Bureau of South and Central Asian Affairs 
(SCA). Subsequent to the November 18, 2016 notification, SCA has 
assumed the functions and staff of SRAP and coordinates across the 
government to meet U.S. strategic goals in the region.
    Consistent with past practice, U.S. staffing abroad is driven by 
foreign policy priorities and weighed against risks to personnel, as 
well as the availability of resources to support the U.S. mission. 
Regarding staffing in Afghanistan and Iraq, staffing levels remain 
largely consistent with prior years.

    Question 11. If the United States suffered a state-sponsored 
massive cyber-attack, how would we respond? Do the Departments of 
Defense and State have in place response plans to cyber-attacks? How 
should Congress authorize those responses? Should we measure cyber-
attacks on a scale? Would an attack on the energy grid of a major city 
merit the same response as an attack on a nuclear facility? On a voter 
database?

    Answer. The United States responds to cyber threats through a 
whole-of-government approach that leverages the full range of U.S. 
Government capabilities--diplomatic, economic, law enforcement, 
technical, and military.
    The Department of Defense (DoD) maintains a deliberate planning 
process to prepare for the defense of the Nation across all domains, 
including cyberspace. DoD's plans and actions are always in support of 
the larger foreign policy and diplomatic efforts of the U.S. 
Government.
    The Department of State supports interagency efforts to address 
cyber incidents that rise to the level of a national security concern 
by providing foreign policy guidance on appropriate responses, building 
support among foreign governments for such responses and, where 
appropriate, delivering messages of warning to potential adversaries.
    The U.S. Government evaluates malicious cyber activities on a case-
by-case basis precisely because, as your questions highlight, the 
appropriateness of a response is dependent on the specific facts and 
context of the particular malicious cyber activity in question. Factors 
to be assessed include the scope, scale, and impact of the activity; 
the entities targeted; the actor that executed the activity; and any 
broader context from the international security environment. The loss 
of life and threats to public health and safety obviously raise the 
greatest concern.
    When evaluating a cyber attack to determine the appropriate 
response, it is the effects of the attack, and not the instrument used 
to carry it out, that matters. If cyber operations cause effects that, 
if caused by traditional physical means, would be regarded as a use of 
force, then such cyber operations would likely also be regarded as a 
use of force.
    Moreover, there need not be loss of life for a response to be 
merited. As we have seen during the past 18 months, our adversaries are 
seeking to act below the threshold of the use of force. To the extent 
that adversary cyber activity seeks to undermine U.S. national security 
interests the United States reserves the right to respond appropriately 
and proportionately at a time and place of its choosing by using any 
instrument of national power on land, in the air, at sea, in space or 
cyberspace.

                               __________


     Responses to Additional Questions for the Record Submitted to 
     Hon. Rex Tillerson, Secretary of State, by Senator Rob Portman

    Question 1. Secretary Tillerson, do you still support providing 
defensive lethal military assistance to the Ukrainian armed forces? 
What is the status of this decision?

    Answer. In response to Russian aggression, the United States has 
committed more than $750 million in security assistance since 2014 to 
provide training and equipment to help Ukraine defend its sovereignty 
and territorial integrity, better monitor and secure its borders, and 
deploy its forces more safely and effectively.
    The United States and partners also established a Multinational 
Joint Commission to coordinate international security assistance 
efforts and identify capability gaps. We will continue to use grant 
military assistance to build Ukraine's capabilities by investing in our 
ongoing Joint Multinational Training Group--Ukraine, defense reform and 
institutional advisors, secure communications, intelligence, 
surveillance, and reconnaissance, maritime domain awareness, counter-
mortar/counter-artillery radars, night vision devices, HMWWVs, medical, 
and related sustainment and training.

    Question 2. Is the State Department taking a lead role in 
implementing the administration's new Afghanistan strategy? Where are 
the State Department and USAID focusing their efforts in Afghanistan?

    Answer. The State Department is taking the diplomatic lead to 
encourage a peaceful political settlement in Afghanistan. We have made 
significant progress in Afghanistan since 2001--on security, 
governance, socio-economic development, and regional integration--but 
the country remains fragile. To cement this progress, we have focused 
on building and strengthening the Afghan government led by President 
Ashraf Ghani and Chief Executive Abdullah Abdullah. In conjunction with 
our new strategy, and at the initiative of President Ghani, the Afghan 
government developed the Kabul Compact to monitor priority reforms in 
four key sectors: governance, economic development, the peace process, 
and security. We meet regularly with the Afghan government to assess 
progress on these reforms. We are particularly focused on supporting 
the Afghan government's effort to hold parliamentary elections 
scheduled for 2018 and a Presidential election in spring 2019.
    In my recent visit to South Asia, I explained the President's South 
Asia strategy to leaders in Afghanistan, Pakistan, and India and 
reviewed what these countries could do to support it. We are working 
closely with our allies and partners to continue strong international 
support for the Afghan government and its security forces to help 
create the environment necessary to sustain peace. On October 16, we 
held the sixth meeting of the Quadrilateral Coordination Group (QCG) 
with Afghanistan, China, and Pakistan, to promote Afghanistan-Pakistan 
cooperation and align efforts in support of a peace process. The State 
Department leads the U.S. delegations to several international fora 
intended to renew and align international support for Afghanistan, 
including the Heart of Asia/Istanbul Process, the Regional Economic 
Cooperation Conference on Afghanistan, and the Kabul Process 
Conference.
    USAID is developing strategies in Afghanistan and Pakistan to 
support the broad vision outlined in the South Asia strategy. The new 
USAID development strategy for Afghanistan will advance U.S. national 
security interests, and complement the efforts of the Departments of 
Defense and State to strengthen the government's ability to be an 
effective counterterrorism partner. The strategy aims to reduce 
Afghanistan's reliance on donor assistance, improve the country's 
stability, and enhance the accountability of our assistance. It focuses 
on increasing the government's revenue base by enabling private sector-
led economic growth, strengthening service delivery in government-
controlled areas, and helping Afghanistan sustain its gains in health, 
education, and women's empowerment.

                               __________


     Responses to Additional Questions for the Record Submitted to 
   Hon. Rex Tillerson, Secretary of State, by Senator Jeanne Shaheen

    Question 1. Earlier this summer, the Department of State briefed 
committee staff on your goals for the proposed reorganization of the 
State Department. At that time, Department officials stated that it was 
the intention of the Department to reduce the number of positions at 
the Department by at least 2,000 over the coming years. Can you confirm 
that this is still your intention? How does the Department intend to 
achieve those personnel reductions?

    Answer. Yes, that is still our intention. The Department developed 
a workforce reduction plan consistent with OMB guidance. The plan 
consists of voluntary attrition, some strategic hiring, and 
incentivized attrition (e.g. buyouts) of approximately 641 voluntary 
early retirement authority and/or voluntary separation incentive 
payments (VERA/VSIP). VERA/VSIP plans must be approved by OPM and OMB. 
Foreign and Civil Service hiring (intake planning) is based on 
replacing less than 100 percent of projected attrition. In both cases, 
we believe this measured approach to hiring reflects a careful balance 
of workforce continuity and stability within the overarching context of 
the Department's ongoing workforce reductions.
    For the Foreign Service, intake planning figures were developed to 
ensure that sufficient numbers of new entry level Foreign Service 
personnel are available to fill critical overseas postings and, over 
the course of their careers, fill higher level positions in our most 
critical Generalist and Specialist skill categories. Civil Service 
intake focuses hiring on those mission critical occupations that 
provide important policy development and program support here in 
Washington and in concert with our colleagues serving overseas.

    Question 2. What is the current and anticipated intake of new 
entry-level Foreign Service generalists and specialists? What is the 
status of the State Department's hiring freeze and the rationale for 
its continuation?

    Answer. The Department is continuing with strategically managed 
hiring while we undertake a comprehensive redesign of the Department in 
order to ensure strategic alignment. This is a temporary measure while 
a thorough review of the entire State Department is conducted. This 
initiative will direct sound decisions on how to best strengthen the 
institution and enhance our diversity. At the same time, we are 
committed to preserving future leadership pipelines and and will 
continue to assess and hire Foreign Service candidates.
    On September 18 we swore in the 192nd A-100 class for Foreign 
Service Officers and the 147th Foreign Service specialist class, 
comprised primarily of diplomatic security special agents and medical 
professionals. In Fiscal Year (FY) 2017, the State Department brought 
on board the following new Foreign Service personnel:

   220 Foreign Service Officers
   254 Foreign Service Specialists
   126 Consular Fellows (limited non career appointments)
   7 Medical and PEPFAR-related limited non career appointments 
        Recruitment and assessment of candidates continues in order to 
        preserve a future mid-level and leadership pipeline of talented 
        and diverse Foreign Service Officers and Specialists, as well 
        as to meet current entry-level needs overseas. Strategically 
        managing hiring remains a priority for FY 2018, with a goal of 
        onboarding the following number of new Foreign Service 
        personnel:
   101 Foreign Service Officers of whom 55 are Pickering and Rangel 
        Fellows
   91 Foreign Service Specialists

    Additionally in accordance with EO 13870, the Department plans to 
onboard in FY 2018:

   281 Consular Fellows (limited non-career appointments)

    Question 3. Please provide the numbers of employees that have 
departed the State Department in 2016 and to date, for 2017. Please 
break those numbers down by month and by civil service versus Foreign 
Service. Do not include political appointments or Schedule B positions 
in the count.

    Answer. Department of State loss\1\ counts for career full-time 
permanent employees in FY 16 and FY 17 as of September 30, 2017 are 
provided in the table below. These counts exclude non-career losses 
including limited and political appointments.
---------------------------------------------------------------------------
    \1\ Losses include retirements, non-retirement separations, and 
conversion between the Foreign Service and Civil Service.

                    DEPARTMENT OF STATE LOSS COUNTS FOR CAREER  FULL-TIME PERMANENT EMPLOYEES
----------------------------------------------------------------------------------------------------------------
                                     FY 2016                                          FY 2017
               -------------------------------------------------------------------------------------------------
     Month          Foreign                                           Foreign     Civil  Service
                    Service       Civil  Service       Total          Service                          Total
----------------------------------------------------------------------------------------------------------------
Oct             36.............  84.............  120...........  30............  63............  93
Nov             61.............  42.............  103...........  56............  53............  109
Dec             37.............  74.............  111...........  43............  75............  118
Jan             24.............  93.............  117...........  36............  113...........  149
Feb             25.............  43.............  68............  18............  47............  65
Mar             21.............  54.............  75............  24............  73............  97
Apr             55.............  88.............  143...........  50............  47............  97
May             21.............  38.............  59............  24............  50............  74
Jun             36.............  59.............  95............  42............  56............  98
Jul             39.............  60.............  99............  *38...........  *45...........  *83
Aug             53.............  54.............  107...........  *35...........  *71...........  *106
Sep             124............  74.............  198...........  *118..........  *49...........  *167
 Total          532............  763............  1295..........  *514..........  *742..........  *1256
----------------------------------------------------------------------------------------------------------------
* Preliminary counts as transactions may still be in process.

                               __________


     Responses to Additional Questions for the Record Submitted to 
      Hon. Rex Tillerson, Secretary of State, by Senator Tim Kaine

Associated Forces
    Question 1. Can you please detail and list all the groups that have 
been deemed associated forces under the 2001 AUMF and all the locations 
where the U.S. military is involved under the 2001 AUMF? How many of 
these associated forces are engaged in hostilities against the United 
States, its Armed forces, or personnel? Which of these associated 
forces present a direct threat to the Unites States? Is there a single 
source that Congress can access to find up to date information on this 
question?

    Answer. The U.S. military is currently taking direct action against 
the following individuals and groups under the authority of the 2001 
Authorization for Use of Military Force (AUMF): al-Qaeda; the Taliban; 
certain other terrorist or insurgent groups affiliated with al-Qaeda 
and the Taliban in Afghanistan; al-Qaeda in the Arabian Peninsula; al-
Shabaab; al-Qaeda in Syria; and ISIS.
    During the Trump administration, the United States has used 
military force pursuant to the 2001 AUMF in Afghanistan, Cuba 
(detention operations), Iraq, Libya, Somalia, Syria, Niger, and Yemen.
    As a matter of international law, the United States is in an 
ongoing non-international armed conflict with these groups and 
individuals and is engaged in hostilities against them. 
Counterterrorism operations against these individuals and groups are 
undertaken in furtherance of U.S. national self-defense and, in some 
cases, also in collective self-defense of partner States such as Iraq. 
The administration is committed to keeping Congress timely and fully 
informed of uses of military force pursuant to the 2001 AUMF, including 
in periodic reports submitted consistent with the War Powers 
Resolution.

    Question 2. Please detail the process for which a new group is 
identified and approved as an associated force under the 2001 AUMF. 
Does such determination trigger a requirement to notify or brief 
Congress?

    Answer. A determination of whether a group is covered by the 2001 
AUMF is made at the most senior levels of the U.S. Government only 
after a careful evaluation of the intelligence concerning each group's 
organization, links with al-Qaeda or the Taliban, and participation in 
al-Qaeda's or the Taliban's ongoing hostilities against the United 
States or its coalition partners.
    The administration periodically briefs members of Congress about 
U.S. operations against these groups and the legal basis for these 
operations.

    Question 3. The administration considers ISIS an associated force 
of al-Qaeda and thus covered under the 2001 AUMF (in addition to being 
covered under the 2002 AUMF). Though we disagree on this, I am further 
troubled by suggestions that the administration may be expanding its 
definition of associated forces to include ISIS affiliated militants or 
ISIS associated forces. Previously, an associated force need to be 
both: 1) an organized, armed group that has entered the fight alongside 
al-Qaeda, and 2) a co-belligerent with al-Qaeda in hostilities against 
the United States or its coalition partners. As such, not every group 
that commits terrorist acts is an associated force and not every group 
aligned with al-Qaeda is an associated force. Can you confirm that the 
administration does not consider forces that are affiliated or 
associated with ISIS as covered under the 2001 AUMF? Please provide the 
administration's current definition of associated forces.

    Answer. The administration has not determined that the 2001 AUMF 
applies to any group solely on the basis that the group is an 
``associated force'' of ISIS. Although branches of ISIS have emerged in 
locations outside Iraq and Syria, we regard those branches in a number 
of locations as being part of ISIS.
    The Government's definition of associated forces remains unchanged 
from the prior administration.
Coalition Partner
    Question 4. Can you confirm that the current number of countries in 
the counter-ISIS coalition is currently 69? Do you believe the U.S. 
currently has the authority to undertake military action, outside of 
treaty obligation, to protect all of these countries in hostilities 
with al-Qaeda through U.S. military operations?

    Answer. There are currently 70 countries in the Defeat-ISIS 
Coalition. Whether and to what extent the United States would have 
legal authority to undertake military action in defense of another 
country would necessarily depend upon the facts and circumstances of a 
specific situation. Of course, as the administration has previously 
reported, the 2001 AUMF provides the authority to use force to defend 
U.S. and Coalition forces engaged in the campaign to defeat ISIS to the 
extent such use of force is a necessary and appropriate measure in 
support of counter-ISIS operations.
Syria Strikes
    Question 5. In April, Representative Schiff and I sent a letter to 
the President asking for the administration's legal justification for 
the April 6th strike against the Shayrat military airbase in Syria. I 
asked General Dunford the same question and he stated he would get back 
to me. To date, I still have not received a response. Can you please 
provide me with the legal justification under domestic and 
international law for these airstrikes?

    Answer. The April 6 U.S. missile strike on Shayrat airfield in 
Syria was not based on the authority of the statutory authorizations 
for use of military force that we have been discussing at this hearing. 
The President authorized that strike pursuant to his power under 
Article II of the Constitution as Commander in Chief and Chief 
Executive to use this sort of military force overseas to defend 
important U.S. national interests. The U.S. military action was 
directed against Syrian military targets directly connected to the 
April 4 chemical weapons attack in Idlib and was justified and 
legitimate as a measure to deter and prevent Syria's illegal and 
unacceptable use of chemical weapons.

                               __________


     Responses to Additional Questions for the Record Submitted to 
     Hon. James Mattis, Secretary of Defense, by Senator Bob Corker

2001 and 2002 AUMF Repeal
    Question 1.  If Congress decided to repeal the 2001 and 2002 
Authorizations for Use of Military Force (AUMFs), and simultaneously 
provide a replacement AUMF that authorizes the President to use all 
necessary and appropriate force against the Taliban, al-Qaeda, ISIS, 
and associated forces (appropriately defined):

   What would be the legal consequences, and what other provisions of 
        law would be impacted? Please be as specific as possible.
   How could Congress mitigate any negative legal consequences in a 
        replacement AUMF and ensure a smooth transition to the new 
        authority, including with respect to legacy detainees? If 
        possible, please provide specific language.

    Answer. The U.S. Government's response in litigation of habeas 
corpus petitions brought on behalf of certain detainees has expressly 
relied on the 2001 Authorization for Use of Military Force (AUMF). One 
of the principal concerns with repealing the 2001 and 2002 
authorizations would be uncertainty regarding the effect of such a 
repeal on the ongoing detention of those individuals. To the extent 
that the Government would seek to continue detaining the individuals on 
the basis of any new AUMF, the applicability of any subsequent law 
could be subject to further litigation. The administration would need 
to review any proposed language that the committee might develop.

2002 AUMF Repeal and 2001 AUMF Amendment
    Question 2.  In the alternative, if Congress decided to repeal the 
2002 AUMF and amend the 2001 AUMF to provide fresh authorization for 
the use of military force against the Taliban, al-Qaeda, ISIS, and 
associated forces (appropriately defined):

   What would be the legal consequences, and what other provisions of 
        law would be impacted? Please be as specific as possible.
   How could Congress mitigate any negative legal consequences with an 
        amended 2001 AUMF and ensure a smooth transition, including 
        with respect to legacy detainees? If possible, please provide 
        specific language.

    Answer. Amendment of the 2001 Authorization for Use of Military 
Force (AUMF) could present similar concerns as a repeal and replacement 
of that law, including that it could result in a need to re-litigate 
the lawfulness of the detention of certain individuals who are 
currently detained under the 2001 AUMF. The administration would need 
to review the specific language of any proposed legislation.

Associated Persons or Forces
    Question 3.  In a letter to Senate leaders earlier this year, you 
and Secretary Tillerson expressed concern about the definition of 
``associated persons or forces'' in S.J. Res. 43, which you stated is 
``inconsistent with the standard applied by the Executive Branch and 
which could result in unnecessary uncertainty regarding its scope.''

   What is the ``standard applied by the Executive Branch'' to which 
        you referred in your letter?
   If the administration does not support the definition of 
        ``associated persons or forces'' in S.J. Res. 43, what 
        definition does the administration recommend for a new AUMF?

    Answer. The Executive Branch has described a concept of 
``associated forces'' in interpreting and applying the 2001 
Authorization for Use of Military Force (AUMF). It requires, first, 
that the entity be an organized, armed group that has entered the fight 
alongside al-Qaeda or the Taliban and, second, that the group be a co-
belligerent with al-Qaeda or the Taliban in hostilities against the 
United States or its coalition partners. In the context of detention, 
the Executive Branch has described the 2001 AUMF as applying to people 
who are part of or substantially support such groups.

2002 AUMF Repeal
    Question 4. Does your Department have any legal or policy concerns 
with repealing the 2002 AUMF? If yes, please explain.

    Answer. Although the threat posed by Saddam Hussein's regime in 
Iraq was the primary focus of the 2002 Authorization for Use of 
Military Force (AUMF), the statute, in accordance with its express 
goals, has always been understood to authorize the use of force for the 
related dual purposes of helping to establish a stable Iraq and of 
addressing terrorist threats emanating from Iraq. After Saddam 
Hussein's regime fell in 2003, the United States continued to take 
military action in Iraq under the 2002 AUMF to further these purposes, 
including action against al-Qaeda in Iraq (now known as the Islamic 
State of Iraq and Syria (ISIS)). Then, as now, that organization posed 
a terrorist threat to the United States and its partners and undermined 
stability and democracy in Iraq. The 2002 AUMF thus continues to 
provide authority for military operations against ISIS in Iraq and, to 
the extent necessary to achieve these purposes, elsewhere, including in 
Syria.

Additional Authorizations for Use of Military Force
    Question 5.  Does your Department construe any of the following 
provisions of existing law as an Authorization for Use of Military 
Force? If yes to any, please specify and explain the interpretation.

   Authorization of the Secretary of Defense to provide support for 
        friendly foreign countries (10 U.S.C. Sec. 331).
   Authorization of the Secretary of Defense to support for foreign 
        forces, irregular forces, groups, or individuals engaged in 
        supporting or facilitating ongoing military operations by 
        United States special operations forces to combat terrorism (10 
        U.S.C. Sec. 127e).
   Authorization of the Secretary of Defense to conduct or support a 
        program or programs to provide training and equipment to the 
        national security forces of one or more foreign countries for 
        the purpose of building the capacity of such forces to conduct 
        one or more of the following (10 U.S.C. Sec. 333):

          1. Counterterrorism operations.
          2. Counter-weapons of mass destruction operations.
          3. Counter-illicit drug trafficking operations.
          4. Counter-transnational organized crime operations.
          5. Maritime and border security operations.
          6. Military intelligence operations.
          7. Operations or activities that contribute to an 
        international coalition operation that is determined by the 
        Secretary to be in the national interest of the United States.

    Answer. The provisions of Title 10 cited in your question provide 
important authority for certain military activities that support 
counterterrorism operations and other aspects of U.S. national 
security, but they are not authorizations to use military force.

                               __________


     Responses to Additional Questions for the Record Submitted to 
 Hon. James Mattis, Secretary of Defense, by Senator Benjamin L. Cardin

Section 4(a) of the War Powers Resolution
    Question.  Section 4(a) of the War Powers resolution requires that 
in the absence of a declaration of war, in any case in which ``United 
States Armed Forces are introduced (1) into hostilities or into 
situations where imminent involvement in hostilities is clearly 
indicated by the circumstances,'' the President must withdraw such 
forces within 60 days unless Congress has declared war or otherwise 
authorized their deployment. U.S. Forces in Niger are now, obviously, 
in an area in which imminent involvement in hostilities is clearly 
indicated by the circumstances of the attack on U.S. soldiers, and the 
resulting death of four of them, in early October. Does the 
administration now consider that the 60-day clock has begun, and if 
not, what is the legal reasoning behind this conclusion?
    Answer. The October 4th ambush of U.S. and Nigerien forces was a 
tragic but isolated incident. It does not indicate imminent involvement 
of U.S. forces in further hostilities. Additionally, our assessment is 
that an ISIS group was responsible for that ambush. Operations against 
ISIS are authorized by the 2001 Authorization for Use of Military Force 
so would not be subject to the termination provision of the War Powers 
Resolution.

                               __________


     Responses to Additional Questions for the Record Submitted to 
     Hon. James Mattis, Secretary of Defense, by Senator Jeff Flake

Operations Authorized by 2002 AUMF
    Question. In your prepared remarks and during the question and 
answer period of the hearing, you repeatedly referenced the need to 
maintain the authorities provided in both the 2001 and 2002 
authorizations for the use of military force (PL 107-40, and PL 107  
243, respectively). The 2002 law provides that, ``The President is 
authorized to use the Armed Forces of the United States as he 
determines to be necessary and appropriate in order to 1) defend the 
national security of the United States against the continuing threat 
posed by Iraq, and 2) enforce all relevant United Nations Security 
Council resolutions regarding Iraq.''

   Given the regime change that has taken place in Iraq following the 
        U.S. invasion in 2003, what utility does PL 107-243 continue to 
        serve?
   What U.S. military operations are currently taking place inside 
        Iraq that rely on the authority provided in PL 107-243?

    Answer. The United States continues to rely on the 2002 
Authorization for Use of Military Force (AUMF) Against Iraq Resolution, 
along with the 2001 AUMF, as part of the domestic legal basis for 
conducting military operations against the Islamic State of Iraq and 
Syria (ISIS) in Iraq and Syria. Although the threat posed by Saddam 
Hussein's regime in Iraq was the primary focus of the 2002 AUMF, the 
statute, in accordance with its express goals, has always been 
understood to authorize the use of force for the related dual purposes 
of helping to establish a stable Iraq and of addressing terrorist 
threats emanating from Iraq. After Saddam Hussein's regime fell in 
2003, the United States continued to take military action in Iraq under 
the 2002 AUMF to further these purposes, including action against al-
Qaeda in Iraq (now known as ISIS). Then, as now, that organization 
posed a terrorist threat to the United States and its partners and 
undermined stability and democracy in Iraq. The 2002 AUMF continues to 
provide authority for military operations against ISIS in Iraq and, to 
the extent necessary to achieve these purposes, elsewhere, including in 
Syria. The 2002 AUMF also provides authority to respond to threats to 
U.S. national security from Iraq that may re-emerge in the future and 
that may not be covered by the 2001 AUMF. The repeal of the 2002 AUMF 
could call into question the President's authority to use military 
force to assist the Government of Iraq both in the fight against ISIS 
and in stabilizing Iraq following the destruction of ISIS's so-called 
caliphate.

                               __________


     Responses to Additional Questions for the Record Submitted to 
  Hon. James Mattis, Secretary of Defense, by Senator Robert Menendez

Defeating ISIS
    Question 1. As the fight to recapture territory held by ISIS seems 
to wind down, what are the standards and metrics you will use to 
determine the defeat of ISIS in Iraq and Syria?

    Answer. The Islamic State of Iraq and Syria (ISIS) will be 
militarily defeated when it is unable to plot and carry out attacks 
against the United States, and when local security forces are capable 
of pursuing the group's underground networks. The coalition has 
liberated more than 90 percent of ISIS-held territory, its plotters are 
on the run, and fewer fighters are flocking to its banner. However, the 
job is not done. ISIS will continue to pose a terrorist threat to the 
U.S. and our interests in the region, as it continues efforts to 
destabilize the region and direct or inspire external attacks. The 
coalition has played, and will continue to play, a vital role in 
supporting partners in Iraq and Syria as they secure their hard fought 
gains.

ISIS Threat After Fall of Rocca
    Question 2. What is your assessment of the ISIS threat after the 
lose their territory? Where will ISIS fighters go and what tactics will 
they employ? Is there a threat of ISIS fighter rebranding?

    Answer. The Islamic State of Iraq and Syria (ISIS) still poses a 
security threat in Iraq and Syria despite losing large amounts of 
territory to Iraqi, pro-Syrian regime, and Coalition forces. ISIS 
probably is giving priority to clandestine operations to plot attacks 
to degrade local governance and security and maintain the group's 
legitimacy. ISIS members who remain loyal to the group may provide 
administrative or logistic support to these networks. Members who have 
become disillusioned by ISIS's apparent defeat probably will attempt to 
reintegrate into their communities. In areas such as Baghdad, Kirkuk, 
and Diyala where it has robust networks, ISIS is conducting 
sophisticated operations, including IEDs, ambushes, or suicide attacks. 
ISIS could engage in some localized rebranding or alliances to preserve 
the group's security. The group has not changed its extremist ideology 
to allow alliances with more moderate groups and is tailoring its 
narrative to highlight that considerable setbacks are part of its 
preordained, multi-generational struggle.

Authorities to Remain in Iraq or Syria
    Question 3. Is there a point at which you will run out of 
authorities to legally remain in Iraq--or Syria-- if ISIS, al-Queda, 
Jabhat Fateh Al-Sham, or any other affiliate groups have been driven 
from their previously held territory?

    Answer. The domestic and international legal bases for U.S. 
military operations in Iraq and Syria do not depend on the Islamic 
State of Iraq and Syria`s, or any other group's, physical control of 
territory. Whether and to what extent the United States would have 
legal authority to undertake specific military actions in Iraq and 
Syria in the future would necessarily depend upon the facts and 
circumstances of a specific situation.

Iraqi Popular Mobilization Forces
    Question 4. In Iraq, how do you determine which groups within the 
Popular Mobilization Forces in Iraq are taking orders from Iran? What 
is the U.S. policy on demobilizing the PMF after ISIS is defeated in 
Iraq? Does PMF involvement in Kurdish majority areas threaten stability 
and civilian protection in these areas?

    Answer. I am under no illusions about the destabilizing nature of 
Iran's activities in the region. The Department remains committed to 
helping the Government of Iraq (GoI) counter Iranian policies that 
heighten sectarian tensions and undermine Iraqi sovereignty. The 
Popular Mobilization Forces (PMF) are part of the Iraqi Security Forces 
(ISF), reporting to the Prime Minister's Office. The PMF is composed of 
more than 40 groups, many of them Shia, but also Sunni, Christian, and 
Yazidi. The Department will support the GoI as it continues to reform 
its security sector, including the GoI's efforts to ensure all armed 
groups are under their full control. The presence of any sectarian 
forces in sensitive, disputed areas is unhelpful and destabilizing. The 
Department has convened military leaders from the Iraq Security Forces 
and the Iraqi Kurdish Peshmerga to promote calm, ensure situational 
awareness, and encourage the establishment of joint security mechanisms 
to ease tensions and facilitate a broader political dialogue. I expect 
enhanced military coordination will facilitate constructive dialogue on 
a host of political issues, from disputed internal boundaries to oil 
revenue sharing.

Iranian Actions in Syria
    Question 5.  As Iran's influence continues to grow in Syria, what 
measures would we take if Iran attacked U.S.-backed forces there? Under 
what authorities?

    Answer. The efforts of the U.S.-led Global Coalition to Defeat the 
Islamic State of Iraq and Syria (ISIS) in Syria are aimed at the defeat 
of ISIS. The United States does not seek to fight the Syrian Government 
or pro-Syrian-Government forces, including Iran. The 2001 Authorization 
for use of Military Force (AUMF) authorizes the use of force against 
al-Qaeda and associated forces, including against ISIS, including in 
Iraq and Syria. The 2001 AUMF also provides authority to use force to 
defend U.S., Coalition, and partner forces engaged in the campaign to 
defeat ISIS to the extent such use of force is a necessary and 
appropriate measure in support of these counter-ISIS operations. As a 
matter of international law, the United States is using force in Syria 
against al-Qaeda and associated forces, including against ISIS, and is 
providing support to Syrian partners fighting ISIS, such as the Syrian 
Democratic Forces, in the collective self-defense of Iraq (and other 
States) and in U.S. national self-defense. Necessary and proportionate 
measures in self-defense include the use of force as needed to defend 
U.S., Coalition, and U.S.-supported partner forces engaged in the 
campaign to defeat ISIS from interference by Syrian Government and pro-
Syrian-Government forces.

Russian Support to the Taliban
    Question 6. In August, Secretary Tillerson said that it appeared 
Russia was ramping up support of the Taliban in Afghanistan. Is the 
friend of our enemy our enemy as well? Does this make Russia our enemy 
in Afghanistan or more broadly? What authorities do you believe you 
have to respond to state-sponsored support of the Taliban and how would 
you use those authorities? What authorities would you seek?

    Answer. Reports of Russian support to the Taliban are puzzling 
because a de-stabilized Afghanistan is clearly not in Russia's 
interest. I understand the Department is looking at this issue 
carefully to determine where it is necessary to moderate any unhelpful 
Russian behavior. Russia and the United States have a shared interest 
in Afghanistan's stability. Russia's participation in the Afghan-led 
and owned peace process and contributions to regional stability would 
be welcome. However, I do believe state sponsors of terror need to be 
held fully accountable, and I would work closely with the State 
Department and other agencies to ensure we are exercising all necessary 
tools and authorities to increase the costs on states that sponsor 
support of the Taliban.

State Department Cuts
    Question 7. Our military leaders generally agree that the best 
investments we can make into preventing war start with a robust 
diplomacy and development budget. You submitted a budget with deep cuts 
to critical diplomatic initiatives and development efforts. The 
President has not provided a nomination for an Ambassador to South 
Korea--our most crucial ally as we seek to confront an aggressive North 
Korea. You shuttered the office of the Special representative for 
Afghanistan and Pakistan. What are the implications for cuts to the 
State Department? What are the implications for less than a fully 
staffed diplomatic presence in places like Iraq and Afghanistan?

    Answer. The Department of Defense strongly supports, and relies on, 
the Department of State's leading role in establishing and implementing 
U.S. foreign policy. The Department of State needs to be appropriately 
staffed and resourced in order to protect our country's national 
security. The Department of Defense relies on our diplomatic corps to 
help resolve disputes before they become military crises. State 
Department personnel likewise play an invaluable role in theaters of 
conflict, leading the important work of diplomacy, humanitarian relief, 
and development. The role of the Department of State is particularly 
critical in areas where we are seeking to negotiate a peace, build an 
enduring relationship, or manage a potential contingency, as is the 
case in places like the Korean Peninsula, Afghanistan, and Iraq. The 
Department of Defense and the Department of State must work together 
closely and be able to call upon their respective authorities and 
expertise to navigate today's challenging global security environment 
and protect U.S., allied, and partner interests around the world.

Cyberattack Response
    Question 8. If the United States suffered a state-sponsored massive 
cyberattack, how would we respond? Do the Departments of Defense and 
State have in place response plans to cyberattacks? How should Congress 
authorize those responses? Should we measure cyberattacks on a scale? 
Would an attack on the energy grid of a major city merit the same 
response as an attack on a nuclear facility? On a voter database?

    Answer. The United States responds to cyber threats through a 
whole-of-government approach that leverages the full range of U.S. 
Government capabilities--diplomatic, economic, law enforcement, 
technical, and military. The Department of Defense (DoD) maintains a 
deliberate planning process to prepare for the defense of the Nation 
across all domains, including cyberspace. DoD's plans and actions are 
always in support of the larger foreign policy and diplomatic efforts 
of the U.S. Government. The Department of State supports interagency 
efforts to address cyber incidents that rise to the level of a national 
security concern by providing foreign policy guidance on appropriate 
responses, building support among foreign governments for such 
responses and, where appropriate, delivering messages of warning to 
potential adversaries.
    The U.S. Government evaluates malicious cyber activities on a case-
by-case basis precisely because, as your questions highlight, the 
appropriateness of a response is dependent on the specific facts and 
context of the particular malicious cyber activity in question. Factors 
to be assessed include the scope, scale, and impact of the activity; 
the entities targeted; the actor that executed the activity; and any 
broader context from the international security environment. The loss 
of life and threats to public health and safety obviously raise the 
greatest concern.
    When evaluating a cyber attack to determine the appropriate 
response, it is the effects of the attack, and not the instrument used 
to carry it out, that matters. If cyber operations cause effects that, 
if caused by traditional physical means, would be regarded as a use of 
force, then such cyber operations would likely also be regarded as a 
use of force. Moreover, there need not be the loss of life for a 
response to be merited. As we have seen during the past 18 months, our 
adversaries are seeking to act below the threshold of the use of force. 
To the extent that adversary cyber activity seeks to undermine U.S. 
national security and prosperity, the United States reserves the right 
to respond appropriately and proportionately at a time and place of its 
choosing with any of the instruments of national power, including the 
military and including cyberspace.

Al-Qaeda-Iran Connection
    Question 9. CIA Director Pompeo was recently quoted as saying the 
al-Qaeda-Iran connection is an ``open secret.'' Do you agree that the 
al-Qaeda-Iran connection is an open secret? Was he laying groundwork to 
expand operations against al-Qaeda into Iran?

    Answer. It would be inappropriate for me to speculate on the intent 
of Director Pompeo's remarks.

POTUS in the Chain of Command
    Question 10. Civilian control of the military is one of the most 
critical underpinnings of a free and democratic society. Regarding the 
recent attack in Niger, the President recently told reporters on 
Wednesday of last week that he had not specifically authorized that 
mission. He said, ``I have generals--they are great generals. I gave 
them authority to do what's right so that we win. I want to win and 
we're going to win and we're beating ISIS very badly . . .  as far as 
the incident we're talking about I've been seeing it just like you've 
been seeing it.. They have to meet the enemy and they meet them tough 
and that's what happens.'' In your view, where does the chain of 
command begin and end? In other words--where does the buck stop with 
authorizing military operations?

    Answer. The President of the United States is the Commander-in-
Chief of the U.S. Armed Forces. The President delegates authority, 
through the military chain of command, to conduct a wide range of 
military operations.

Rules of Engagement
    Question 11. In general, it seems that thus far, the President has 
largely continued policies of the Obama administration and claimed new 
ideas for fighting ISIS. On October 17, and other times as well, the 
President stated: ``I totally changed rules of engagement. I totally 
changed our military, I totally changed the attitudes of the military 
and they have done a fantastic job.'' I understand the President sent a 
memo on January 28 directing the DOD to develop a plan to defeat ISIS 
and asked for recommended changes to ROE. What are those changes? Could 
they put our troops more in harm's way? Do they change our approach to 
civilian casualties? Do the American people have a right to know under 
what terms our military is engaging in conflict, widely and ambiguously 
defined training missions, and other deployments?

    Answer. The President's delegation of certain authorities to 
appropriate levels has allowed the Department to be more flexible and 
react more quickly to battlefield opportunities against the Islamic 
State of Iraq and Syria (ISIS) and threats to our forces. These 
adjustments have accelerated the territorial defeat of ISIS and allowed 
us to degrade the group's leadership and capabilities while keeping our 
forces safe and minimizing the risks to civilians. The military 
continues to take all feasible measures to minimize civilian harm in 
military operations. The use of force continues to be governed by the 
law of armed conflict, including the principles of proportionality, 
distinction, necessity, and humanity. The Department is committed to 
transparency and provides regular updates to Congress on the military 
mission and force levels in Iraq and Syria.

                               __________


     Responses to Additional Questions for the Record Submitted to 
      Secretary of Defense Hon James Mattis by Senator Todd Young

Excess Infrastructure
    Question. In its FY 2018 Budget Request, the Department of Defense 
requested authority to conduct a Base Realignment and Closure (BRAC) 
round in fiscal year 2021. The proposal noted that ``the Department has 
about 20 percent more infrastructure capacity than required for its 
operations.'' What are the implications for readiness and modernization 
if the services are required to maintain infrastructure they don't 
need?

    Answer. Like any business, maintaining excess infrastructure denies 
the Department the opportunity to spend funds on higher priorities. The 
Department requested a Base Realignment and Closure (BRAC) round for 
2021 to provide a means to align infrastructure with force structure 
and to station our forces to enhance their capabilities and lethality. 
The Department is developing a new National Defense Strategy, and it 
must be supported by an updated basing strategy. Without BRAC, the 
Department cannot station forces as effectively as possible because we 
are locked into a status quo configuration, thereby negatively 
affecting readiness. I must be able to eliminate excess infrastructure 
in order to shift resources to readiness and modernization. The 
billions in annual recurring savings--otherwise wasted on unnecessary 
infrastructure--could be applied directly to readiness (e.g. more 
training) and modernization (e.g. investing in next generation weapons 
systems).

                               __________


     Responses to Additional Questions for the Record Submitted to 
   Hon. James Mattis, Secretary of Defense, by Senator Jeanne Shaheen

Euphrates River Valley
    Question. Secretary Mattis, I agree with you when you said that 
Syria is ``the most complex battlefield.'' Also in your response to my 
question, you said that the United States will continue to clear the 
Euphrates River Valley. You specifically said that our military will 
move toward Mayadin. Reports, however, indicate that Asad's regime 
forces and the Russians are in that area. What are the differences 
between regime's goals in Mayadin and for the greater Eurphrates River 
Valley, and U.S. goals? If we have similar goals, why is deconfliction 
necessary? If we have differing goals, how do we trust that the 
diplomatic process that you laid out will work?

    Answer. The Syrian Government's motivation for operations in the 
Euphrates River Valley is no different than its motivation for 
operations in western Syria: to regain control over the fractured 
Syrian state and reassert President Assad's will over the Syrian 
people. Although the Syrian Government is finally confronting the 
Islamic State of Iraq and Syria (ISIS), make no mistake--we are not 
working together with Syria or its partners, and they are not 
approaching this fight in a way that will prevent ISIS' return. In 
contrast, we are working ``by, with, and through'' local partners to 
defeat ISIS militarily and secure, stabilize, and restore local 
governance in liberated areas to prevent ISIS' return. De-confliction 
measures are necessary to reduce the risk of escalatory incidents and 
ensure the safety of coalition forces operating nearby. Through the 
established deconfliction channels with Russia, we are able to mitigate 
risk from pro-regime forces and preserve the operational safety of 
coalition and coalition-supported forces. De-confliction discussions 
between the United States and Russia thus far have been professional 
and constructive.

                               __________


     Responses to Additional Questions for the Record Submitted to 
   Hon. James Mattis, Secretary of Defense, by Senator Johnny Isakson

E-8 Joint Surveillance Attack Radar System (JSTARS)
    Question 1. During the hearing, you mentioned that not only are the 
intelligence, surveillance, and reconnaissance (ISR) requirements not 
being met within U.S. Africa Command's (AFRICOM) area of 
responsibility, but also that ISR requirements are not being met 
worldwide. This is understandable as the number of priority 
intelligence requirements far outnumber the number of platforms 
available. This is only further complicated by the continued 
decentralization of operations by violent extremist organizations. 
Despite this, however, the Air Force has indicated its desire to divest 
the E-8 Joint Surveillance Attack Radar System (JSTARS) in favor of 
synchronizing a host of other platforms to provide the same 
capabilities. JSTARS' unique ability to provide battle management, 
command and control, and ISR capabilities through a single platform are 
unparalleled and divestment should strongly be reconsidered bearing in 
mind the collection gaps and ISR shortages that you stated. Do you 
recommend that the Air Force continue forward with the recapitalization 
of JSTARS rather than planned retirement in order to meet the ISR 
demands of AFRICOM and the other combatant commands?
    Answer. The Department of Defense will continue to evaluate any 
changes to programs that support our warfighters with the full and open 
participation of the Combatant Commands. I believe we must modernize 
the required capabilities for battlefield management; command and 
control; and intelligence, surveillance, and reconnaissance. As in all 
low-density, high-demand capabilities, careful analysis and allocation 
of these limited actions are required. This is done through an 
extensive process that includes the participation of the Joint Staff, 
Combatant Commanders, and the Services.

DPRK Artillery
    Question 2. Even without a nuclear weapon, North Korea (DPRK) has 
hundreds of conventional artillery pieces capable of attacking Seoul. 
The devastation there would be catastrophic and millions of lives would 
be lost. What capabilities do we have in place to counter such an 
attack? Do we need additional resources and capabilities there to 
protect our Korean allies and the U.S. citizens that live within the 
range of DPRK artillery?

    Answer. The United States and the Republic of Korea (ROK) continue 
to modernize the Alliance posture in order to deter and respond to any 
conventional or nuclear attack by the Democratic People's Republic of 
Korea (DPRK). This includes the U.S. steady-state presence of 28,500 
U.S. forces, a layered ballistic missile defense architecture, and 
rotational deployment of top U.S. capabilities in and around the Korean 
Peninsula. Our extended deterrence commitment to the ROK remains 
steadfast, and we are committed to defending our allies using the full 
range of our capabilities--including the U.S. nuclear umbrella and 
conventional capabilities--against the DPRK. We have substantially 
bolstered our ballistic missile defense capabilities in the Asia-
Pacific region in recent years with the deployment of an additional AN-
TPY-2 (ballistic missile warning) radar to Japan, an increased number 
of deployed U.S. Navy Aegis Ballistic Missile Defense capable ships, 
Patriot PAC-3 ballistic missile defense upgrades in the ROK, and 
deployments of a Terminal High-Altitude Area Defense (THAAD) battery to 
Guam and the ROK. The U.S.-ROK Alliance decision to operationalize the 
THAAD battery is part of a continued effort to acquire critical 
military capabilities to ensure the defense of both U.S. and ROK forces 
and citizens living in the ROK from the increasing North Korean nuclear 
and ballistic missile threats.

                               __________


     Responses to Additional Questions for the Record Submitted to 
     Hon. James Mattis, Secretary of Defense, by Senator Tim Kaine

Associated Forces
    Question 1. Can you please detail and list all the groups that have 
been deemed associated forces under the 2001 AUMF and all the locations 
where the U.S. military is involved under the 2001 AUMF? How many of 
these associated forces are engaged in hostilities against the United 
States, its Armed forces, or personnel? Which of these associated 
forces present a direct threat to the Unites States? Is there a single 
source that Congress can access to find up to date information on this 
question?

    Answer. The U.S. military is currently taking direct action against 
the following individuals and groups under the authority of the 2001 
Authorization for Use of Military Force (AUMF): al-Qaeda; the Taliban; 
certain other terrorist or insurgent groups affiliated with al-Qaeda 
and the Taliban in Afghanistan; al-Qaeda in the Arabian Peninsula; al-
Shabaab; al-Qaeda in Syria; and ISIS.
    During the Trump administration, the United States has used 
military force pursuant to the 2001 AUMF in Afghanistan, Cuba 
(detention operations), Iraq, Libya, Somalia, Syria, Niger, and Yemen.
    As a matter of international law, the United States is in an 
ongoing non-international armed conflict with these groups and 
individuals and is engaged in hostilities against them. 
Counterterrorism operations against these individuals and groups are 
undertaken in furtherance of U.S. national self-defense and, in some 
cases, also in collective self-defense of partner States such as Iraq. 
The administration is committed to keeping Congress timely and fully 
informed of uses of military force pursuant to the 2001 AUMF, including 
in periodic reports submitted consistent with the War Powers 
Resolution.

    Question 2. Please detail the process for which a new group is 
identified and approved as an associated force under the 2001 AUMF. 
Does such determination trigger a requirement to notify or brief 
Congress?

    Answer. A determination of whether a group is covered by the 2001 
AUMF is made at the most senior levels of the U.S. Government only 
after a careful evaluation of the intelligence concerning each group's 
organization, links with al-Qaeda or the Taliban, and participation in 
al-Qaeda's or the Taliban's ongoing hostilities against the United 
States or its coalition partners.
    The administration periodically briefs members of Congress about 
U.S. operations against these groups and the legal basis for these 
operations.

    Question 3. The administration considers ISIS an associated force 
of al-Qaeda and thus covered under the 2001 AUMF (in addition to being 
covered under the 2002 AUMF). Though we disagree on this, I am further 
troubled by suggestions that the administration may be expanding its 
definition of associated forces to include ISIS affiliated militants or 
ISIS associated forces. Previously, an associated force need to be 
both: 1) an organized, armed group that has entered the fight alongside 
al-Qaeda, and 2) a co-belligerent with al-Qaeda in hostilities against 
the United States or its coalition partners. As such, not every group 
that commits terrorist acts is an associated force and not every group 
aligned with al-Qaeda is an associated force. Can you confirm that the 
administration does not consider forces that are affiliated or 
associated with ISIS as covered under the 2001 AUMF? Please provide the 
administration's current definition of associated forces.

    Answer. The administration has not determined that the 2001 AUMF 
applies to any group solely on the basis that the group is an 
``associated force'' of ISIS. Although branches of ISIS have emerged in 
locations outside Iraq and Syria, we regard those branches in a number 
of locations as being part of ISIS.
    The Government's definition of associated forces remains unchanged 
from the prior administration.
Coalition Partner
    Question 4. Can you confirm that the current number of countries in 
the counter-ISIS coalition is currently 69? Do you believe the U.S. 
currently has the authority to undertake military action, outside of 
treaty obligation, to protect all of these countries in hostilities 
with al-Qaeda through U.S. military operations?

    Answer. There are currently 70 countries in the Defeat-ISIS 
Coalition. Whether and to what extent the United States would have 
legal authority to undertake military action in defense of another 
country would necessarily depend upon the facts and circumstances of a 
specific situation. Of course, as the administration has previously 
reported, the 2001 AUMF provides the authority to use force to defend 
U.S. and Coalition forces engaged in the campaign to defeat ISIS to the 
extent such use of force is a necessary and appropriate measure in 
support of counter-ISIS operations.
Syria Strikes
    Question 5. In April, Representative Schiff and I sent a letter to 
the President asking for the administration's legal justification for 
the April 6th strike against the Shayrat military airbase in Syria 
(attached). I asked General Dunford the same question and he stated he 
would get back to me. To date, I still have not received a response. 
Can you please provide me with the legal justification under domestic 
and international law for these airstrikes?

    Answer. The April 6 U.S. missile strike on Shayrat airfield in 
Syria was not based on the authority of the statutory authorizations 
for use of military force that we have been discussing at this hearing. 
The President authorized that strike pursuant to his power under 
Article II of the Constitution as Commander in Chief and Chief 
Executive to use this sort of military force overseas to defend 
important U.S. national interests. The U.S. military action was 
directed against Syrian military targets directly connected to the 
April 4 chemical weapons attack in Idlib and was justified and 
legitimate as a measure to deter and prevent Syria's illegal and 
unacceptable use of chemical weapons.

Congressional Reports
    Question 6. In response to a question from Senator Coons regarding 
public transparency on military deployments, you referred to 901 
reports to the Senate for FY 2016 and an additional 175, implying 1,076 
reports, for FY 2017 in the your reply. In an effort to improve upon 
the communications between your Department and the Senate, could you 
provide responses to the following questions:

   Of the 901 reports cited for FY 2016, how many involved troop 
        deployments, status updates on military operations or intended 
        missions?
   For the reports involving troop deployments, status updates on 
        military operations or intended missions, did these reports 
        also note the legal authorization for such actions? What are 
        the source documents requiring those reports?
   Do you have any recommendations to better consolidate or improve 
        the process for generating and/or submitting reports on troop 
        deployment status updates on military operations or intended 
        missions and their legal authority to Congress?

    Answer. I believe the process by which the Department provides 
reports to Congress needs appropriate transparency and reform to enable 
the Congress to conduct oversight. In that spirit, I look forward to 
working with the Congress on solutions to consolidate and improve the 
process for generating and submitting the needed reports on all topics 
of interest to the Congress. The Deputy Secretary of Defense is leading 
our efforts to improve this process.

                               __________


     Responses to Additional Questions for the Record Submitted to 
    Hon. James Mattis, Secretary of Defense, by Senator Rob Portman

Global Engagement Center
    Question 1. Secretary Mattis, as you know, the 2017 NDAA, which was 
signed into law in December 2016, authorized up to $60 million to 
support interagency efforts led by the State Department's Global 
Engagement Center to counter propaganda and disinformation by countries 
like Russia, China, and Iran--as well as terrorist groups like ISIS. I 
was pleased to see Secretary Tillerson's decision to approve the GEC's 
strategic plan and release funds to execute it. The State Department 
also submitted a request to DoD for $40 million to support the GEC's 
efforts to counter foreign disinformation and help ensure unity of 
effort between DoD and the State Department. Despite the urgency of the 
threat, I do not believe DoD has released these funds.

   Secretary Mattis, would you agree that the dangers posed by 
        extremist messaging and state-sponsored information operations 
        represent a critical national security threat to the United 
        States?

    Answer: I agree that extremist messaging and state-sponsored 
information operations represent a national security threat. The Global 
Engagement Center has the potential to play a key role in exposing and 
countering extremist and state-sponsored disinformation and propaganda 
aimed at countering U.S. national interests. The Department of Defense 
will continue to collaborate with the Department of State and other 
relevant U.S. departments and agencies to counter these threats.

    Question 2. Secretary Mattis, as you know, the 2017 NDAA, which was 
signed into law in December 2016, authorized up to $60 million to 
support interagency efforts led by the State Department's Global 
Engagement Center to counter propaganda and disinformation by countries 
like Russia, China, and Iran--as well as terrorist groups like ISIS. I 
was pleased to see Secretary Tillerson's decision to approve the GEC's 
strategic plan and release funds to execute it. The State Department 
also submitted a request to DoD for $40 million to support the GEC's 
efforts to counter foreign disinformation and help ensure unity of 
effort between DoD and the State Department. Despite the urgency of the 
threat, I do not believe DoD has released these funds. Where does the 
Department of Defense stand on executing the transfer of the $40 
million for carrying out the GEC's important mandate?

    Answer. The Department of Defense plans to support the Global 
Engagement Center in fulfilling its statutory roles and 
responsibilities by partnering with the Department of State on a 
mutually agreed upon collaborative pilot program in Fiscal Year 2018 to 
counter state actor disinformation and propaganda. The Department of 
Defense will propose the establishment of a joint Department of Defense 
and Department of State senior-level coordination group that would 
determine the scope of Department of Defense-supported programs. This 
proposed coordination group would be composed of relevant Department of 
Defense and Department of State regional and functional offices with 
equities in countering state and non-state actor disinformation and 
propaganda campaigns.

Defensive Lethal Assistance to Ukraine
    Question 3. Since 2014, Ukraine has struggled to defend its 
sovereignty and territorial integrity against Russian aggression. I 
have long supported providing Ukraine with the support it needs, 
including defensive lethal military assistance, to defend itself and 
believe Russia must be held accountable for its unacceptable and 
destabilizing violations of Ukraine's sovereignty. Therefore, I was 
very encouraged by reports that a decision by the Trump administration 
to approve this vital capability was apparently imminent. Despite this 
optimism, however, a a decision to provide lethal aid has not been 
forthcoming. I believe you are both on the record in favor of providing 
defensive lethal assistance to the Ukrainians (Tillerson said so in 
response to RP question at his confirmation hearing), so I'd be curious 
to hear your thoughts on where things stand. Secretary Mattis and 
Secretary Tillerson, do you both still support providing defensive 
lethal military assistance to the Ukrainian armed forces?

    Answer. Since 2014, the United States has committed more than $750 
million in security assistance including training programs to improve 
Ukraine's internal defense capabilities, equipment to meet some of 
Ukraine's most critical operational needs, and advisory efforts to 
advance the implementation of critical defense reforms. In addition to 
this extensive support, the United States has not ruled out the option 
of providing weapons to Ukraine. I recently visited Kyiv and consulted 
with Ukrainian leaders in order to be able to inform the President and 
Secretary Tillerson in very specific terms on this issue. The 
Department will continue to examine how best to use U.S. security 
assistance to bolster Ukraine's ability to defend its sovereignty and 
territorial integrity, and to deter Russian aggression.

Budapest Memorandum and Non-Proliferation
    Question 4. Far more than just the territorial integrity of Ukraine 
and the principle of respecting sovereign borders are at stake here. 
When Ukraine regained its independence following the collapse of the 
Soviet Union, it possessed the world's third-largest nuclear arsenal. 
In 1994, the United States, Britain, Russia, and Ukraine signed the 
Budapest Memorandum, which assured Ukraine's sovereignty and 
territorial integrity in return for Ukraine giving up its nuclear 
weapons. If the United States does not unequivocally support Ukraine's 
defense of its sovereignty and undermines the value of U.S. security 
assurances, what will be the impact on U.S. non-proliferation efforts 
around the world? Why should a country like North Korea give up its 
nuclear weapons?

    Answer: The United States strongly supports Ukraine's sovereignty 
and territorial integrity, including Ukraine's right to choose its own 
foreign policy course. In contrast, Russia's actions continue to 
threaten Ukraine's security, stability, sovereignty, and territorial 
integrity. Russia must live up to its international commitments and 
remove its forces from Ukraine. The impact of Russia's actions on 
nuclear nonproliferation, the United States and the vast majority of 
nations worldwide remain committed to the global nuclear 
nonproliferation regime, with the Nuclear Non-Proliferation Treaty 
(NPT) as its foundation. Ukraine made the right strategic choice to 
give up its nuclear weapons in 1994, and it is imperative that the 
world community continue to condemn Russia for its flagrant violation 
of the understandings reached in the Budapest Memorandum.
    With respect to North Korea, Kim Jung Un must recognize that the 
world is united against his regime's continued possession of nuclear 
weapons. There are multiple United Nations Security Council resolutions 
that call on the regime to relinquish its weapons of mass destruction 
capabilities and their means of delivery. North Korea must understand 
that these efforts will only make it more isolated and less secure than 
if it agreed to denuclearize comprehensibly, verifiably, and 
irreversibly in order to rejoin the world community.

Afghanistan Strategy
    Question 5. Secretary Mattis, can you please explain the 
relationship between the counter-terrorism mission in Afghanistan and 
our efforts to build the capacity of Afghan security forces and help 
them ensure stability throughout the country.

    Answer. The U.S. counterterrorism mission complements the Resolute 
Support mission of train, advise, assist (TAA) to build the capacity of 
the Afghan National Defense and Security Forces (ANDSF). Limited U.S. 
unilateral direct action, coupled with a stronger and increasingly 
capable ANDSF, helps preserve the security gains to date and 
contributes to a robust, enduring partnership aimed at securing the 
people and territory of Afghanistan. The Special Operations Joint Task 
Force-Afghanistan (SOJTF-A) supports U.S. counterterrorism efforts 
through TAA with the Afghan Special Security Forces (ASSF) and by 
accompanying them on certain operations. The ASSF will continue to 
conduct operations in Afghanistan using its increasing capabilities to 
address both insurgent and transnational threats. The focus of SOJTF-
A's TAA mission is to build the ASSF's capacity logistics, command and 
control, intelligence analysis and sharing, aviation, and 
interoperability between the ASSF and conventional forces.

                               __________


CIA Memorandum for the Director: Use of Nuclear Weapons in the Vietnam 
                           War--18 March 1966


                      OFFICE OF NATIONAL ESTIMATES
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Letter Expressing the Trump Administration's Opposition to S.J. Res. 41 
                            and S.J. Res. 43

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


        Navy Contract Solicitation for Personnel Support, Part 1


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


        Navy Contract Solicitation for Personnel Support, Part 2


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
